No. 21In the

Supreme Court of the United States

JUDITH S. COFFEY et al.,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

A nthony M. Bruce
Counsel of Record
A ndreozzi Bluestein LLP
9145 Main Street
Clarence, New York 14031
(716) 565-1100
amb@andreozzibluestein.com
Counsel for Petitioners

307195

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
The three-year statute of limitations established by
Section 6501(a) of the Internal Revenue Code is triggered
by filing “the [tax] return required to be filed by the
taxpayer.” Under Section 932(c)(2) of the Code, a “bona
fide resident” of the U.S. Virgin Islands is required to
file her U.S. income tax return with the Virgin Islands
Bureau of Internal Revenue. The question presented in
this Petition is:
Whether a Form 1040 (U.S. Individual Income Tax
Return) filed with the U.S. Virgin Islands Bureau of
Internal Revenue (“VIBIR”) pursuant to Section 932(c)
(2) is the “return required to be filed by the taxpayer”
commencing the statute of limitations on assessment
under Section 6501(a), even if it is subsequently
determined that the taxpayer was not a bona fide
resident of the Virgin Islands.

ii
PARTIES
The parties to this case include:
• Judith S. Coffey (Petitioner)
• The Estate of James Coffey, Judith Coffey Executrix
(Petitioner)
• Government of the United States Virgin Islands
(Petitioner)
• The Commissioner of Internal Revenue (Respondent)

iii
STATEMENT OF RELATED CASES
• Melissa Coffey Hulett A.K.A. Melissa Coffey, et al.
v. Commissioner of Internal Revenue, Nos. 3067609, 31119-09, 4720-10, 4949-10, United States Tax
Court. Judgment entered January 29, 2018, Motion
to Vacate granted, and revised Judgment entered
July 24, 2018.
• Judith S. Coffey v. Commissioner of Internal
Revenue, No. 18-3256, U.S. Court of Appeals for
the Eighth Circuit. Judgment entered February
12, 2021, request for rehearing denied May 3, 2021.
• Estate of James Coffey, Judith Coffey Executrix
v. Commissioner of Internal Revenue, No. 183259, U.S. Court of Appeals for the Eighth Circuit.
Judgment entered February 12, 2021, request for
rehearing denied May 3, 2021.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RELEVANT STATUTORY PROVISIONS AND
REGULATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. The U.S. Virgin Islands and the “Mirror Code” . . 5
B. The Section 932 Regime  . . . . . . . . . . . . . . . . . . . . 6

v
Table of Contents
Page
C. The Coffeys’ Tax Returns and Proceedings
Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . . 13
A. The Eighth Circuit Opinion is in direct conflict
with this Court’s decision in Germantown
Trust  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
B. The Eighth Circuit’s opinion conflicts with
decisions of five other Courts of Appeals  . . . . . 18
C. The Eighth Circuit’s Opinion Creates
Catastrophic Consequence for USVI
Taxpayers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
D. The Coffeys’ Section 932(c)(2) returns trigger
Section 6501(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT, FILED
FEBRUARY 12, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES TA X COURT, FILED
JULY 24, 2018  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13a
APPENDIX C — ORDER AND DECISION
OF THE UNITED STATES TAX COURT,
DATED JULY 24, 2018 . . . . . . . . . . . . . . . . . . . . . . . 27a
A PPEN DI X D — OR DER OF T H E
UNITED STATES TAX COURT, DATED
JULY 24, 2018  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30a
A PPENDI X E — ORDER A ND
DECISION OF THE UNITED STATES
TAX COURT, FILED JULY 24, 2018 . . . . . . . . . . 44a
A P P E N DI X F — O P I N ION O F T H E
UNITED STATES TAX COURT, DATED
JANUARY 29, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . .  47a
A P P E N DI X G — O R D E R D E N Y I N G
REHEARING IN THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH
CIRCUIT, FILED MAY 3, 2021 . . . . . . . . . . . . . .  116a

vii
Table of Appendices
Page
A PPEN DI X H — OR DER OF T H E
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT, FILED
FEBRUARY 10, 2021  . . . . . . . . . . . . . . . . . . . . . . . 118a
APPENDIX I — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 120a
2003 26 USCS § 932 . . . . . . . . . . . . . . . . . . . . . . . . . 120a
2004 26 USCS § 932 . . . . . . . . . . . . . . . . . . . . . . . . . 125a
2004 26 USCS § 934 . . . . . . . . . . . . . . . . . . . . . . . . . 130a
2004 26 USCS § 6501 . . . . . . . . . . . . . . . . . . . . . . . . 133a
2004 26 USCS § 7654  . . . . . . . . . . . . . . . . . . . . . . . 149a
26 CFR 1.932-1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  151a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Appleton v. Commissioner,
140 T.C. 273 (T.C. 2013) . . . . . . . . . . . . . . . . . . . 9, 23, 24
Atl. Land & Imp. Co. v. United States,
790 F.2d 853 (11th Cir. 1986) . . . . . . . . . . . . . . . . . . . 20
Chicago Bridge & Iron Co. v. Wheatley,
430 F.2d 973 (3d Cir. 1970) . . . . . . . . . . . . . . . . . . . . . . 5
Coffey v. Commissioner,
982 F.3d 1127 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 1
Coffey v. Commissioner,
987 F.3d 808 (8th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . 1
Commissioner v. Estate of Sanders,
834 F.3d 1269 (11th Cir. 2016)  . . . . . . . . . . . . . . . . . . 19
Commissioner v. Lane-Wells Co.,
321 U.S. 219 (1944)  . . . . . . . . . . . . . . . . . . 13, 18, 19, 20
Germantown Trust Co. v. Commissioner,
309 U.S. 304 (1940) . . . . . . . . . . . . . . . . . . . . . . . passim
In re Colsen,
446 F.3d 836, 840 (8th Cir. 2006) . . . . . . . . . . . . . . . . 22
Law Office of John H. Eggertsen P.C. v.
Commissioner,
800 F.3d 758 (6th Cir. 2015) . . . . . . . . . . . . . . . . . . . . 19

ix
Cited Authorities
Page
Melissa Coffey Hulett A.K.A. Melissa Coffey,
et al. v. Commissioner,
150 T.C. 60 (T.C. 2018)  . . . . . . . . . . . . . . . . . . . . . . . . . 1
Neptune Mut. Ass’n, Ltd. of Bermuda v.
United States,
862 F.2d 1546 (Fed. Cir. 1988) . . . . . . . . . . . . . . . . . . 19
Quezada v. IRS (In re Quezada),
982 F.3d 931 (5th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 20
Sayre & Co. v. Riddell,
395 F.2d 407 (9th Cir. 1968) . . . . . . . . . . . . . . . . . . . . . 5
Siben v. Commissioner,
930 F.2d 1034 (2d Cir. 1991) . . . . . . . . . . . . . . . . . . . . 19
Springfield v. United States,
88 F.3d 750 (9th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 19
U.S. v. Auffenberg,
1:07-cr- 00047-HB-GWB, ECF Docs. 295
(D.V.I. 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
U.S. v. Miller,
Crim. No. 2013-07 (D.V.I. Apr. 4, 2013) . . . . . . . . . . . . 8
United States v. Boitano,
796 F.3d 1160 (9th Cir. 2015) . . . . . . . . . . . . . . . . . . . . 8

x
Cited Authorities
Page
Winnett v. Commissioner,
96 T.C. 802 (T.C. 1991)  . . . . . . . . . . . . . . . . . . . . . . . . 23
Zellerbach Paper Co. v. Helvering,
293 U.S. 172 (1934)  . . . . . . . . . . . . . . . . . . . . 3, 4, 12, 22
Statutes and Other Authorities
26 CFR § 1.932-1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
26 CFR § 1.932-1(c)(2)(ii) . . . . . . . . . . . . . . . . . . . . . . . . . 21
26 USC § 932 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5, 6, 15
26 USC § 932(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
26 USC § 932(a)(2)  . . . . . . . . . . . . . . . . . . . . . .  7, 15, 16, 17
26 USC § 932(a)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
26 USC § 932(c) . . . . . . . . . . . . . . . . . . . . . . . . . 10, 16, 17, 18
26 USC § 932(c)(2)  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
26 USC § 932(c)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
26 USC § 932(c)(4) . . . . . . . . . . . . . . . . . . . . . . . . . .  7, 11, 25
26 USC § 932(c)(4)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

xi
Cited Authorities
Page
26 USC § 932(d)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
26 USC § 934 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
26 USC § 6091(b)(4)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 23
26 USC § 6501 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
26 USC § 6501(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
26 USC § 6501(g)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
26 USC § 6531(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
26 USC § 7206(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
26 USC § 7654 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 11
28 USC § 1254(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
33 V.I.C. § 681(i)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Br ief Amicus Cur ia e of the Hon. Stacey
Plaskett, Coffey v. Commissioner No. 18-3256
(8th Cir. Apr. 9, 2021) . . . . . . . . . . . . . . . . . . . . . . 20, 21
Br ief of Commissioner-Appellant ,
Cof fey v. Co mmi ss i o n e r, No. 18 - 3 2 5 6
(8th Cir. Jan. 4, 2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 24

xii
Cited Authorities
Page
Br ief of Commissioner-Appellant ,
Cof fey v. Co mmi ss i o n e r, No. 18 - 3 2 5 6
(8th Cir. Oct. 16, 2020)  . . . . . . . . . . . . . . . . . . . . . . . . 22
I.R.M. 4.12.1.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Order List: 594 U.S., 2021 U.S. LEXIS 3591
(Jul. 19, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Revenue Act § 275  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Revenue Act § 276  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
S. Rept. No. 99-313 (1986) (Part 3) C.B. 1, 482 . . . . . . . . 6
Tax Reform Act of 1986, Pub. L. 99-514, sec. 1274(a)
100 Stat. 2596 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Treas. Reg. 1.932-1(c)(2)(ii) . . . . . . . . . . . . . . . . . . . . . . . . 9
Treas. Reg. 1.6091-2 . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 23

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Judith S. Coffey, Estate of James Coffey,
Judith Coffey, Executrix, and the Government of the
United States Virgin Islands respectfully petition for
a writ of certiorari to review the decision of the United
States Court of Appeals for the Eighth Circuit in No. 183256, Coffey v. Commissioner of Internal Revenue, 987
F.3d 808 (8th Cir. 2021).
OPINIONS BELOW
The January 29, 2018 decision of the United States Tax
Court in favor of the Coffeys (Melissa Coffey Hulett A.K.A.
Melissa Coffey, et al. v. Commissioner, Consolidated
Docket No. 4720-10) is reported at 150 T.C. 60 (T.C. 2018)
and is found at Appendix F at page 47a. The July 24,
2018 Orders of the United States Tax Court denying the
IRS’s Motion for Reconsideration in each case are found
at Appendix B, page 13a and Appendix D, page 30a. The
July 24, 2018 Orders of the United States Tax Court
granting the IRS’s Motion to Vacate and issuing revised
decisions in each case are found at Appendix C, page 27a
and Appendix E, page 44a.
The Court of Appeals for the Eighth Circuit issued its
original opinion in Coffey v. Commissioner on December
15, 2020, which is reported at 982 F.3d 1127 (8th Cir. 2020).
The Eighth Circuit subsequently granted panel rehearing
by Order dated February 10, 2021, which is found
at Appendix H, page 118a. The February 12, 2021
superseding decision of the Eighth Circuit is reported at
987 F.3d 808 (8th Cir. 2021) and is found at Appendix A at
page 1a. The Eighth Circuit’s May 3, 2021 Order denying
rehearing is found at Appendix G, page 116a.

2
JURISDICTION
The United States Court of Appeals for the Eighth
Circuit issued its final decision on February 12, 2021
and denied the Coffeys’ request for rehearing on May
3, 2021. Pursuant to this Court’s Order, this Petition is
due within 150 days from the date rehearing was denied.
Order List: 594 U.S., 2021 U.S. LEXIS 3591 (Jul. 19, 2021).
The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
RELEVANT STATUTORY PROVISIONS
AND REGULATIONS
The following relevant statutory provisions have been
reproduced verbatim at Appendix I beginning at page
120a:
26 USC § 932 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . .  120a
26 USC § 932 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . .  125a
26 USC § 934 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . .  130a
26 USC § 6501 (2004)  . . . . . . . . . . . . . . . . . . . . . . . . .  133a
26 USC § 7654 (2004) . . . . . . . . . . . . . . . . . . . . . . . . .  149a
26 CFR § 1.932-1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  151a
INTRODUCTION
This case is about whether the statute of limitations
for assessment of U.S. Virgin Islands (“USVI”) taxpayers

3
is subject to the whim of the Internal Revenue Service
(“IRS”). Specifically, the question presented here is
whether the IRS can render a Form 1040 (U.S. Individual
Income Tax Return) filed pursuant to Section 932(c)(2) 1
to be a nullity for statute of limitations purposes simply
by determining that a taxpayer is not a bona fide USVI
resident.
In a case heard by all 16 active judges, the Tax
Court said “no.” An eight-judge plurality relied on this
Court’s decisions in Zellerbach Paper Co. v. Helvering,
293 U.S. 172, 180 (1934) and Germantown Trust Co. v.
Commissioner, 309 U.S. 304 (1940) in deciding that the
statute of limitations under Section 6501(a) commenced
when the tax return was filed with the VIBIR. The fivejudge lead decision held, based on a concession by IRS
counsel, that the statute of limitations would at least
commence when the IRS Philadelphia Service Center
received a copy of relevant portions of the return from
the VIBIR.
The Eighth Circuit reversed, holding that tax
returns filed with the VIBIR—for a USVI nonresident,
as it assumed for summary judgment purposes—are not
federal returns filed with the IRS and that, without such
a filing, the “documents are…not filed returns.” Appendix
A at page 12a.
The Eighth Circuit’s decision is contrary to long
established case law by this Court and other Circuits
holding unequivocally that a tax return is sufficient
1. All references to “Section” refer to 26 U.S.C., the Internal
Revenue Code of 1986, unless otherwise indicated.

4
to trigger the statute of limitations if it (1) contains
information sufficient to calculate the filer’s tax liability,
and (2) “evinces an honest and genuine endeavor to satisfy
the law,” even if the positions it takes are ultimately
determined to be incorrect. Zellerbach, 293 U.S. at 180;
see also Germantown Trust, 309 U.S. at 309-10.
Not w ithst a nd i ng the cla r ity of th is Cou r t ’s
jurisprudence on this issue, the IRS has a long history
of attempting to defeat the protection of the statute of
limitations in other cases by claiming that the taxpayer
filed the wrong return. This Court has consistently denied
its ploy. As the Tax Court plurality stated:
Like the taxpayers in Mabel Elevator, New
Capital Fire, and Germantown Trust, the
Coffeys filed returns that were appropriate
for reporting the positions taken on those
returns. In this case, as in these earlier cases,
the Commissioner seeks to defeat the statute
of limitations by claiming, essentially, that
reasonable and honest positions as to the
taxpayers’ filing status, which were clearly
and adequately disclosed on their returns,
are somehow not covered by the statute of
limitations. Respondent’s argument fails in
this case for essentially the same reasons it
failed in Mabel Elevator, New Capital Fire,
and Germantown Trust.
Appendix F at page 106a.
The Eighth Circuit’s decision reversing the Tax
Court’s ruling is irreconcilable with the jurisprudence of

5
this Court and the other Courts of Appeals. The Court
should grant this petition for a writ of certiorari and
reverse.
STATEMENT OF THE CASE
Understanding the Eighth Circuit’s violation of more
than a half-century of this Court’s jurisprudence requires
a brief explanation of the U.S. Virgin Islands’ treatment as
a “mirror code” jurisdiction for purposes of the Internal
Revenue Code; the unique income tax filing regime
established by Congress for the U.S. Virgin Islands in
Section 932; and the history of the IRS’s pursuit of the
Coffeys, which is now in its sixteenth year.
A. The U.S. Virgin Islands and the “Mirror Code”
The U.S. Virgin Islands is an insular area of the
United States which was historically separated from the
United States for federal tax purposes. In 1921, Congress
established a “mirror tax system” for the Virgin Islands.
This system replaced the term “United States” with the
“Virgin Islands,” and vice versa, in the Virgin Islands tax
code. Appendix F at page 61a. Under the mirror code, the
provisions of the Internal Revenue Code are applicable
to the Virgin Islands so long as the specific section to be
applied is “‘not manifestly inapplicable or incompatible’
with a separate territorial income tax”. Chicago Bridge
& Iron Co. v. Wheatley, 430 F.2d 973, 976 (3d Cir. 1970)
(quoting Sayre & Co. v. Riddell, 395 F.2d 407, 410 (9th Cir.
1968)). This system caused some individual and corporate
taxpayers to file two separate returns – one to the United
States and one to the Virgin Islands, similar to filing a
federal and state income tax return.

6
But the mirror tax system was dramatically changed
in 1986 with the addition of Section 932 – which is not
mirrored – as part of the Tax Reform Act of 1986, Pub. L.
99-514, sec. 1274(a) 100 Stat. 2596. That provision reflects
Congress’s intent to create a unified tax obligation for
“bona fide residents and nonresidents of the VI with VIsource income” by creating a single “U.S. tax liability.”
Appendix F at page 62a (citing S. Rept. No. 99-313, at
482 (1986), 1986-3 (Part 3) C.B. 1, 482 (“[F]or purposes
of determining the tax liability of individuals who are
citizens or residents of the United States or the U.S.
Virgin Islands, the United States will be treated as
including the Virgin Islands (for purposes of determining
U.S. tax liability) and, under the Virgin Islands ‘mirror’
Code, the Virgin Islands will be treated as including the
United States (for purposes of determining liability for
the Virgin Islands tax)”)).
Therefore, Section 932 provides the current rules
for coordinating the U.S. and USVI income taxation and
filing requirements for individuals. It creates a “single
title 26 liability” that, in some circumstances, is allocated
between the United States and Virgin Islands. Appendix
F at page 63a.
B. The Section 932 Regime
Title 26 mandates that U.S. citizens and residents file
tax returns reporting their worldwide income. Section
932 provides for the coordination of the United States
and Virgin Islands income taxes by setting forth the filing
rules for taxpayers who live in the USVI and/or receive
USVI-sourced or effectively connected income. Taxpayers
who reside in the U.S. and receive USVI-sourced or

7
effectively connected income are required to file their
returns with IRS under Section 932(a)(2) and send a copy
of that return to the VIBIR. The Form 1040 includes a
Form 8689 calculating the portion of the tax allocable to
VIBIR based upon USVI-sourced income. The USVI gets
its allocable portion of the tax liability; the U.S. gets the
remainder.
Taxpayers reporting USVI residency file their
returns under Section 932(c)(2) with the VIBIR, and all of
the tax remitted with those returns stays with the USVI.
All Section 932(c)(2) filers must file their returns only
with VIBIR. They cannot file a Section 932(c)(2) return
with IRS. And they cannot file both a Section 932(c)(2)
return and a Section 932(a)(2) return for the same year.
They must determine the return that is appropriate for
the position they are taking – right or wrong. Both of
these returns are filed pursuant to the Internal Revenue
Code. The IRS has the sole authority and responsibility
for purposes of determining any U.S. tax liability based
upon the filing of returns under Section 932(a)(2) and
Section 932(c)(2).
The IRS is authorized to examine Section 932(a)(2)
returns and Section 932(c)(2) returns to determine if
the correct amount of U.S. tax liability has been paid. It
is charged under Federal law with the responsibility of
examining Section 932(c)(2) returns to verify compliance
with Section 932(c)(4), including that the taxpayers’
reporting of USVI residency thereon is correct. Section
932(c)(4)(A). The IRS’s authority to examine Section 932(c)
(2) returns is expressly recognized and provided for in the
1987 Tax Implementation Agreement between the IRS and
the VIBIR. The IRS audits these returns for errors and

8
to ensure correct allocation of tax revenue. To accomplish
this, IRS Revenue Agents access the Section 932(c)(2)
returns at VIBIR offices where they are maintained, and
examine (audit) them to determine if they comply with
the requirements of the Internal Revenue Code. VIBIR
Revenue Agents are responsible for determining whether
the returns comply with the mirror code.
Consistent with its authority over Section 932(c)(2)
returns, the IRS refers taxpayers for criminal prosecution
by the U.S. Department of Justice based on information
and positions taken on those returns, and the U.S. has
prosecuted taxpayers for filing false U.S. tax returns
if they file Section 932(c)(2) returns with VIBIR that
fraudulently claim USVI residency. Appendix F at
page 86a-87a (citing U.S. v. Miller, Crim.No. 2013-07,
Indictment at 1 (D.V.I. Apr. 4, 2013); U.S. v. Auffenberg,
1:07-cr-00047-HB-GWB, ECF Docs. 295, 429 (D.V.I.
2008)). The U.S. expressly alleges as an element of Title
26 Section 7206(1) charges that such returns are filed2
federal returns:
Defendant herein, did willfully make and
subscribe a United States Individual Income
Tax Return, Form 1040, for year 2001, which
was … filed with the BIR, which said return
2. Filing, for civil and criminal purposes, is accomplished
when the return is transmitted to the office or agent authorized
to receive it. United States v. Boitano, 796 F.3d 1160, n.2 (9th Cir.
2015); Section 6091(b)(4); Treas. Reg. § 1.6091-2. Section 932(c)(2)
returns filed with VIBIR are filed federal returns for purposes of
Section 7206(1). The statute of limitations for the U.S. to prosecute
a Section 7206(1) crime is 6 years from the date the return is filed.
Section 6531(5).

9
Defendant did not believe to be true and correct
as to every material matter in that it stated that
he was a bona fide resident of the Virgin Islands
in the year 2001 …, whereas, as Defendant then
and there well knew and believed, he was not a
bona fide resident of the Virgin Islands in the
year 2001 …. [I]n violation of Title 26, United
States Code, Section 7206(1).
Auffenberg, 1:07-cr-00047-HB-GWB, ECF Doc. 429 at 53
(emphasis added).
It is well settled law that returns filed with the VIBIR
under Section 932(c)(2) begin the statute of limitations
on assessment under Section 6501(a) for bona fide USVI
residents, even if those returns contain errors. Appleton
v. Commissioner, 140 T.C. 273 (T.C. 2013). However, for
tax years ending before December 31, 2006 for taxpayers
whose gross income exceeds $75,000, 3 the IRS takes
the position that the statute of limitations began only
if it acquiesced in the taxpayer’s USVI residency. It is
undisputed that the IRS exercises its authority over the
all Forms 1040 filed with the USVI under Section 932(c)(2)
and IRS Instructions. But in the Tax Court proceedings
in this case, it pretended that these returns are akin to
3. The IRS set forth the $75,000 rule in Notice 2007-19,
I.R.B. 2007-11 in response to concerns from Congress that
IRS was depriving USVI taxpayers of a statute of limitations.
Congressional representatives promptly warned that a $75,000
threshold had “dubious legal basis.” In response, IRS enacted
Treas. Reg. 1.932-1(c)(2)(ii), which provides a statute of limitations
to all USVI taxpayers, regardless of income. However, that
Regulation was not made retroactive, and as set forth below, is
invalid under the Eighth Circuit’s opinion in this case.

10
returns filed in a foreign country.4 The IRS relied on its
age-old trick of claiming that, because its examination
determined that a different return was required to be filed,
it was unhinged from the assessment restraints imposed
by Section 6501(a). This Court has long ago prevented the
IRS from accomplishing this ruse in situations where the
return that was filed contained sufficient information for
the IRS to accomplish its duties.
C. The Coffeys’ Tax Returns and Proceedings Below
Judith and James Coffey timely filed their 2003 and
2004 Forms 1040 with the VIBIR pursuant to Section
932(c)(2), which requires that bona fide residents of the
Virgin Islands “shall file an income tax return for the
taxable year with the Virgin Islands.” Their returns – like
all Federal Forms 1040 – reported the Coffeys’ worldwide
income and deduction items. The returns reflected their
home address in St. Croix, USVI, and claimed a USVI
economic development credit on Line 52 (2003) and Line 54
(2004) with respect to their Virgin Islands sourced income.
The VIBIR processed the Coffeys’ returns, in
accordance with Section 932(c). In addition, under
protocols established by the Tax Implementation
Agreement executed by the IRS and the VIBIR in 1987,
the VIBIR also sent copies of the relevant portions of
the Forms 1040 and specified attachments to the IRS’s
Philadelphia Service Center so that the IRS could allocate
the Coffey’s tax prepayments that it held with respect to
those returns between the IRS and VIBIR and refund any
4. The IRS has since admitted that the returns filed in this
case are Federal returns, and that it was authorized to access them
at VIBIR, classify them for audit at VIBIR, and audit them. IRS
thereby abandons its argument that they are foreign returns.

11
excess to the Coffeys, pursuant to Section 7654. The IRS
processed the copies of the Coffey’s 2003 and 2004 returns
with the designation “Tax return filed – USVI return”
on March 14, 2005, and March 27, 2006, respectively.
Appendix F at pages 58a-59a.
The IRS initiated examinations of the Coffey’s 2003
and 2004 returns on August 4, 2005, and March 25, 2006,
respectively, within the three-year period of limitations
imposed under Section 6501(a). Upon completion of its
examination, the agency challenged two positions taken
on the returns: (1) Judith Coffey’s USVI residency and
(2) the income and credit relating to the USVI Economic
Development Prog ram. But the IRS made those
determinations in Notices of Deficiency that were not
issued until September 28, 2009 – after the three-year
period of limitations under Section 6501(a) had expired.
The Coffeys timely petitioned the United States
Tax Court to challenge the IRS’s determinations and
subsequently filed a Motion for Summary Judgment on
the statute of limitations issue. The Government of the
USVI intervened on the Coffeys’ behalf. For purposes
of summary judgment, the Tax Court assumed that (1)
Judith Coffey5 would be unable to prove USVI residency
and that, as a consequence, the Section 932(c)(2) returns
she filed did not satisfy all of the requirements of Section
932(c)(4); and (2) to start the limitations period, those
Section 932(c)(2) returns need only enable the IRS to
5. The residency determination in this case focuses on Mrs.
Coffey as the spouse with the greater income. Pursuant to Section
932(d), “[i]n the case of a joint return, this section shall be applied
on the basis of the residence of the spouse who has the greater
adjusted gross income (determined without regard to community
property laws) for the taxable year.”

12
compute the tax liability the Coffeys would owe “if in fact
they turn out not to be bona fide VI residents.” Appendix
F at page 86a, n.22.
In light of those assumptions, the Coffeys’ position is
that the federal returns they filed with the VIBIR pursuant
to Section 932(c)(2) and the applicable IRS instructions
began the statute of limitations on assessment – even if
IRS later successfully challenged their assertion of USVI
residency. A plurality of Tax Court judges—eight of the
sixteen who heard the case—filed a concurring opinion
agreeing with the Coffeys’ position, relying heavily on this
Court’s decisions in Germantown Trust and Zellerbach
for the proposition that a return is sufficient to trigger the
statute of limitations if it “evinces an honest and genuine
endeavor to satisfy the law,” even if the positions it takes
are ultimately determined to be incorrect.
The lead opinion, joined by only five judges, held that
the statute of limitations on assessment began when a
copy of the relevant portions of Coffeys’ returns were sent
to the IRS Philadelphia Service Center. The lead opinion
was premised upon the IRS counsel’s concession at oral
argument that Section 6501(a) would be satisfied if the
Coffeys had filed returns with IRS containing all zeros.
Appendix F at page 90a. Four judges dissented.
The IRS filed a timely appeal, and the Eighth Circuit
reversed. The Eighth Circuit held that, because of the
assumption required for summary judgment that Judith
Coffey was not a USVI resident, the returns the Coffeys
filed with the VIBIR “are not returns filed with the IRS”
as required under Section 932(a)(2) and as such, were not
“an honest and genuine attempt to satisfy the tax law.”
Appendix A at page 12a. Thus, the Eighth Circuit held

13
that the statute of limitations on assessment had not yet
begun, and the IRS’s Notices of Deficiency were timely.
It based its holding on the following erroneous legal and
factual premises:
(1) The Coffeys attempted to file a Section 932(a)(2)
return (for non-USVI residents) in the wrong
place (with the VIBIR rather than the IRS).
(2) The statute of limitations for assessment cannot
start for Section 932(c)(2) filers unless and until
the IRS acquiesces with the taxpayer’s bona fide
USVI residency.
(3) Because of the assumption for summa r y
judgment purposes that Judith Coffey was not a
USVI resident, the returns filed with the VIBIR
were a nullity for Federal income tax purposes,
regardless of whether the Forms 1040 “show[ ]
the facts on which liability could be predicated.”
Commissioner v. Lane-Wells Co., 321 U.S. 219,
223 (1944).
REASONS FOR GRANTING THE PETITION
The Eighth Circuit’s decision conflicts with binding
precedent of this Court in Germantown Trust, as well
as persuasive authority from other Circuits, which hold
that the filing of a return on the incorrect Form begins
the statute of limitations on assessment if the return that
was filed has sufficient information from which the IRS
can calculate the correct tax liability on the return that
the IRS asserts should have been filed. The decision also
has catastrophic consequences for USVI taxpayers—

14
consequences that are inconsistent with Congress’s design
for the USVI tax regime.
A. The Eighth Circuit Opinion is in direct conflict
with this Court’s decision in Germantown Trust.
The Eighth Circuit’s decision squarely contradicts
this Court’s decision in Germantown Trust, 309 U.S. 304.
There, Germantown Trust filed a Form 1041 (U.S. Income
Tax Return for Estates and Trusts) with the IRS office for
trust return filers. Id. at 305. Upon examination, the IRS
determined that the taxpayer was a corporation and should
have filed a Form 1120 (U.S. Corporation Income Tax
Return). Id. at 305-06. The IRS claimed that limitations
period had not commenced because Germantown Trust
failed to file the required corporate return with the correct
individual – the IRS office for corporate return filers. Id.
at 307. This Court disagreed, finding that the fiduciary
return filed by Germantown Trust –
which discloses all of the data from which
the tax [imposed upon a corporation] can be
computed [cannot] be deemed no return. …
It cannot be said that the petitioner, whether
treated as a corporation or not, made no return
of the tax imposed by the statute. Its return
may have been incomplete in that it failed to
compute a tax, but this defect falls short of
rendering it no return whatever. 6
Id. at 309-10.
6. Sections 275 and 276 of the Revenue Act of 1932 had
no good faith exception similar to that eventually provided
under Section 6501(g)(1) which codified this Court’s decision in
Germantown Trust for certain income tax returns of corporations.

15
In this case, the IRS argued – and the Eighth Circuit
found – that because the Coffeys conceded, for summary
judgment purposes only, that they would not prevail at
trial with respect to their assertion of bona fide USVI
residency, that the only return that would have started
the Coffeys’ statute of limitations is a return filed pursuant
to Section 932(a)(2) (return for U.S. residents with USVI
sourced income). Appendix A at 11a-12a.
T he Eight h Ci rcu it att empt s t o ci rcu mvent
Germantown Trust by claiming that the Coffeys failed
to file a return for non-USVI residents with the IRS: “As
a prerequisite, however, an honest and genuine return
must be filed with the correct individual…. A filing with
the USVI is not automatically a filing with the IRS.”
Appendix A at page 10a-11a. While the IRS and the VIBIR
are indeed two separate taxing authorities, Section 932
coordinates the income taxes and the required filings with
each and actually treats the United States and the Virgin
Islands as including each other as it relates to the taxes
imposed under Chapter 1 of Title 26. See, Sections 932(a)
(3) and 932(c)(3). As a result, a filing with the VIBIR cannot
be dismissed as if it were a filing with a foreign country.
There is no dispute that the Coffeys did not file a
Section 932(a)(2) return. Likewise, there was also no
dispute that Germantown Trust had not filed a Form
1120. But, both the Coffeys and Germantown Trust did
file the return required to be filed under the Internal
Revenue Code for the position taken on the return – i.e.,
as a USVI resident and as a trust, respectively. But, both
of these returns were filed with the “correct individual”
for receiving that return – i.e., the VIBIR and IRS office
for trust return filers, respectively. The fact that Congress

16
required the Coffeys to file their return with only the
VIBIR, and not the IRS, does not mean that these returns
were not filed with the “correct individual.”
The Coffeys could not have filed both a Section 932(c)
(2) return and a Section 932(a)(2) return. Likewise,
Germantown Trust could not have filed both a Form
1041 and Form 1120. Each return takes a different filing
position, calculates a different tax and is required to be
filed with a different individual so that it may be properly
processed. The IRS had the authority, responsibility
and ability to examine these returns to determine if the
positions taken on the returns were correct and, if not,
to determine the correct tax liability. However, Congress
provided that such assessments must be timely made. In
both cases, the IRS was untimely. The Eighth Circuit
cannot do an end run around Germantown Trust by
finding that the return required to be filed was filed with
some foreign taxing authority rather than with the office
directed under federal published guidance.
The Eighth Circuit further misapplies Germantown
Trust. It ignores that a Section 932(c)(2) return is a
Federal return filed pursuant to the Internal Revenue
Code and it is Congress who mandates that Section 932(c)
returns to be filed with the USVI. It is not a “territorial”
or “foreign” return.7 Indeed, this Court’s holding would
7. While the Eighth Circuit cites 33 V.I.C. § 681(i) to make the
return appear to be a “territorial return,” the subsection it cites to
as support for its conclusion did not exist until 2020 – nearly two
decades after the years at issue in this case. Appendix A at page
12(a). Likewise, if the Virgin Islands was truly akin to a foreign
country, then Section 932(c)(2) – which directs USVI residents
to file their federal income tax returns in the Virgin Islands – is

17
have been precisely the same if Germantown Trust
were, as here, a summary judgment case. The fact that
Germantown Trust would have, for summary judgment
purposes, been presumed to be a corporation that failed
to file a Form 1120, would not have changed this Court’s
conclusion that the return that was filed had sufficient
data to commence the limitations period.
There is no dispute that the Forms 1040 filed by
the Coffeys contained enough information for the IRS
to compute the tax liability at issue. Indeed, except for
two items, the Notices of Deficiency mirrored the items
reported on the Coffeys’ Section 932(c)(2) returns. See, e.g.,
Judith Coffey’s Petition to the United States Tax Court at
Exhibit A (1.g.), No. 4720-10 (Feb. 19, 2010). This makes
sense. A Section 932(a)(2) return, like a Section 932(c)(2)
return, is filed pursuant to the Internal Revenue Code
on the same Federal Form 1040. Both returns report a
taxpayer’s income, deductions and credits, and contain a
jurat attesting to the accuracy of the items contained on
that return. Where the returns differ is that a Section
932(c)(2) return reports a USVI home address, and, if
applicable, an Economic Development Program credit as
an “Other Credit” on Line 52 (2003) and Line 54 (2004).
There is no special form or “box” to check to claim USVI
residency. Congress directs that Section 932(c) returns
are filed directly with the VIBIR, while Section 932(a)
(2) returns are filed with the IRS’s Philadelphia Service
Center with a copy sent to the VIBIR. The IRS can – and
did here – determine a deficiency in Federal income tax
based on the Section 932(c) return. This Court’s seminal
invalid, since Congress lacks the authority to require tax filing
with foreign countries.

18
holding in Germantown Trust concludes that this is
enough to begin the statute of limitations on assessment.
The Eighth Circuit is obligated to follow that binding
precedent.
Germantown Trust is alive and well. Subsequent
cases have also focused, not on whether the return the
IRS claims should have been filed was filed but, rather,
on whether the return that was filed contained enough
information from which the IRS could compute the correct
tax liability. See, e.g., Lane-Wells, 321 U.S. at 223.
The Eighth Circuit ignored all of this. Instead, it
erroneously focused solely on the failure to file a return
which could never have been filed once the initial return
was filed. Germantown Trust could not file both a Form
1041 trust return and a Form 1120 corporate return.
Likewise, the Coffeys could not file both a Section 932(c)
return and a Section 932(a) return. Indeed, if they had
done so, the VIBIR would have received two returns for
the same taxpayers for the same year – i.e., a Section
932(c) return reporting and paying taxes solely to the
USVI and a copy of a Section 932(a) return allocating a
portion of the taxes to the USVI. This Court’s holding in
Germantown Trust is both legally and practically correct.
Its precedential holding is applicable and must be applied
in this case.
B. The Eighth Circuit’s opinion conf licts with
decisions of five other Courts of Appeals.
The Eighth Circuit’s holding also clashes with the
holdings of several circuits. The Second, Sixth, Ninth,
Eleventh, and Federal Circuits have recognized that

19
the filing of a return other than the one prescribed by
Treasury Regulations can be “the return.”8 See Law Office
of John H. Eggertsen P.C. v. Commissioner, 800 F.3d 758,
763 (6th Cir. 2015) (“[T]he limitations clock may start in
some settings even when the taxpayer fails to file the right
return – say the taxpayer filed the same return for another
reason, see Lane-Wells, 321 U.S. at 222-23, or filed the
wrong return but with all of the necessary information,
see Germantown Trust Co. v. Comm’r, 309 U.S. 304,
308 (1940). A key predicate for this exception is that the
return filed must contain ‘sufficient data to calculate a tax
liability.’”); Springfield v. United States, 88 F.3d 750, 752
(9th Cir. 1996) (finding the relevant inquiry for statute of
limitations purposes to be “whether the return filed sets
forth the facts establishing liability.” (citing Lane-Wells,
321 U.S. at 223)); Siben v. Commissioner, 930 F.2d 1034,
1036 (2d Cir. 1991) (distinguishing Germantown Trust
by finding that a partnership return did not “furnish
information necessary to calculate the individual partner’s
income tax, such as marital status, exemptions, and
income, losses, deductions, or credits derived from sources
other than the partnership.”); Neptune Mut. Ass’n, Ltd.
of Bermuda v. United States, 862 F.2d 1546, 1555 (Fed.
Cir. 1988) (“Despite the taxpayer error, it is reasonable to
expect prompt attempts at assessment….[t]he controlling
question is whether the IRS was apprised of adequate
8. The Eighth Circuit cites to an Eleventh Circuit case,
Commissioner v. Estate of Sanders, 834 F.3d 1269 (11th Cir.
2016) for the proposition that a return filed with the VIBIR is a
foreign return and not a federal return. Appendix A at 11a. The
facts as developed in that case did not include a concession by the
government that a Section 932(c)(2) is a federal return required by
the Internal Revenue Code. The government made that concession
here, yet the Eighth Circuit chose to ignore it.

20
information from which to compute the taxes owed.”); Atl.
Land & Imp. Co. v. United States, 790 F.2d 853, 858 (11th
Cir. 1986) (“Supreme Court precedent demonstrates that
substance should prevail over form in this area: a good
faith tax return filed on the wrong form may trigger the
limitations period.”).
Most recently, on December 10, 2020, the Fifth Circuit
affirmed this precedent by holding that a “taxpayer is not
required to file the precise return prescribed by treasury
regulations in order to start the limitations clock. Instead,
‘the return’ is filed, and the limitations clock begins to
tick, when the taxpayer files a return that contains data
sufficient (1) to show that the taxpayer is liable for the tax
at issue and (2) to calculate the extent of that liability.”
Quezada v. IRS (In re Quezada), 982 F.3d 931, 935 (5th
Cir. 2020). The Fifth Circuit expressly rejected the notion
that Lane-Wells precluded such a result, and instead found
this Court’s rationale in Lane-Wells to be consistent with
that of this Court in Germantown Trust – “that the wrong
form can be ‘the return’ so long as the form shows the facts
on which liability could be predicated.” Id.
C. The Eighth Circuit’s Opinion Creates Catastrophic
Consequence for USVI Taxpayers.
After the Eighth Circuit rendered its December, 2020
opinion in this matter, the Honorable Stacey Plaskett,
Delegate to the United States House of Representatives
representing the U.S. Virgin Islands, filed an amicus
brief in support of the Coffeys and Intervenor USVI’s
requests for rehearing. Brief Amicus Curiae of the Hon.
Stacey Plaskett, Coffey v. Commissioner No. 18-3256 (8th
Cir. Apr. 9, 2021). Delegate Plaskett serves as the sole

21
elected representative of the USVI in the United States
government. Her amicus brief highlights the importance
of the Eighth Circuit’s decision, as well as the disastrous
consequences that it causes USVI taxpayers who file their
returns pursuant to Section 932(c)(2) and in accordance
with IRS guidance.
Delegate Plaskett warned that the “impact of [the
Eighth Circuit’s] potential nullification of the millions
of tax returns filed in the USVI since 1986 is difficult to
overstate.” Specifically, she aptly noted that the Eighth
Circuit’s decision renders every income tax return filed
with VIBIR prior to 2006 vulnerable to audit. Moreover,
in addition to its impact on all returns filed prior
to 2006, [the decision] also invalidates 26 C.F.R.
§1.932-1(c)(2)(ii), the Treasury regulation that
grants all bona fide residents of the USVI
the protection of the statute of limitations
in §6501(a). Under this Court’s ruling, this
regulation has been rendered invalid because
it conflicts with the statute.
Brief Amicus Curiae of the Hon. Stacey Plaskett at 6,
Coffey v. Commissioner No. 18-3256 (8th Cir. Apr. 9, 2021).
The IRS’s response that it is its “discretionary” policy,
even for “non-filers,” to “not initiate tax proceedings over
six years after the tax year in question” provides little
solace in this regard. Brief of Commissioner-Appellant
at 27, Coffey v. Commissioner, No. 18-3256 (8th Cir.
Apr. 9, 2021) (citing I.R.M. 4.12.1.3) (emphasis added).
Intervention of this Court is necessary to ensure that
Virgin Islands residents receive the same repose as U.S.
mainland residents under the Internal Revenue Code.

22
D. The Coffeys’ Section 932(c)(2) returns trigger
Section 6501(a)
The Tax Court’s plurality opinion remedies the
catastrophic consequences described by Delegate Plaskett,
is consistent with the Secretary’s Treasury Regulation,
and sets forth the correct interpretation of the law both
in this case and for all USVI taxpayers. Section 6501(a)
gives the IRS three years from the date the return was
filed to assess taxes on that return. A filing commences the
Section 6501(a) limitations period if (1) the document that
the taxpayer submitted was the required return required
to be filed under the Internal Revenue Code, and (2) the
taxpayer properly filed that return.
The IRS conceded the first element before the Eighth
Circuit: “the return that the Coffeys filed with the USVI is
a return required to be filed under the Internal Revenue
Code.” Brief of Commissioner-Appellant at 5, Coffey v.
Commissioner, No. 18-3256 (8th Cir. Oct. 16, 2020). Their
Section 932(c)(2) returns reported their names, USVI
address, gross income, deductions, credits, and taxable
income. Appendix F at pages 84a-85a. The relevant
question is not whether this information is substantively
correct, but whether the return “evince[d] an honest and
genuine endeavor to satisfy the law.” Zellerbach, 293 U.S.
at 180. “The honesty and genuineness of the filer’s attempt
to satisfy the tax laws should be determined from the face
of the form itself.” In re Colsen, 446 F.3d 836, 840 (8th Cir.
2006). Accordingly, there is no dispute that the Coffeys’
Section 932(c)(2) returns are Federal returns.
The second element – proper filing – is a question of
whether the taxpayer’s mode of filing complied with the

23
prescribed filing requirements. A return is filed when it is
transmitted to the office or agent authorized to receive it.
Section 6091(b)(4); Treas. Reg. § 1.6091-2. Section 932(c)
(2), the IRS’s instructions and the Secretary’s Treasury
Regulations all require “permanent residents of the
Virgin Islands” to file that return with the VIBIR in St.
Thomas. Section 932(c)(2) returns filed with VIBIR are
properly filed under Section 6501(a) and Section 6091(b)
(4). Appleton, 140 T.C. 273; Appendix F at page 53a.
Whether a return was properly filed is determined
based upon the information on its face – right or wrong.
Winnett v. Commissioner, 96 T.C. 802 (T.C. 1991). The
Coffeys’ Section 932(c)(2) returns report their “Home
address” to be in the USVI. Appendix F at page 53a. The
IRS’s Instructions to Form 1040 instruct permanent USVI
residents to file their returns with the VIBIR. Based on
the information on the returns’ face, the Coffeys properly
filed them with VIBIR. Where a taxpayer properly files
her return, she has satisfied all of her duties to trigger
the statute of limitations period. Section 6501(a).
The IRS has many tools at its disposal to examine
a filed return, but must use them within the prescribed
limitations period. The IRS exercised its authority here
and determined that there was a tax liability due to the
United States. What’s at issue is whether any assessment
is precluded under Section 6501(a). The same sequence
of events occurred in Appleton, 140 T.C. 273. In fact,
Judith Coffey and Arthur Appleton were partners in the
same approved USVI Economic Development Program
entity, Stonetree Partnership in Christiansted, and were
neighbors on St. Croix. They both filed Section 932(c)
(2) returns for the same years as USVI residents. The

24
IRS examined the returns that both Mrs. Coffey and
Mr. Appleton filed with the VIBIR and determined, in
separate audits, that Mr. Appleton was a USVI resident
and that Mrs. Coffey wasn’t.9
The Eighth Circuit’s revised decision acknowledges
that the Section 932(c)(2) returns filed by Mr. Appleton
starts the statute of limitations but that the Section 932(c)
(2) returns filed by Mrs. Coffey do not unless and until
she can prove to the IRS’s (or the Tax Court’s) satisfaction
that she was a bona fide USVI resident. But the IRS’s
determination of a residency error on a return filed under
the requirements of the Internal Revenue Code cannot
disenfranchise the taxpayer from the protections afforded
to all taxpayers filing returns under the Internal Revenue
Code that Congress provided in Section 6501(a).
The Tax Court’s plurality opinion correctly allows
the IRS to exercise its authority over filed Section 932(c)
(2) returns, but balances that authority with the need
for repose for USVI taxpayers by restricting the IRS’s
assessment authority to be within the bounds of the
statute of limitations set forth by Congress.

9. The IRS determined that this difference didn’t matter
and that it was unconstrained by Section 6501(a) in both cases
because the returns were not filed with the IRS. Mr. Appleton
petitioned the U.S. Tax Court, which determined that the IRS’s
position was incorrect. The IRS never challenged this holding and
now agrees that Mr. Appleton met his Federal filing obligation.
Brief of Commissioner-Appellant at 27, Coffey v. Commissioner,
No. 18-3256 (8th Cir. Jan. 4, 2019) (citing Appleton, 140 T.C. 273).

25
CONCLUSION
The Coffeys filed their Section 932(c)(2) returns in
satisfaction of their Federal filing obligations. There is
nothing in the Internal Revenue Code which states that
the failure to satisfy the requirements of Section 932(c)
(4) eliminates or otherwise nullifies the Section 932(c)(2)
return for purposes of Section 6501(a). And, just as the
Court held in Germantown Trust, 309 U.S. 304, the mere
fact that the IRS determined upon examination that a
different return should have been filed in order to assess
the correct tax liability will not eliminate the provisions
of Section 6501(a) when the return that was filed contains
enough information for the IRS to calculate that liability.
The Eighth Circuit’s decision treats the Coffeys’
Section 932(c)(2) returns as nullities, and in doing so not
only contradicts the jurisprudence of this Court and the
Secretary’s Treasury Regulation, but also eliminates
repose for all USVI taxpayers. This Court should grant
the petition and reverse the decision of the Court of
Appeals for the Eighth Circuit.
Respectfully submitted,
A nthony M. Bruce
Counsel of Record
A ndreozzi Bluestein LLP
9145 Main Street
Clarence, New York 14031
(716) 565-1100
amb@andreozzibluestein.com
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE EIGHTH
CIRCUIT, FILED FEBRUARY 12, 2021
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-3256
JUDITH S. COFFEY,
Appellee,
GOVERNMENT OF THE UNITED STATES
VIRGIN ISLANDS, (“V.I. GOVERNMENT”),
Intervenor-Appellee,
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellant;
––––––––––––––––––––––––––––––
No. 18-3259
ESTATE OF JAMES COFFEY,
JUDITH COFFEY EXECUTRIX,
Appellee,

2a
Appendix A
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellant.
February 10, 2021, Case Resubmitted
February 12, 2021, Filed
Appeal from The United States Tax Court.
Before SMITH, Chief Judge, BENTON and KOBES,
Circuit Judges.
BENTON, Circuit Judge.
The Commissioner of Internal Revenue determined
that because Judith S. Coffey was not a bona fide resident
of the United States Virgin Islands (USVI), she and James
L. Coffey owed federal income tax for the 2003 and 2004
tax years. The Coffeys invoked the three-year statute of
limitations in 26 U.S.C. § 6501(a). The USVI intervened.
See Coffey v. Comm’r, 663 F.3d 947 (8th Cir. 2011). The Tax
Court granted the Coffeys’ motion for summary judgment.
The IRS appeals. Having jurisdiction under 26 U.S.C.
§ 7482(a)(1), this court reverses and remands.1

1. This opinion supersedes the opinion issued on December
15, 2020.

3a
Appendix A
I.
The United States and the USVI are separate taxing
entities. Id. at 949. The USVI “administers a ‘mirror code’
of the Internal Revenue Code that substitutes ‘Virgin
Islands’ for the ‘United States.’” Id., citing 26 U.S.C.
§§ 932(c)(2), 7654(a); and 48 U.S.C. § 1397.
Under the USVI’s Economic Development Program,
bona fide USVI residents owe only ten percent of the
income tax on their “income derived from sources within
the Virgin Islands or income effectively connected with the
conduct of a trade or business within the Virgin Islands.”
26 U.S.C. § 934(b)(1); 29 V.I.C. § 713b(b), (e)(1)(A).
Taxpayers with USVI-related income have different
reporting requirements depending on their residency. A
bona fide USVI resident “shall file an income tax return
. . . with the Virgin Islands.” § 932(c)(2), (c)(4). In contrast,
any other taxpayer with USVI-related income “shall file
his income tax return . . . with both the United States and
the Virgin Islands.” § 932(a)(2).
Generally, the IRS must assess taxes “within 3 years
after the return was filed . . . .” § 6501(a). “Return” means
“the return required to be filed by the taxpayer . . . .” Id.
“In the case of failure to file a return,” there is no time
limit for IRS assessment. § 6501(c)(3).
The Coffeys filed only USVI returns, claiming Judith
was a bona fide USVI resident for both 2003 and 2004.
Their returns consisted of completed Form 1040s, their

4a
Appendix A
USVI and federal W-2s, and numerous other schedules
and forms. The returns claimed the EDP credit for both
years.
The Coffeys did not file the returns with the IRS.
However, for each year, the USVI’s Bureau of Internal
Revenue (VIBIR) sent the IRS the first two pages of
their returns and their USVI and federal W-2s about five
months after receiving these documents. The VIBIR sent
these documents to the IRS so the Coffeys’ prepayments to
the IRS could be paid to the USVI, with any overpayment
refunded to the Coffeys. See § 7654(a) (taxes collected by
the IRS from bona fide USVI residents are “covered into
the Treasury” of the USVI).
The IRS audited these documents. See Coffey, 663
F.3d at 949. It issued notices of deficiency to the Coffeys
in 2009, more than three years after receiving the
documents. According to the IRS, Judith was never a
bona fide USVI resident and the Coffeys could not claim
the EDP credit. The Coffeys asserted the three-year
statute of limitations in section 6501(a) as a defense. The
Tax Court granted their motion for summary judgment,
holding that the statute of limitations began when the
IRS received the documents from the VIBIR. Hulett v.
Comm’r, 150 T.C. 60, 97 (2018). A concurring opinion stated
that the statute of limitations began when the Coffeys filed
their USVI returns with the VIBIR. Id. at 98. A dissenting
opinion believed that neither the Coffeys or the VIBIR
filed anything with the IRS. Id. at 104.

5a
Appendix A
II.
This court reviews de novo the Tax Court’s grant of
summary judgment. Nestle Purina Petcare Co. v. Comm’r,
594 F.3d 968, 970 (8th Cir. 2010). Summary judgment is
appropriate if “there are no issues of material fact, and
the moving party is entitled to a judgment as a matter of
law.” Bearden v. Int’l Paper Co., 529 F.3d 828, 831 (8th
Cir. 2008), citing Fed. R. Civ. P. 56(c).
The Coffeys moved for summary judgment assuming
as true that they were USVI nonresidents. The Tax Court
assumed on summary judgment that Judith was a USVI
nonresident. Hulett, 150 T.C. at 61, 78-79. See generally
Vento v. Dir. of Virgin Islands Bureau of Internal
Revenue, 715 F.3d 455, 466-68, 58 V.I. 753 (3d Cir. 2013)
(listing factors to determine USVI residency).
Summary judgment may be appropriate where the
parties dispute facts, so long as the court assumes as true
the facts alleged by the nonmoving party for the purposes
of the motion. See Eichenwald v. Small, 321 F.3d 733,
736 n.2 (8th Cir. 2003); Britton v. City of Poplar Bluff,
244 F.3d 994, 996 (8th Cir. 2001); Summers v. Baptist
Med. Ctr. Arkadelphia, 91 F.3d 1132, 1138 (8th Cir. 1996)
(en banc). Cf. Jones v. Coonce, 7 F.3d 1359, 1362 (8th Cir.
1993) (in qualified immunity cases, this court can “decide
the essentially legal question of whether the acts [alleged
by plaintiffs] violated clearly established law”). For the
purposes of this appeal, Judith’s USVI non-residency is
acknowledged and is not a disputed issue of material fact.

6a
Appendix A
III.
The Internal Revenue Code states that a USVI
nonresident must “file” their “return” with “both the
United States and the Virgin Islands.” § 932(a)(2)
(emphasis added). The Coffeys are USVI nonresidents for
the purposes of this appeal. They did not file their return
with both the IRS and the VIBIR. Hulett, 150 T.C. at 65.
There is no time limit for IRS assessment where the
taxpayer fails to “file” a return. § 6501(c)(3). See Kaplan
v. Comm’r, 795 F.3d 808, 812 (8th Cir. 2015) (stating that
the statute of limitations does not begin until the taxpayer
files their return). In determining whether the statute of
limitations bars the IRS’s claims, this court must give
the statute of limitations a “strict construction” in favor
of the IRS. Badaracco v. Comm’r, 464 U.S. 386, 391, 104
S. Ct. 756, 78 L. Ed. 2d 549 (1984) (Statutes of limitations
barring the rights of the U.S. Government “must receive
a strict construction in favor of the Government.”).
The Coffeys propose two ways that they met the USVI
nonresident filing requirements, beginning the three-year
statute of limitations in section 6501(a) and barring the
IRS’s claims. First, they argue that the VIBIR sending
some of their tax documents to the IRS was a filing.
Second, they argue that their returns filed with the VIBIR
alone met the USVI nonresident filing requirements.

7a
Appendix A
A.
The Coffeys argue that the documents sent by the
VIBIR to the IRS were “filed” under sections 932(a)
(2) and 6501(a). The Tax Court agreed, concluding that
the documents were filed because “the first two pages
of [the Coffeys’ USVI returns] somehow (and without
their knowledge or explicit approval) ended up at the
Philadelphia office of the IRS . . . .” Hulett, 150 T.C. at 97.
The Internal Revenue Code and the IRS regulations
do not define the terms “file” or “filed.” See Allnutt v.
Comm’r, 523 F.3d 406, 412 (4th Cir. 2008). A taxpayer must
show “meticulous compliance” with all filing requirements
in the Internal Revenue Code or IRS regulations. Lucas
v. Pilliod Lumber Co., 281 U.S. 245, 249, 50 S. Ct. 297, 74
L. Ed. 829, 1930-2 C.B. 396 (1930) (requiring “meticulous
compliance” by taxpayers with all statutory conditions to
begin the statute of limitations); Commissioner v. LaneWells Co., 321 U.S. 219, 223, 64 S. Ct. 511, 88 L. Ed. 684
(1944) (requiring compliance with IRS regulations to begin
the statute of limitations). Returns are “filed” if “delivered,
in the appropriate form, to the specific individual or
individuals identified in the Code or Regulations.” Comm’r
v. Estate of Sanders, 834 F.3d 1269, 1274 (11th Cir. 2016),
quoting Allnutt, 523 F.3d at 413. Cf. Lane-Wells, 321 U.S.
at 223 (The purpose of filing requirements “is not alone
to get tax information in some form but also to get it with
such uniformity, completeness, and arrangement that the
physical task of handling and verifying returns may be
readily accomplished.”).

8a
Appendix A
In a similar case, the taxpayer’s return did not report
some taxable income that must be reported. Heckman v.
Comm’r, 788 F.3d 845, 846 (8th Cir. 2015). The IRS learned
of it during an unrelated audit of the taxpayer. Id. The
IRS issued a deficiency notice over three years after the
taxpayer filed the return. Id. The taxpayer invoked the
three-year statute of limitations in section 6501(a), based
on the IRS’s “actual knowledge” of the unreported income
within three years after the taxpayer filed the return. Id.
at 847.
This court held that the IRS’s actual knowledge of the
income did not begin the three-year statute of limitations.
Id. at 847-48. See Nat’l Contracting Co. v. Comm’r, 105
F.2d 488, 491 (8th Cir. 1939) (failure to file a return with
the IRS “did not set the statute of limitations in operation,”
even where the IRS “examined the [taxpayer’s] books
and made a report” regarding the tax liability). Rather,
the three-year statute of limitations begins only after
the taxpayer’s “return was filed.” Heckman, 788 F.3d at
847, quoting § 6501(a). The IRS’s actual knowledge is not
a filing. Id. at 848 (“The Code provides only two statutes
of limitations: three years or six years after the return
was filed, not three years after the acquisition of actual
knowledge.”) (emphasis in original). Without a filing, the
statute of limitations in section 6501(a) does not begin
when the IRS received the information.
Heckman defeats the Coffeys’ argument that the
VIBIR sending the documents to the IRS began the
statute of limitations. The IRS received actual knowledge
of the Coffeys’ information, not a filing. It is undisputed

9a
Appendix A
that the Coffeys did not intend to file tax returns with the
IRS, but only with the VIBIR. Hulett, 150 T.C. at 80. The
Coffeys did not meticulously comply with federal filing
requirements for USVI nonresidents.
Similarly, the VIBIR did not file returns when it sent
the Coffeys’ documents to the IRS. Generally, taxpayers
themselves must file their return with the IRS. See
§ 6501(a) (defining a “return” as the return required to be
“filed by the taxpayer”). In some instances, an authorized
third-party may file on behalf of the taxpayer. See 26
C.F.R. § 1.6012-1(a)(5). Cf. Deaton Oil Co., LLC v. United
States, 904 F.3d 634, 641 (8th Cir. 2018) (An agent’s failure
to file a return “does not constitute reasonable cause for
the principal’s failure to comply with its tax obligations
. . . .”), citing United States v. Boyle, 469 U.S. 241, 105 S.
Ct. 687, 83 L. Ed. 2d 622 (1985). The Coffeys, however,
never authorized the VIBIR to file their documents with
the IRS. Hulett, 150 T.C. at 104 (dissenting opinion).
That the IRS actually received the documents,
processed and audited them, and issued deficiency notices
is irrelevant for statute of limitations purposes. See
Heckman, 788 F.3d at 847-48. The IRS’s actual knowledge
did not create a filing. The statute of limitations in section
6501(a) begins only when a return is filed. Because the
Coffeys did not meticulously comply with requirements to
file with the IRS, the statute of limitations never began.

10a
Appendix A
B.
The Coffeys, joined by the USVI, alternatively argue
that filing solely with the VIBIR began the three-year
statute of limitations in section 6501(a). See Hulett, 150
T.C. at 98. They read section 6501(a) as providing a repose
to taxpayers who file an honest and genuine return, even
if mistaken about residency. See id.
The Coffeys argue that for imperfect filings, the
“honesty and genuineness of the filer’s attempt to satisfy
the tax laws should be determined from the face of the
form itself, not from the filer’s delinquency or the reasons
for it.” In re Colsen, 446 F.3d 836, 840 (8th Cir. 2006). The
taxpayer’s “subjective intent is irrelevant” in determining
what is an honest and genuine return. Id. See generally
Zellerbach Paper Co. v. Helvering, 293 U.S. 172, 180, 55
S. Ct. 127, 79 L. Ed. 264, 1934-2 C.B. 341 (1934) (holding,
for a return filed with the IRS: “Perfect accuracy or
completeness is not necessary to rescue a return from
nullity, if it purports to be a return, is sworn to as such,
and evinces an honest and genuine endeavor to satisfy the
law.”) (citation omitted); Germantown Tr. Co. v. Comm’r,
309 U.S. 304, 310, 60 S. Ct. 566, 84 L. Ed. 770, 1940-1 C.B.
178 (1940) (same, for a return filed with the IRS).
As a prerequisite, however, an honest and genuine
return must be filed with the correct individual. See
Sanders, 834 F.3d at 1277. In Colsen, this court determined
“whether a document is a return,” not whether it was filed.
Colsen, 446 F.3d at 839, citing Germantown, 309 U.S. at
309; Zellerbach, 293 U.S. at 180; and Beard v. Comm’r,

11a
Appendix A
82 T.C. 766, 774-79 (1984), aff’d per curiam, 793 F.2d 139
(6th Cir. 1986). Colsen stands for the proposition that a
determination of what is an honest and genuine return
“does not require inquiry into the circumstances under
which a document was filed.” Id. at 840. The honesty
and genuineness of the Coffeys’ returns does not affect
whether they were filed.
The Coffeys argue at length that, because the IRS
has the authority to audit, assess, and regularly receive
returns filed with the VIBIR, USVI returns alone satisfy
the nonresident filing requirements. The Coffeys believe
that the United States and the USVI are not separate
taxing entities. See Hulett, 150 T.C. at 103, citing Puerto
Rico v. Sánchez Valle, 136 S. Ct. 1863, 1876, 195 L. Ed.
2d 179 (2016) (holding that the United States and Puerto
Rico “are not separate sovereigns” for double jeopardy
purposes, but not addressing whether they are separate
taxing entities). To the contrary, “the USVI is a separate
taxing entity” from the United States. Coffey, 663 F.3d at
949. A filing with the USVI is not automatically a filing
with the IRS. See Sanders, 834 F.3d at 1278-79; Gangi v.
United States, 453 Fed. Appx. 255, 257 n.1 (3d Cir. 2011);
Condor Int’l, Inc. v. Comm’r, 78 F.3d 1355, 1358-59 (9th
Cir. 1996); Huff v. Comm’r, 138 T.C. 258, 267 (2012).
The Coffeys claim that they made an honest and
genuine attempt to satisfy the tax laws. Under the
Internal Revenue Code, a taxpayer either “is a bona fide
resident of the Virgin Islands,” or “is a citizen or resident
of the United States (other than a bona fide resident of
the Virgin Islands) . . . .” § 932(c)(1)(A), (a)(1)(A)(i). The

12a
Appendix A
Internal Revenue Code does not create an exception
for a taxpayer’s mistaken position about residency. See
Sanders, 834 F.3d at 1277. Cf. Heckman, 788 F.3d at 849
(there is “no exception for omissions caused by a taxpayer’s
mistaken tax position” in section 6501(e)(1)(A)). As a USVI
nonresident (for the purposes of this appeal), Judith’s
position that she was a USVI resident is irrelevant. A
failure to file a return with the correct individual, even if
done in a mistake of residency, does not create a “filed”
return under section 6501(a). See Sanders, 834 F.3d at
1279 (“The three-year statute of limitations does not run
when a taxpayer who is not a bona fide USVI resident files
a return with the VIBIR, but not the IRS, regardless of
his subjective good faith beliefs as to his residency.”).
The Coffeys stress that the returns they filed with the
VIBIR are identical to federal tax forms. See Appleton v.
Comm’r, 140 T.C. 273, 283 (2013) (stating that the Form
1040 that a bona fide USVI resident files with the VIBIR
is the same Form 1040 that individuals file with the IRS).
Although the VIBIR uses the same forms, returns filed
with the VIBIR—for a USVI nonresident, as in this
case—are not returns filed with the IRS. See 33 V.I.C.
§ 681(i). Without a filing, the documents are not an honest
and genuine attempt to satisfy the tax law and are not filed
returns. The Coffeys did not file returns with the IRS, but
only returns with the VIBIR.
****
The judgment of the Tax Court is reversed, and
the case remanded for proceedings consistent with this
opinion.

13a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES TAX COURT, FILED JULY 24, 2018

UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 4720-10
JUDITH S. COFFEY, PETITIONER & THE
GOVERNMENT OF THE UNITED STATES
VIRGIN ISLANDS, INTERVENOR,
Petitioner(s),
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
ORDER
This case was previously consolidated with others that
had been on the Court’s November 14,2011 trial calendar
for Buffalo, New York. In 2013 we denied summary
judgment motions from two of the Coffeys and the United
States Virgin Islands (USVI), which had intervened. We
later granted those parties’ motions for reconsideration
under Rule 161. The cases then went to conference where
the entire Court reviewed them. A majority voted to grant
the motion for summary judgment. On January 29, 2018,
the Court issued its opinion, severed this case from the
others, and dismissed it for lack of jurisdiction.

14a
Appendix B
The Commissioner now moves for reconsideration
under Rule 161, arg uing that we committed two
substantial errors.1 First, he says we shouldn’t have held
that he conceded that the third-party filing in this case
did not affect its outcome. See Coffey v. Commissioner,
150 T.C. _,_(slip op. at 30-31) (Jan. 29, 2018). Second, he
says we shouldn’t have held that it was undisputed that
the IRS processed the returns the Coffeys filed with the
Virgin Islands Bureau of Internal Revenue (VIBIR) once
those returns found their way to the Philadelphia service
IRS’s center.
We discuss each.
I.

Third-Party Filing
A.

Did the Commissioner Make a Concession?

The Commissioner says he never conceded that a
third party who isn’t the taxpayer’s agent can “file” the
taxpayer’s return. That’s relevant here because VIBIR,
and not the Coffeys, sent the Coffeys’ returns to the IRS.
Let’s look at what the Commissioner said.
During the October 2013 hearing on the Coffeys’
motion for reconsideration we posed a hypothetical: A
taxpayer on his way to mail his return to the IRS gets
1. We apply the standards of the district courts under Federal
Rule of Civil Procedure 60(b) to motions to reconsider. See Bedrosian
v. Commissioner, 144 T.C. 152, 156 (2015).

15a
Appendix B
mugged. He drops the return, but a Good Samaritan picks
it up and mails it to the IRS, who receives it. Tr. at 148. The
Commissioner’s counsel’s response was simple: “it’s filed.”
Tr. at 149. Later during the hearing the Commissioner’s
counsel said that the return the IRS received from VIBIR
didn’t count because the Coffeys hadn’t sent it, but we
reminded him of his answer to our hypothetical. Tr. at 16264. He then asked for an opportunity to further consider
the hypothetical, and said he would produce a written
response to it. Tr. at 164.
He never did. Instead, in his January 9, 2014
memorandum in support of his opposition to the motions
for reconsideration he wrote, “[a] taxpayer’s subjective
intent has no role to play in determining whether a valid
return has been filed’’; cited Allnutt v. Commissioner,
523 F.3d 406,413 n.5 (4th Cir. 2008), aff’g 84 T.C.M. 669
(2002); and went on to say that “[o]n the other hand, it [i.e.,
subjective intent] does have a role to play in determining
whether a filed document constitutes a valid return.”
Mem. in Supp. ofResp’t’s Op. to the Mots. for Recons.
Filed by Pet’s and Intervener at 6 n.3 (emphasis added).
We therefore said that the Commissioner didn’t argue
that there was a third-party filing problem and found that
he conceded that a taxpayer’s intent was not relevant to
whether a return was “filed”. Coffey, 150 T.C. at_ (slip op.
at 30-31).
The Commissioner now claims that when he said
intent doesn’t matter he didn’t mean to concede that a
return can be “filed” by a third party. But that’s exactly
what he did when his counsel responded to our Good

16a
Appendix B
Samaritan hypothetical, and he didn’t change his position
in his subsequent filings. See Tr. at 148-49. Under these
circumstances, it wasn’t substantial error to say the
Commissioner didn’t argue that there was a third-party
filing problem.
B. Was the Concession a Misstatement of Law?
1.

Third-Party Filing

Next the Commissioner says that even if he did
concede that a third party can “file” a return, we should
ignore him because that concession would be contrary
to law. But the Code and the regulations don’t require a
taxpayer to intentionally file his return himself -- they
just say returns “shall be” filed in particular places by
particular times. See, e.g., I.R.C. §§ 6072(a) and 6091(b);
26 C.F.R. §§ 1.6091-2(a)(1) and 1.6091-3.
The dissent, see Coffey, 150 T.C. at_ (slip op. at 71)
(Marvel, J., dissenting), and the Commissioner, see Resp’t’s
Mot. for Recons. at 4, point out that§ 6501(a) --which says
that the Commissioner generally must assess tax within
three years after a return “was filed”-- defines “return”
as “the return required to be filed by the taxpayer.” They
think this means the taxpayer himself (or his agent) must
intentionally do the actual filing. See Coffey, 150 T.C.
at_(slip op. at 71-72) (Marvel, J., dissenting). But they leave
out part of the definition -- it continues with a parenthetical
that says a return “does not include a return of any person
from whom the taxpayer has received an item of income,
gain, loss, or credit.” I.R.C. § 6501(a). In other words,
§ 6501(a) answers the question of whose return’s filing

17a
Appendix B
starts the statute of limitations’ running. The answer
that section gives is that the statute runs from when the
taxpayer’s return “was filed,” not from when any thirdparty’s return was. It doesn’t make an intent to file, much
less an intent to file in a particular place, part of “filing”.
The Commissioner also thinks that Commissioner v.
Estate of Sanders, 834 F.3d 1269, 1273 (11th Cir. 2016),
vacating and remanding 144 T.C. 63 (2015), “necessarily
decided by implication either that [a] return transmitted
[from VIBIR to the IRS is] not a federal tax return or
that the transmission [is] not a ‘filing.”’ Resp’t’s Mot.
for Recons. at 5-6. But the holding there was that “a
taxpayer’s mere good faith belief regarding his USVI
residency is insufficient to cause a return filed with the
VIBIR to start the statute of limitations period,” Estate of
Sanders, 834 F.3d at 1275, and the Eleventh Circuit didn’t
consider what effect VIBIR’s transmission of the return
to the IRS had on the statute of limitations. We therefore
won’t read into it a holding by implication, especially in a
case appealable to a different circuit.
Allnutt--the case the Commissioner cited after saying
“[a] taxpayer’s subjective intent has no role to play in
determining whether a valid return has been filed” -makes clear that a return can be “filed” by a third party
regardless of the taxpayer’s intent. There the taxpayer
delivered his returns to the IRS’s district counsel with
the intent to file them, but he should’ve given them to the
district director.2 Allnutt, 523 F.3d at 408. The district
2. As a courtesy (i.e., not intending to file them) he also left a
set with someone at the district director’s office, but it’s not clear
that they ever made it to the actual director -- although one copy

18a
Appendix B
counsel later sent them to the district director, and the
Fourth Circuit held that the date the director’s office-­
which was the correct office -- received them was the date
the statute of limitations began to run -- meaning that was
the day the returns were “filed”. Id. at 409, 411, 414; see
also I.R.C. § 6501(a). The court held this even though the
taxpayer didn’t intend to file his returns with the correct
office and a third party -- a different part of the IRS -that wasn’t the taxpayer’s agent sent them without the
taxpayer’s knowledge. 3 See Allnutt, 523 F.3d at 408-09.
We r e a ched t he sa me r e su lt i n Winn e t t v.
Commissioner, 96 T.C. 802, 808 (1991), where the
taxpayers sent their returns to the wrong service center
but that service center forwarded them to the right one.
We held that the returns were “filed” when they arrived
at the right service center -- even though the first service
center necessarily wasn’t the taxpayers’ agent and the
taxpayers didn’t intend for their returns to go to the
second one. See id.; see also Coffey, 150 T.C. at
(slip
op. at 31).

somehow made it to the IRS service center in Philadelphia months
later. Allnutt, 523 F.3d at 409-10.
3. The Commissioner says that in Allnutt, 523 F.3d at 413 n.5,
the court “declined to opine whether intent was an element of the
filing requirements.” Resp’t’s Mot. for Recons. at 4. What the footnote
the Commissioner cites really says is that the court declined to opine
whether a series of cases we cited in our Memorandum Opinion “can
be read as adding an intent element to the listed filing requirements
in the Code and Regulations.” Id. Allnutt itself found an unintended
third-party filing to be valid. See id. at 413-14.

19a
Appendix B
Because neither the Code, regulations, nor caselaw
invalidate unintentional third-party filings, it was not
substantial error to accept the Commissioner’s concession.
2.

Intent

Because the Commissioner is right that “[a] taxpayer’s
subjective intent has no role to play in determining
whether a valid return has been filed,” see Mem. in Supp.
of Resp’t’s Op. to the Mots. for Recons. Filed by Pet’s and
Intervenor at 6 n.3, it’s hard to see why it would matter
who physically “filed” a return. Is the Commissioner’s
third-party filing argument really an indirect way of
saying that subjective intent is necessary for “filing” after
all? That is of course what the dissent to our Opinion said.
See Coffey, 150 T.C. at
(slip op. at 71-76) (Marvel, J.,
dissenting).
Allnutt and Winnett necessarily resolved this issue,
too. The taxpayers in those cases didn’t intentionally send
their returns to the correct IRS offices, yet once their
returns got to those offices the statute of limitations began
to run. See Allnutt, 523 F.3d at 409, 411, 414; Winnett, 96
T.C. at 808. If the taxpayers had needed to subjectively
intend for their returns to go to those particular offices
the returns never would’ve been “filed” and the statute
of limitations would never have begun to run. See I.R.C.
§ 6501(a). The taxpayers’ intent therefore wasn’t material.
See Allnutt, 523 F.3d at 414; Winnett, 86 T.C. at 808.
We can see why this is confusing. After all, “[t]o be a
return for statute of limitations purposes, [a] document

20a
Appendix B
‘must honestly and reasonably be intended as such’ by the
taxpayer.” Allnutt, 84 T.C.M. at 673 (quoting Florsheim
Bros. Drygoods Co. v. United States, 280 U.S. 453, 462
(1930) (filing of IRS form titled “tentative return” to
request 45-day extension didn’t start statute of limitations;
later Form 1120 did)) (emphasis added). And determining
whether a document is an honest and reasonable attempt
to satisfy the tax law is part of the Beard test we used to
determine that the Form 1040 VIBIR sent to the IRS was
the Coffeys’ “return”. See Coffey, 150 T.C. at
(slip op.
at 45-48); see also Beard v. Commissioner, 82 T.C. 766,
777 (1984), aff’d, 793 F.2d 139 (6th Cir. 1986).
But whether a document is a “return” and whether
it’s “filed” are separate questions, and a taxpayer can’t
benefit from the statute of limitations unless each is
answered affirmatively. See I.R.C. § 6501(a). The dissent
confuses these questions and suggests that because the
law requires that a taxpayer must intend that a particular
document be his “return”, it must also require him to
intend a particular action for that return to be “filed”.
See Coffey, 150 T.C. at
(slip op. at 75) (Marvel, J.,
dissenting).
This isn’t the first time our Court has conflated these
questions. In Berenbeim v. Commissioner, 63 T.C.M.
2975, 2979-80, 2983-84 (1992), a wife who didn’t know her
husband was running a Ponzi scheme signed documents
she intended to be joint returns and believed her husband
filed them. He didn’t. Id. at 2979, 2983. Later, she gave
copies of the returns to a revenue agent, he filed them
without her knowledge, and the Commissioner wanted

21a
Appendix B
to hold them against her in her innocent-spouse case.
Id. at 2979-80, 2983-85. In our Memorandum Opinion,
we focused on “whether petitioner wife intended to
individually file a return at the time” she gave the copies
to the agent and held “that no returns were filed” for the
years at issue. Id. at 2984-85.
In reaching our holding we relied primarily on
two other innocent-spouse cases. The first was Shea v.
Commissioner, 780 F.2d 561, 567-68 (6th Cir. 1986), aff’g
in part, rev’g in part 48 T.C.M. 304 (1984), where the
Sixth Circuit held that a return a wife didn’t sign or help
prepare wasn’t a joint return. The court consi­dered only
whether the wife intended for the document to be a return
-- it said that “[w]hether a tax return is a joint return is a
question of fact and is primarily a question of intent,” id.
at 567 (internal quotations omitted), and found that the
taxpayer “did not intend for this particular tax return to
be her own,” id. at 568.
The second innocent-spouse case Berenbeim relied
on was Sharwell v. Commissioner, 419 F.2d 1057, 105960 (6th Cir. 1969), vacating and remanding 27 T.C.M.
416 (1968), where the Sixth Circuit held that a wife who
actively participated in the preparation of a joint return
intended it to be her return even though she didn’t sign
it. The court there also focused on whether the taxpayer
intended a particular document to be her return:
[The taxpayer] contends that the returns were
not joint because she did not sign them. We
think there is no merit in this position. The

22a
Appendix B
question of whether a return is joint or not is
a factual one. [Citations.] The signature of the
wife is only one factor in determining whether
the return is joint. It appears that the question
is primarily one of intent.
Id. The court didn’t even address whether that return
was “filed”.
Berenbeim didn’t distinguish between an intent to file
and an intent that a particular document be a return. See
Berenbeim, 63 T.C.M. at 2984. But in light of its reliance
on Shea and Sharwell, we think its holding only reaches
whether a taxpayer intended a particular document to
be his return -- which is probably why the Commissioner
cited it only after stating that intent “does have a role to
play in determining whether a filed document constitutes
a valid return.” See Mem. In Supp. of Resp’t’s Op. to the
Mots. for Recons. Filed by Pet’s and Intervenor at 6 n.3
(emphasis added).
The dissent argues that other Memorandum Opinions
of ours show that intent is required for “filing”, but these
are even less compelling than Berenbeim. The best for the
dissent is our Memorandum Opinion in Allnutt, where we
said: “[F]iling of a return is established by facts showing
proper delivery or mailing of a return with the intent to
file it as a return.” 84 T.C.M. at 675. But the Fourth Circuit
didn’t affirm us on that point -- instead, it “decline[d]
to opine” whether the cases we cited in support of our
assertion actually added “an intent element to the listed
filing requirements in the Code.” Allnutt, 823 F.3d at 413

23a
Appendix B
n.5. The Allnutt Memorandum Opinion therefore doesn’t
mean intent is a requirement of”filing”.
The dissent also cites Friedmann v. Commissioner,
82 T.C.M. 381, 386 (2001), aff’d without published opinion,
80 F. App’x 285 (3d Cir. 2003), where we held that a
taxpayer who gave copies of his returns to an IRS revenue
agent never “filed” them because he didn’t also send them
to the correct IRS office. In that Memorandum Opinion
we distinguished between the Beard test for whether a
document is a “return” and the issue of whether a return
is “filed”. See id. at 386. But after reaching our holding, we
made the statement the dissent cites: “More­over, there is
nothing in the record to show that petitioner intended his
delivery of those documents to the agent * * * to constitute
the filing of his returns”-- and then we cited Berenbeim.
Id. at 387. That was dicta -- we’d already determined that
the returns hadn’t been “filed”. Id. at 386. That phrase also
repeated Berenbeim’s conflation of intent to file and intent
for a document to be a return -- which was not supported
by the circuit court opinions Berenbeim relied on. See id.
at 387. This dicta also doesn’t make intent part of “filing”.
The rest of the cases the dissent cites also fail
to bolster the Commissioner’s motion. In Espinoza
v. Commissioner, 78 T.C. 412 (1982), the taxpayer
initially filed fraudulent returns, but later gave amended
nonfraudulent returns to the revenue agent. More than
three years passed before the Commissioner issued
notices of deficiency. Id. at 415. The taxpayer argued
that the statute of limitations period began when he gave
the nonfraudulent returns to the revenue agent, but we

24a
Appendix B
denied his motion for summary judgment because the
record didn’t show that the returns ever made it to the
correct IRS office. Id. at 415, 422. We pointed out that the
taxpayer never paid the tax his amended returns showed
he owed, and then we made the statement the dissent cites:
“His failure to pay the additional taxes raises a question
as to whether he intended for the amended returns to be
filed.” Id. at 422. This is also dicta and doesn’t make intent
a requirement for “filing”.
Finally, in Dingman v. Commissioner, 101 T.C.M.
1562, 1563 (2011), the taxpayer gave delinquent returns
and payments to the IRS Criminal Investigation Division
(CID), and the IRS cashed the checks and posted the
payments to Dingman’s transcripts. The Commissioner
argued that the returns weren’t “filed” because the
taxpayer hadn’t given them to the right part of the IRS.
Id. at 1566. We first pointed out that during the years at
issue there was no clear guidance on where taxpayers
were supposed to send their returns. Id. at 1568. Then,
citing Winnett and Allnutt, we said the fact that the IRS
processed the returns meant that CID must’ve forwarded
them to the right place, and we held that the returns were
“filed” no later than the date the IRS cashed the checks
and made the transcripts -- a holding that’s consistent with
our opinion in the Coffeys’ cases. See id. at 1570.
In Dingman the Commissioner cited Espinoza,
Friedmann, and our Memorandum Opinion in Allnutt,
and said those cases “address the taxpayer’s intent to file
a return.” Id. at 1569. We dealt with the Commissioner’s
argument with the statement the dissent quotes: “The

25a
Appendix B
record supports a conclusion that petitioner clearly
intended to file the returns when his counsel submitted
them to CID.” Id. This statement merely dismissed a
line of argument in a case where the IRS had clearly
processed the taxpayer’s returns -- it didn’t create an
intent requirement for filing.
The Code, regulations, and caselaw all show that a
taxpayer’s intent is not relevant to the question of whether
his return is “filed”. “On the other hand, it does have a
role to play in determining whether a filed document
constitutes a valid return.” Mem. in Supp. of Resp’t’s Op.
to the Mots. for Recons. Filed by Pet’s and Intervenor at 6
n.3 (emphasis added). Because this is the law we followed,
there was no substantial error.
II. Processing
The Commissioner also says we committed substantial
error by finding that “the undisputed facts show that the
IRS was able to stamp [the return] received, summarize
its contents in its Individual Master File, and open an
audit in due course.” Resp’t’s Mot. for Recons. at 6 (quoting
Coffey, 150 T.C. at
(slip op. at 45)). He first says this
was error because he told us at oral argument that a
computer, rather than a human being, processed the
information and coded it as a USVI return. He also says
that the computer processed the documents “as cover-over
documents and not as federal income tax returns.” But we
fail to see why it matters that a computer processed the
information and processed it a certain way -- the point is
that the IRS had the information and was able to process
it. See Dingman, 101 T.C.M. at 1570.

26a
Appendix B
Second, the Commissioner says that VIBIR, not the
IRS, stamped the top of the return “U.S. Claim.” Resp’t’s
Mot. for Recons. at 6. But when we said the IRS stamped
it, we weren’t talking about that stamp -- we were talking
about the one on the left-hand side of the first page of
the Coffeys’ return that says “RECEIVED 02082005
IRS - PHILA., PA.” See Coffey, 150 T.C. at
(slip op.
at 12-13, 45). In light of this evidence, it wasn’t error to
find that the IRS’s Philadelphia service center received
the Coffeys’ returns.
Respondent hasn’t show n that we committed
substantial error. It is therefore
ORDERED that Respondent’s February 28, 2018
motion for reconsideration is DENIED.

(Signed) Mark V. Holmes
Judge

Dated: Washington, D.C.
July 24, 2018

27a
Appendix
Appendix c —
ORDERCAND DECISION
of the UNITED STATES TAX COURT,
DATED JULY 24, 2018
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 4720-10
JUDITH S. COFFEY, PETITIONER & THE
GOVERNMENT OF THE UNITED STATES
VIRGIN ISLANDS, INTERVENOR,
Petitioner(s),
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
ORDER AND DECISION
This case was previously consolidated with others that
had been on the Court’s November 14, 2011 trial calendar
for Buffalo, New York. In Coffey v. Commissioner, 150 T.C.
__ (Jan. 29, 2018), we held that the statute of limitations
barred the deficiencies the Commissioner determined.
We therefore dismissed the case for lack of jurisdiction.
We quickly realized our mistake, and amended our order
to clarify that as a result of our dismissal there was no
deficiency for 2003 and 2004, pursuant to I.R.C. § 7459(e).

28a
Appendix C
This was still not quite right in the Commissioner’s
view, and he has moved for us to vacate our order
dismissing the case and instead enter one granting the
Coffeys’ motion for summaryjudgment. He says that
would be the proper way to dispose of the case because
“the statute of limitations is an affirmative defense, not a
jurisdictional bar to suit resulting in a dismissal.”
The Commissioner is right. Our court gains jurisdiction
in a deficiency case when there’s a valid notice of deficiency
and a timely petition. I.R.C. §§ 6212(a), 6213(a), 7442; see
also, e.g., GAF Corp. & Subs. v. Commissioner, 114 T.C.
519, 521 (2000). I.R.C. § 6501(a) says the Commissioner
has only three years after a return is filed to assess tax,
and while a valid notice of deficiency tolls that threeyear period, see I.R.C. § 6503(a), a notice of deficiency
isn’t automatically invalid if the Commissioner sends it
after that period ends, see I.R.C. § 6212(a); Genesis Oil
& Gas, Ltd. v. Commissioner, 93 T.C. 562, 564 (1989). A
late notice therefore doesn’t affect our jurisdiction, but
the Commissioner also can’t assess the tax it shows when
a statute-of-limitations defense is properly raised. See
I.R.C. § 6501(a).
The Coffeys properly raised that defense here, and
don’t care how the case ends except for decisions that show
no deficiency. But to make the paperwork less sloppy, it is
ORDERED that respondent’s February 28, 2018
motion to vacate order of dismissal for lack of jurisdiction
as amended is granted. It is also

29a
Appendix C
ORDERED that the Court’s January 29, 2018 order
of dismissal and February 6, 2018 amended order of
dismissal are vacated. It is also
ORDERED that petitioners’ March 19, 2012 motion
for summary judgment is granted. It is also
ORDERED and DECIDED that there is no deficiency
in income tax, and no additions to tax, due from petitioner
for tax years 2003 and 2004.
(Signed) Mark V. Holmes
Judge
Entered: JUL 24 2018

30a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
STATES TAX COURT, DATED JULY 24, 2018

UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 4949-10.
JAMES L. COFFEY,
Petitioner(s),
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
ORDER
This case was previously consolidated with others that
had been on the Court’s November 14, 2011 trial calendar
for Buffalo, New York. In 2013 we denied summary
judgment motions from two of the Coffeys and the United
States Virgin Islands (USVI), which had intervened. We
later granted those parties’ motions for reconsideration
under Rule 161. The cases then went to conference where
the entire Court reviewed them. A majority voted to grant
the motion for summary judgment. On January 29, 2018,
the Court issued its opinion, severed this case from the
others, and dismissed it for lack of jurisdiction.

31a
Appendix D
The Commissioner now moves for reconsideration
under Rule 161, arg uing that we committed two
substantial errors.1 First, he says we shouldn’t have held
that he conceded that the third-party filing in this case
did not affect its outcome. See Coffey v. Commissioner,
150 T.C. __, __ (slip op. at 30-31) (Jan. 29, 2018). Second,
he says we shouldn’t have held that it was undisputed that
the IRS processed the returns the Coffeys filed with the
Virgin Islands Bureau of Internal Revenue (VIBIR) once
those returns found their way to the IRS’s Philadelphia
service center.
We discuss each.
I.

Third-Party Filing
A.

Did the Commissioner Make a Concession?

The Commissioner says he never conceded that a
third party who isn’t the taxpayer’s agent can “file” the
taxpayer’s return. That’s relevant here because VIBIR,
and not the Coffeys, sent the Coffeys’ returns to the IRS.
Let’s look at what the Commissioner said.
During the October 2013 hearing on the Coffeys’
motion for reconsideration we posed a hypothetical: A
taxpayer on his way to mail his return to the IRS gets
1. We apply the standards of the district courts under
Federal Rule of Civil Procedure 60(b) to motions to reconsider.
See Bedrosian v. Commissioner, 144 T.C. 152, 156 (2015).

32a
Appendix D
mugged. He drops the return, but a Good Samaritan picks
it up and mails it to the IRS, who receives it. Tr. at 148. The
Commissioner’s counsel’s response was simple: “it’s filed.”
Tr. at 149. Later during the hearing the Commissioner’s
counsel said that the return the IRS received from VIBIR
didn’t count because the Coffeys hadn’t sent it, but we
reminded him of his answer to our hypothetical. Tr. at 16264. He then asked for an opportunity to further consider
the hypothetical, and said he would produce a written
response to it. Tr. at 164.
He never did. Instead, in his January 9, 2014
memorandum in support of his opposition to the motions
for reconsideration he wrote, “[a] taxpayer’s subjective
intent has no role to play in determining whether a valid
return has been filed”; cited Allnutt v. Commissioner,
523 F.3d 406, 413 n.5 (4th Cir. 2008), aff’g 84 T.C.M. 669
(2002); and went on to say that “[o]n the other hand, it [i.e.,
subjective intent] does have a role to play in determining
whether a filed document constitutes a valid return.”
Mem. in Supp. of Resp’t’s Op. to the Mots. for Recons.
Filed by Pet’s and Intervenor at 6 n.3 (emphasis added).
We therefore said that the Commissioner didn’t argue
that there was a third-party filing problem and found that
he conceded that a taxpayer’s intent was not relevant to
whether a return was “filed”. Coffey, 150 T.C. at __ (slip
op. at 30-31).
The Commissioner now claims that when he said
intent doesn’t matter he didn’t mean to concede that a
return can be “filed” by a third party. But that’s exactly
what he did when his counsel responded to our Good

33a
Appendix D
Samaritan hypothetical, and he didn’t change his position
in his subsequent filings. See Tr. at 148-49. Under these
circumstances, it wasn’t substantial error to say the
Commissioner didn’t argue that there was a third-party
filing problem.
B. Was the Concession a Misstatement of Law?
1.

Third-Party Filing

Next the Commissioner says that even if he did
concede that a third party can “file” a return, we should
ignore him because that concession would be contrary
to law. But the Code and the regulations don’t require a
taxpayer to intentionally file his return himself -- they
just say returns “shall be” filed in particular places by
particular times. See, e.g., I.R.C. §§ 6072(a) and 6091(b);
26 C.F.R. §§ 1.6091-2(a)(1) and 1.6091-3.
The dissent, see Coffey, 150 T.C. at __ (slip op. at
71) (Marvel, J., dissenting), and the Commissioner, see
Resp’t’s Mot. for Recons. at 4, point out that § 6501(a)
-- which says that the Commissioner generally must
assess tax within three years after a return “was filed”
-- defines “return” as “the return required to be filed by
the taxpayer.” They think this means the taxpayer himself
(or his agent) must intentionally do the actual filing.
See Coffey, 150 T.C. at __ (slip op. at 71-72) (Marvel, J.,
dissenting). But they leave out part of the definition -- it
continues with a parenthetical that says a return “does not
include a return of any person from whom the taxpayer
has received an item of income, gain, loss, or credit.” I.R.C.

34a
Appendix D
§ 6501(a). In other words, § 6501(a) answers the question
of whose return’s filing starts the statute of limitations
running. The answer that section gives is that the statute
runs from when the taxpayer’s return “was filed,” not
from when any third-party’s return was. It doesn’t make
an intent to file, much less an intent to file in a particular
place, part of “filing”.
The Commissioner also thinks that Commissioner v.
Estate of Sanders, 834 F.3d 1269, 1273 (11th Cir. 2016),
vacating and remanding 144 T.C. 63 (2015), “necessarily
decided by implication either that [a] return transmitted
[from VIBIR to the IRS is] not a federal tax return or
that the transmission [is] not a ‘filing.’” Resp’t’s Mot.
for Recons. at 5-6. But the holding there was that “a
taxpayer’s mere good faith belief regarding his USVI
residency is insufficient to cause a return filed with the
VIBIR to start the statute of limitations period,” Estate of
Sanders, 834 F.3d at 1275, and the Eleventh Circuit didn’t
consider what effect VIBIR’s transmission of the return
to the IRS had on the statute of limitations. We therefore
won’t read into it a holding by implication, especially in a
case appealable to a different circuit.
Allnutt -- the case the Commissioner cited after
saying “[a] taxpayer’s subjective intent has no role to play
in determining whether a valid return has been filed” -makes clear that a return can be “filed” by a third party
regardless of the taxpayer’s intent. There the taxpayer
delivered his returns to the IRS’s district counsel with
the intent to file them, but he should’ve given them to the

35a
Appendix D
district director. 2 Allnutt, 523 F.3d at 408. The district
counsel later sent them to the district director, and the
Fourth Circuit held that the date the director’s office -which was the correct office -- received them was the date
the statute of limitations began to run -- meaning that was
the day the returns were “filed”. Id. at 409, 411, 414; see
also I.R.C. § 6501(a). The court held this even though the
taxpayer didn’t intend to file his returns with the correct
office and a third party -- a different part of the IRS -that wasn’t the taxpayer’s agent sent them without the
taxpayer’s knowledge. 3 See Allnutt, 523 F.3d at 408-09.
We r e a che d t he sa me r e su lt i n Winn e t t v.
Commissioner, 96 T.C. 802, 808 (1991), where the
taxpayers sent their returns to the wrong service center
but that service center forwarded them to the right one.
We held that the returns were “filed” when they arrived
at the right service center -- even though the first service
2. As a courtesy (i.e., not intending to file them) he also left a
set with someone at the district director’s office, but it’s not clear
that they ever made it to the actual director -- although one copy
somehow made it to the IRS service center in Philadelphia months
later. Allnutt, 523 F.3d at 409-10.
3. The Commissioner says that in Allnutt, 523 F.3d at 413
n.5, the court “declined to opine whether intent was an element
of the filing requirements.” Resp’t’s Mot. for Recons. at 4. What
the footnote the Commissioner cites really says is that the
court declined to opine whether a series of cases we cited in our
Memorandum Opinion “can be read as adding an intent element
to the listed filing requirements in the Code and Regulations.” Id.
Allnutt itself found an unintended third-party filing to be valid.
See id. at 413-14.

36a
Appendix D
center necessarily wasn’t the taxpayers’ agent and the
taxpayers didn’t intend for their returns to go to the
second one. See id.; see also Coffey, 150 T.C. at __ (slip
op. at 31).
Because neither the Code, regulations, nor caselaw
invalidate unintentional third-party filings, it was not
substantial error to accept the Commissioner’s concession.
2.

Intent

Because the Commissioner is right that “[a] taxpayer’s
subjective intent has no role to play in determining
whether a valid return has been filed,” see Mem. in Supp.
of Resp’t’s Op. to the Mots. for Recons. Filed by Pet’s and
Intervenor at 6 n.3, it’s hard to see why it would matter
who physically “filed” a return. Is the Commissioner’s
third-party filing argument really an indirect way of
saying that subjective intent is necessary for “filing” after
all? That is of course what the dissent to our Opinion said.
See Coffey, 150 T.C. at __ (slip op. at 71-76) (Marvel, J.,
dissenting).
Allnutt and Winnett necessarily resolved this issue,
too. The taxpayers in those cases didn’t intentionally send
their returns to the correct IRS offices, yet once their
returns got to those offices the statute of limitations began
to run. See Allnutt, 523 F.3d at 409, 411, 414; Winnett, 96
T.C. at 808. If the taxpayers had needed to subjectively
intend for their returns to go to those particular offices
the returns never would’ve been “filed” and the statute of
limitations would never have begun to run. See I.R.C. §

37a
Appendix D
6501(a). The taxpayers’ intent therefore wasn’t material.
See Allnutt, 523 F.3d at 414; Winnett, 86 T.C. at 808.
We can see why this is confusing. After all, “[t]o be a
return for statute of limitations purposes, [a] document
‘must honestly and reasonably be intended as such’ by the
taxpayer.” Allnutt, 84 T.C.M. at 673 (quoting Florsheim
Bros. Drygoods Co. v. United States, 280 U.S. 453, 462
(1930) (filing of IRS form titled “tentative return” to
request 45-day extension didn’t start statute of limitations;
later Form 1120 did)) (emphasis added). And determining
whether a document is an honest and reasonable attempt
to satisfy the tax law is part of the Beard test we used to
determine that the Form 1040 VIBIR sent to the IRS was
the Coffeys’ “return”. See Coffey, 150 T.C. at __ (slip op.
at 45-48); see also Beard v. Commissioner, 82 T.C. 766,
777 (1984), aff’d, 793 F.2d 139 (6th Cir. 1986).
But whether a document is a “return” and whether it’s
“filed” are separate questions, and a taxpayer can’t benefit
from the statute of limitations unless each is answered
affirmatively. See I.R.C. § 6501(a). The dissent confuses
these questions and suggests that because the law requires
that a taxpayer must intend that a particular document be
his “return”, it must also require him to intend a particular
action for that return to be “filed”. See Coffey, 150 T.C. at
__ (slip op. at 75) (Marvel, J., dissenting).
This isn’t the first time our Court has conflated these
questions. In Berenbeim v. Commissioner, 63 T.C.M.
2975, 2979-80, 2983-84 (1992), a wife who didn’t know her
husband was running a Ponzi scheme signed documents

38a
Appendix D
she intended to be joint returns and believed her husband
filed them. He didn’t. Id. at 2979, 2983. Later, she gave
copies of the returns to a revenue agent, he filed them
without her knowledge, and the Commissioner wanted
to hold them against her in her innocent-spouse case.
Id. at 2979-80, 2983-85. In our Memorandum Opinion,
we focused on “whether petitioner wife intended to
individually file a return at the time” she gave the copies
to the agent and held “that no returns were filed” for the
years at issue. Id. at 2984-85.
In reaching our holding we relied primarily on
two other innocent-spouse cases. The first was Shea v.
Commissioner, 780 F.2d 561, 567-68 (6th Cir. 1986), aff’g
in part, rev’g in part 48 T.C.M. 304 (1984), where the
Sixth Circuit held that a return a wife didn’t sign or help
prepare wasn’t a joint return. The court considered only
whether the wife intended for the document to be a return
-- it said that “[w]hether a tax return is a joint return is a
question of fact and is primarily a question of intent,” id.
at 567 (internal quotations omitted), and found that the
taxpayer “did not intend for this particular tax return to
be her own,” id. at 568.
The second innocent-spouse case Berenbeim relied
on was Sharwell v. Commissioner, 419 F.2d 1057, 105960 (6th Cir. 1969), vacating and remanding 27 T.C.M.
416 (1968), where the Sixth Circuit held that a wife who
actively participated in the preparation of a joint return
intended it to be her return even though she didn’t sign
it. The court there also focused on whether the taxpayer
intended a particular document to be her return:

39a
Appendix D
[The taxpayer] contends that the returns were
not joint because she did not sign them. We
think there is no merit in this position. The
question of whether a return is joint or not is
a factual one. [Citations.] The signature of the
wife is only one factor in determining whether
the return is joint. It appears that the question
is primarily one of intent.
Id. The court didn’t even address whether that return
was “filed”.
Berenbeim didn’t distinguish between an intent to file
and an intent that a particular document be a return. See
Berenbeim, 63 T.C.M. at 2984. But in light of its reliance
on Shea and Sharwell, we think its holding only reaches
whether a taxpayer intended a particular document to
be his return -- which is probably why the Commissioner
cited it only after stating that intent “does have a role to
play in determining whether a filed document constitutes
a valid return.” See Mem. in Supp. of Resp’t’s Op. to the
Mots. for Recons. Filed by Pet’s and Intervenor at 6 n.3
(emphasis added).
The dissent argues that other Memorandum Opinions
of ours show that intent is required for “filing”, but these
are even less compelling than Berenbeim. The best for the
dissent is our Memorandum Opinion in Allnutt, where we
said: “[F]iling of a return is established by facts showing
proper delivery or mailing of a return with the intent to
file it as a return.” 84 T.C.M. at 675. But the Fourth Circuit
didn’t affirm us on that point -- instead, it “decline[d]

40a
Appendix D
to opine” whether the cases we cited in support of our
assertion actually added “an intent element to the listed
filing requirements in the Code.” Allnutt, 823 F.3d at 413
n.5. The Allnutt Memorandum Opinion therefore doesn’t
mean intent is a requirement of “filing”.
The dissent also cites Friedmann v. Commissioner,
82 T.C.M. 381, 386 (2001), aff’d without published opinion,
80 F. App’x 285 (3d Cir. 2003), where we held that a
taxpayer who gave copies of his returns to an IRS revenue
agent never “filed” them because he didn’t also send them
to the correct IRS office. In that Memorandum Opinion
we distinguished between the Beard test for whether a
document is a “return” and the issue of whether a return
is “filed”. See id. at 386. But after reaching our holding, we
made the statement the dissent cites: “Moreover, there is
nothing in the record to show that petitioner intended his
delivery of those documents to the agent * * * to constitute
the filing of his returns” -- and then we cited Berenbeim.
Id. at 387. That was dicta -- we’d already determined that
the returns hadn’t been “filed”. Id. at 386. That phrase also
repeated Berenbeim ‘s conflation of intent to file and intent
for a document to be a return -- which was not supported
by the circuit court opinions Berenbeim relied on. See id.
at 387. This dicta also doesn’t make intent part of “filing”.
The rest of the cases the dissent cites also fail to bolster
the Commissioner’s motion. In Espinoza v. Commissioner,
78 T.C. 412 (1982), the taxpayer initially filed fraudulent
returns, but later gave amended nonfraudulent returns to
the revenue agent. More than three years passed before
the Commissioner issued notices of deficiency. Id. at

41a
Appendix D
415. The taxpayer argued that the statute of limitations
period began when he gave the nonfraudulent returns
to the revenue agent, but we denied his motion for
summary judgment because the record didn’t show that
the returns ever made it to the correct IRS office. Id. at
415, 422. We pointed out that the taxpayer never paid the
tax his amended returns showed he owed, and then we
made the statement the dissent cites: “His failure to pay
the additional taxes raises a question as to whether he
intended for the amended returns to be filed.” Id. at 422.
This is also dicta and doesn’t make intent a requirement
for “filing”.
Finally, in Dingman v. Commissioner, 101 T.C.M.
1562, 1563 (2011), the taxpayer gave delinquent returns
and payments to the IRS Criminal Investigation Division
(CID), and the IRS cashed the checks and posted the
payments to Dingman’s transcripts. The Commissioner
argued that the returns weren’t “filed” because the
taxpayer hadn’t given them to the right part of the IRS.
Id. at 1566. We first pointed out that during the years at
issue there was no clear guidance on where taxpayers
were supposed to send their returns. Id. at 1568. Then,
citing Winnett and Allnutt, we said the fact that the IRS
processed the returns meant that CID must’ve forwarded
them to the right place, and we held that the returns were
“filed” no later than the date the IRS cashed the checks
and made the transcripts -- a holding that’s consistent with
our opinion in the Coffeys’ cases. See id. at 1570.
In Dingman the Commissioner cited Espinoza,
Friedmann, and our Memorandum Opinion in Allnutt,

42a
Appendix D
and said those cases “address the taxpayer’s intent to file
a return.” Id. at 1569. We dealt with the Commissioner’s
argument with the statement the dissent quotes: “The
record supports a conclusion that petitioner clearly
intended to file the returns when his counsel submitted
them to CID.” Id. This statement merely dismissed a
line of argument in a case where the IRS had clearly
processed the taxpayer’s returns -- it didn’t create an
intent requirement for filing.
The Code, regulations, and caselaw all show that a
taxpayer’s intent is not relevant to the question of whether
his return is “filed”. “On the other hand, it does have a
role to play in determining whether a filed document
constitutes a valid return.” Mem. in Supp. of Resp’t’s Op.
to the Mots. for Recons. Filed by Pet’s and Intervenor at 6
n.3 (emphasis added). Because this is the law we followed,
there was no substantial error.
II. Processing
The Commissioner also says we committed substantial
error by finding that “the undisputed facts show that the
IRS was able to stamp [the return] received, summarize
its contents in its Individual Master File, and open an
audit in due course.” Resp’t’s Mot. for Recons. at 6 (quoting
Coffey, 150 T.C. at __ (slip op. at 45)). He first says this was
error because he told us at oral argument that a computer,
rather than a human being, processed the information and
coded it as a USVI return. He also says that the computer
processed the documents “as cover-over documents and
not as federal income tax returns.” But we fail to see why

43a
Appendix D
it matters that a computer processed the information and
processed it a certain way -- the point is that the IRS had
the information and was able to process it. See Dingman,
101 T.C.M. at 1570.
Second, the Commissioner says that VIBIR, not the
IRS, stamped the top of the return “U.S. Claim.” Resp’t’s
Mot. for Recons. at 6. But when we said the IRS stamped
it, we weren’t talking about that stamp -- we were talking
about the one on the left-hand side of the first page of
the Coffeys’ return that says “RECEIVED 02082005
IRS - PHILA., PA.” See Coffey, 150 T.C. at __ (slip op. at
12-13, 45). In light of this evidence, it wasn’t error to find
that the IRS’s Philadelphia service center received the
Coffeys’ returns.
Respondent hasn’t show n that we committed
substantial error. It is therefore
ORDERED that Respondent’s February 28, 2018
motion for reconsideration is DENIED.
(Signed) Mark V. Holmes
Judge
Dated: Washington, D.C.
July 24, 2018

44a
Appendix
Appendix E —
orderEand decision
of the UNITED STATES TAX COURT,
FILED JULY 24, 2018
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 4949-10.
JAMES L. COFFEY,
Petitioner(s),
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
SERVED July 24 2018
ORDER AND DECISION
This case was previously consolidated with others that
had been on the Court’s November 14, 2011 trial calendar
for Buffalo, New York. In Coffey v. Commissioner, 150
T.C. _(Jan. 29, 2018), we held that the statute of limitations
barred the deficiencies the Commissioner determined.
We therefore dismissed the case for lack of jurisdiction.
We quickly realized our mistake, and amended our order
to clarify that as a result of our dismissal there was no
deficiency for 2003 and 2004, pursuant to I.R.C. § 7459(e).

45a
Appendix E
This was still not quite right in the Commissioner’s
view, and he has moved for us to vacate our order
dismissing the case and instead enter one granting the
Coffeys’ motion for summary judgment. He says that
would be the proper way to dispose of the case because
“the statute of limitations is an affirmative defense, not a
jurisdictional bar to suit resulting in a dismissal.”
The Commissioner is right. Our court gains jurisdiction
in a deficiency case when there’s a valid notice of deficiency
and a timely petition. I.R.C. §§ 6212(a), 6213(a), 7442; see
also, e.g., GAF Corp. & Subs. v. Commissioner, 114 T.C.
519, 521 (2000). I.R.C. § 6501(a) says the Commissioner
has only three years after a return is filed to assess tax,
and while a valid notice of deficiency tolls that threeyear period, see I.R.C. § 6503(a), a notice of deficiency
isn’t automatically invalid if the Commissioner sends it
after that period ends, see I.R.C. § 6212(a); Genesis Oil
& Gas, Ltd. v. Commissioner, 93 T.C. 562, 564 (1989). A
late notice therefore doesn’t affect our jurisdiction, but
the Commissioner also can’t assess the tax it shows when
a statute-of-limitations defense is properly raised. See
I.R.C. § 6501(a).
The Coffeys properly raised that defense here, and
don’t care how the case ends except for decisions that show
no deficiency. But to make the paperwork less sloppy, it is
ORDERED that respondent’s February 28, 2018
motion to vacate order of dismissal for lack of jurisdiction
as amended is granted. It is also

46a
Appendix E
ORDERED that the Court’s January 29, 2018 order
of dismissal and February 6, 2018 amended order of
dismissal are vacated. It is also
ORDERED that petitioners’ March 19, 2012 motion
for summary judgment is granted. It is also
ORDERED and DECIDED that there is no deficiency
in income tax, and no additions to tax, due from petitioner
for tax years 2003 and 2004.

(Signed) Mark V. Holmes
Judge

Entered: JUL 24 2018

47a
Appendix f — Appendix
opinionFof the united
states tax court, dated january 29, 2018
150 T.C. No. 4
United States Tax Court
Docket Nos. 30676-09, 31119-09, 4720-10, 4949-10
MELISSA COFFEY HULETT
a.k.a. MELISSA COFFEY, et al.,1
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
January 29, 2018, Filed
OPINION
HOLMES, Judge: Statute-of-limitations questions
posed by taxpayers who filed returns with only the
United States Virgins Islands (VI) are not new: This is
the fourth case in a sequence. In Appleton v. Comm’r,
140 T.C. 273 (2013), we held that a bona fide resident of
1. Cases of the following petitioners are consolidated: Emily
Coffey, docket No. 31119-09; Judith S. Coffey, Petitioner & The
Government of the United States Virgin Islands, Intervenor, docket
No. 4720-10; and James L. Coffey, docket No. 4949-10.

48a
Appendix F
the Virgin Islands had to file a federal return, but that
the return he filed with the Virgin Islands Bureau of
Internal Revenue (VIBIR) was that return. In Estate of
Sanders v. Commissioner, 144 T.C. 63 (2015), vacated and
remanded, 834 F.3d 1269 (11th Cir. 2016), we held that we
apply normal standards of residency when deciding who is
a bona fide VI resident. And in Cooper v. Commissioner,
T.C. Memo 2015-72, we held that a subjective good faith
belief that one is a bona fide resident is not itself proof of
bona fide residency. Here our focus shifts yet again. We
will assume that the taxpayer who filed with the VIBIR
is not a bona fide VI resident. But the VIBIR sent what
she filed--or at least a substantial part of what she filed-on to the IRS.
A nonresident of the VI with both U.S. and VI income
has to file with both the VIBIR and the IRS to satisfy her
obligation to file a return under the Internal Revenue
Code. But does the VIBIR’s sharing of information with
the IRS amount to the filing of a return?
Today we answer that question.
Background
We are asked to consider the Coffeys’ motions for
summary judgment. 2 We find no facts. The background
2. We consolidated docket numbers 30676-09, 31119-09, 472010, and 4949-10 for trial, briefing, and opinion. This opinion decides
summary-judgment motions in two of these cases. Only Judith Coffey
in docket number 4720-10, and James Coffey in docket number 494910, moved for summary judgment. When we refer to the “Coffeys”,
we refer only to them.

49a
Appendix F
information comes from the documents that are in the
record and facts that the Commissioner does not contest.
Judith and James Coffey have been married for over
35 years. They had a successful joint career in scholastic
publishing and in May 1985 incorporated Rainbow
Educational Concepts, Inc., an S corporation. Rainbow
Concepts is a publisher’s development company that
focuses on the editorial design and production of school
textbooks. It has an impressive list of big-name clients,
such as Houghton Mifflin, McGraw-Hill, and Scholastic.
Judith was the president of Rainbow Concepts until
2003, and James was and remains its vice president. It is
a profitable business. They reported nearly $1.5 million
of adjusted gross income on their 2003 joint income tax
return and another $1.4 million on their 2004 return. With
high income usually comes high taxes--at least sometimes.
The Coffeys first became aware of some of the
advantages of VI taxation in 2003. Chief among these
is the VI’s Economic Development Program (EDP). The
EDP’s purpose is to bring business to the VI, and to do so,
it offers very lucrative tax incentives to some taxpayers
who establish that they are bona fide VI residents. See
sec. 932;3 Huff v. Commissioner, 135 T.C. 222 (2010). This
is not a secret--Congress specifically allows the VI to
reduce taxes on “income derived from sources within the
3. All section references are to the Internal Revenue Code in
effect for the years at issue, and all Rule references are to the Tax
Court Rules of Practice and Procedure. The subject of these cases
requires citation of other titles of the United States Code, and we
give the full citation for those.

50a
Appendix F
Virgin Islands or income effectively connected with the
conduct of a trade or business within the Virgin Islands.”
Sec. 934(b)(1). The EDP provides substantial benefits to
participating companies: a 90% exemption from localincome taxation, a 90% exemption from dividend taxation,
and a 100% exemption from gross-receipts taxation. See
Huff, 135 T.C. at 227.
It didn’t take long for the IRS to notice these
incentives and to identify their potential for abuse. It made
adventurous taxpayers aware of its skepticism of the EDP
by issuing Notice 2004-45, 2004-2 C.B. 33. In this notice
the IRS described what it believed to be a typical scenario
where U.S. taxpayers improperly claim to be bona fide VI
residents to take advantage of the EDP when in reality
their situation hadn’t changed one bit. An example given
in the notice was of an employee of a company in the U.S.
who terminated his employment only to become a partner
in a VI partnership that provided the same services for
the company that the employee used to perform--same
job, but dressed up in consultant’s clothes.
The Coffeys spoke with some tax professionals and
decided to take advantage of the EDP in 2003. Judith
ended her relationship with REC and became a partner
in a VI partnership, IFW St. Croix Group, LLLP, later
becoming StoneTree Group, LLLP (StoneTree). The
Coffeys started looking for some property in October of
that year, and closed on a house in St. Croix in December.
They continued to own the house through at least 2010.

51a
Appendix F
The Coffeys bought two cars, Judith got a VI driver’s
license, and she became a VI registered voter (and voted
in its elections). Judith argues that she was a bona fide VI
resident starting in 2003 through at least 2006. To that
end, she believed that her filing obligations rested with
the VIBIR and not the IRS. While not claiming to be a
VI resident himself, James argues that he fell within the
language of section 932(d). This section says that if two
taxpayers file a joint return and the spouse who earns the
higher adjusted gross income for the year is a VI resident,
the spouse who isn’t will be treated as one. Id.
With her VI contacts and section 932(d) in hand, the
Coffeys filled out Forms 1040, U.S. Individual Income
Tax Return, for each tax year from 2003 through 2007.
As we explain in greater detail below, both VI residents
and VI nonresidents fill out the same Form 1040 familiar
to all Americans. On it they report their income and
deductions and compute their tax. That much is simple.
What has made these cases so complicated are questions
of allocation and of filing. VI nonresidents who have
income from inside the VI must include with their Forms
1040 a Form 8689, Allocation of Individual Income Tax
to the U.S. Virgin Islands, on which they figure out what
percentage of the total tax imposed by the Code they
owe to the VIBIR and what percentage they owe to the
IRS. Where to file is even more complicated, as some
VI residents have to file only with the VIBIR, some VI
residents and some VI nonresidents have to file with both
the VIBIR and the IRS, and some VI nonresidents have
to file only with the IRS.

52a
Appendix F
For the two years at issue on these motions, Judith’s
income came from StoneTree. StoneTree performed
services for Rainbow Concepts (and only Rainbow
Concepts because of a noncompete agreement) that
ranged from research and development, to management
and consulting. Rainbow Concepts paid Stonetree the
following fees in 2003 and 2004:
Year

Project
management

Sales commissions Consulting

2003

$545,693

$181,898

$447,500

2004

1,008,292

336,097

275,000

REC also paid StoneTree $600,000 in 2003 as consideration
for its agreement not to compete.
The amounts REC paid to StoneTree did not go
directly or entirely to Judith--StoneTree had other
partners and local employees. Judith received a Schedule
K-1 from StoneTree that reported her income as a partner
for each year. As the Coffeys took the position that Judith
was earning this income in the VI, they claimed an EDP
credit for 2003 and 2004. For 2003 their Form 1040 showed
a precredit tax due of more than $450,000, but after the
EDP credit a total tax liability of less than $100,000.4 The
power of the EDP was even greater for their tax year
2004, when their credit lowered their tax bill from nearly
$500,000 to less than $50,000.
4. They attached an EDP credit-calculation schedule to their
returns.

53a
Appendix F
The Coffeys’ Forms 1040 were complete and accepted
by the VIBIR. Judith and James, as well as their taxreturn preparer, each signed the returns. Their returns
were complex. Their 2003 return consisted of the two
pages of Form 1040, Schedules A, B, D, and E, as well as
Form 6251, Alternative Minimum Tax for Individuals,
Form 4562, Depreciation and Amortization, and Form
8801, Credit for Prior Year Minimum Tax. Their 2004
return consisted of the first two pages and Schedules
A, B, and E, as well as Form 4797, Sales of Business
Property, Form 6251, and Form 8801. There were also
some miscellaneous papers attached that explained some
calculations, as well as any W-2s they had. The VIBIR
stamped the 2003 return “received” on October 15, 2004,
and stamped the 2004 return “received” on October 24,
2005.
On each of their 2003 through 2006 tax returns, the
Coffeys listed their St. Croix address. They sent their
returns to the proper address for permanent residents of
the VI: the V.I. Bureau of Internal Revenue in Charlotte
Amalie on St. Thomas. The instructions on these returns,
along with IRS Publication 570, said that bona fide VI
residents need file only with the VIBIR and not the IRS.
The VIBIR received and processed their returns. 5
Although the Coffeys didn’t send anything directly to
the IRS, the VIBIR and the IRS share tax information
pursuant to the Tax Implementation Agreement (TIA),
5. Although they sent returns to the VI in 2005 and 2006, they
didn’t claim EDP credits for those years; and the IRS never proposed
any adjustments for them.

54a
Appendix F
U.S.-V.I. (Feb. 24, 1987), 1989-1 C.B. 347. Pursuant to the
TIA, the United States and the VI will share information
to administer and enforce their respective tax laws. Id.
art. 4(1), 1989-1 C.B. at 348. Also, the VI will supply
the United States with “copies of reports of individual
* * * audit changes that disclose information relevant to
the United States.” Id. art. 4(2)(b), 1989-1 C.B. at 348-49.
The TIA provides that the VIBIR will allow the IRS to
examine VI tax returns. Id. app. A, sec. 3.1, 1989-1 C.B.
at 352.
Section 7654(a) requires taxes collected by the IRS to
“be covered into the Treasury” of the VI when collected
from bona fide VI residents. When the VIBIR receives
a return from a bona fide VI resident who had taxes
withheld and remitted to the U.S. Treasury, the VIBIR
will send a copy of the return (or parts of the return) to
the IRS to ensure that those funds get sent to the VI.
This process is known as “covering over.” Before 2007,
the VIBIR would send the information to the IRS’s
Philadelphia service center. See Internal Revenue Manual
(IRM) pt. 21.8.1.6.4 (Oct. 1, 2010). In this case, the VIBIR
electronically sent photocopies of the first two pages of
the Coffeys’ Forms 1040 for the years at issue, along with
their W-2s (both U.S. W-2s and VI W-2s). It’s not clear
from the record if this was customary (as opposed to
sending the entire return, including the schedules), but we
know it’s not the first time the VIBIR has done this. See
Estate of Sanders, 144 T.C. at 69 (noting that the VIBIR
only forwarded the first two pages of the 2002 Form 1040
to the IRS); but see Appleton, 140 T.C. at 275 n.3 (noting
that the VIBIR forwarded the complete 2002-04 returns,
including schedules, to the IRS).

55a
Appendix F
The IRS service center in Philadelphia received
the transmission of the Coffeys’ 2003 and 2004 returns
and stamped them with document locator numbers.6 It
also stamped the 2003 return with a “postmark date”
of February 5, 2005, and a “received” date of February
8, 2005, but for an unknown reason waited until March
14, 2005, to enter the return as “received” in its records.
It entered the 2004 return in its records as received on
March 27, 2006.7 These markings on the returns are
important, and we reproduce the image of the 2003 Form
1040 here:

6. The IRS applies document locator numbers to documents for
administrative, recordkeeping, and tracking purposes. It also makes
retrieving the documents easier. See, e.g., McCall v. Commissioner,
T.C. Memo 2009-75; Ibeagwa v. IRS, 2015 U.S. Dist. LEXIS 78970,
2015 WL 3791538, at *2 (W.D. Wis. 2015).
7. The 2004 Form 1040 didn’t have stamps on it like the ones
the 2003 Form 1040 had.

56a
Appendix F

57a
Appendix F

58a
Appendix F
The IRS used these forms to create a “transcript of
account” for each year. 8 The IRS’s transcript of account
for the Coffeys’ 2003 tax year has a line that reads “return
due date or return received date (whichever is later).” The
date at the end of that line is “Oct. 15 2004”, which is the
date that the VIBIR stamped the Coffeys’ 2003 return
“received.” The transcript also lists a “processing date”
of March 14, 2005, the date the IRS says it received the
Coffeys’ tax forms in Philadelphia. The IRS’s transcript of
account for the Coffeys’ 2004 return lists October 24, 2005
--the date the VIBIR stamped as received the Coffeys’
2004 return--as the “return due date or return received
date” and shows March 27, 2006 as the “processing date.”
The IRS also seemingly extracted some information
from these forms beyond simply processing them as coverover documents. Its records reflect that the Coffeys were
joint filers for 2003 and 2004 and that they claimed two
exemptions. It showed withholding credits from non-VI
sources, and also initially recorded their adjusted gross
income as zero for both years.
These records are also important, and we reproduce
the image of the Coffeys’ 2003 transcript of account here:

8. A transcript of account contains account information from
the Commissioner’s master files and shows various actions the IRS
took with respect to a taxpayer in a given year. See Tornichio v.
Commissioner, T.C. Memo. 2002-291, 84 T.C.M. (CCH) 578, 581-82
(2002).

59a
Appendix F

Time passed and the IRS eventually picked the
Coffeys’ returns for audit. IRS records show that it
selected the Coffeys’ 2003 return in August 2005 and their
2004 return in May 2006. But the Commissioner took his
time and concluded the exams by issuing them a notice
of deficiency for both years only in September 2009. The
deficiencies and penalties for Judith Coffey were:

60a
Appendix F
Additions to Tax
Year Deficiency Sec. 6651(a)(1) Sec. 6651(a)(2) Sec. 6654
2003 $661,259.00 $143,835.53
$159,817.25
-02004 521,416.00

117,318.60

130,354.00

$14,942.27

And for James Coffey:
Additions to Tax
Year Deficiency Sec. 6651(a)(1) Sec. 6651(a)(2) Sec. 6654
2003 $229,304.00 $45,938.25
$51,042.50
-02004 139,905.00

30,408.53

33,787.25

$3,857.81

The Coffeys timely filed petitions to contest the
deficiencies. They resided in Arkansas at the time. The
VI intervened in the cases, and both it and the Coffeys
moved for summary judgment on the ground that the
Commissioner had blown the statute of limitations. We at
first denied the motion because we believed that a material
fact--whether the Coffeys were bona fide VI residents for
those years--was in dispute. A little over a month later
the Coffeys and the VI both moved for reconsideration.
They believed that we had overlooked an important legal
issue in our order.
They argued that we erred because they believe that a
subjective good faith belief that one is a bona fide resident
is what matters for the statute of limitations.9 The Coffeys
9. We note this argument but will not discuss it further because
we held in Cooper v. Commissioner, T.C. Memo 2015-72, *22, that

61a
Appendix F
also argued in their motion (and the VI adopted this
position at oral argument) that even if they were supposed
to file with both the VIBIR and the IRS, they met this
obligation because the VIBIR’s forwarding of information
to the IRS in Philadelphia amounted to their filing returns
there. These are serious arguments that we overlooked.
We granted the motions to reconsider and now proceed to
review the summary-judgment motions on their merits.
This means we must revisit those sound-easy-but-arereally-hard questions: What is a “return”, and what does
it mean to “file” it?
Discussion
I. 	Section 932, VI Taxation, and How We Got Here
The VI has been an unincorporated territory of the
United States since we bought it from Denmark in 1917,
but is generally not a part of the United States for federal
tax purposes. See Revised Organic Act of the Virgin
Islands, ch. 558, sec. 2, 68 Stat. 497 (codified as amended
at 48 U.S.C. sec. 1541(a) (2012)); sec. 7701(a)(9). Congress
instead established a “mirror tax system” for the VI.
This makes VI taxation very similar to U.S. taxation by
replacing “United States” with “Virgin Islands,” and vice
“[s]ection 932(c) does not provide that a taxpayer’s subjective belief
that he/she is a bona fide resident of the Virgin Islands is sufficient
to place him/her into that section’s single filing regime. More is
required.” The Eleventh Circuit recently adopted this view in
Commissioner v. Estate of Sanders, 834 F.3d 1269 (11th Cir. 2016),
rev’g and remanding 144 T.C. 63 (2015).

62a
Appendix F
versa, in the VI tax code. See 48 U.S.C. sec. 1397; see also
Danbury, Inc. v. Olive, 820 F.2d 618, 620, 23 V.I. 449 (3d
Cir. 1987).
For most of the twentieth century, taxpayers who
earned both U.S. - and VI - source income had to file
returns and pay taxes to both jurisdictions, in a way
similar to the filing of both federal and state income tax
returns. See Appleton, 140 T.C. at 278. This all changed
when Congress enacted section 932 of the Code as part
of the Tax Reform Act of 1986, Pub. L. No. 99-514, sec.
1274, 100 Stat. at 2596.10 Section 932 unifies the tax
obligation of those individuals--both bona fide residents
and nonresidents of the VI--with VI-source income. (The
rules are different for corporations. This opinion is not for
them.) The legislative history refers to this as a “U.S. tax
liability.” See S. Rept. No. 99-313, at 482 (1986), 1986-3
(Part 3) C.B. 1, 482. “[F]or purposes of determining the
tax liability of individuals who are citizens or residents of
the United States or the U.S. Virgin Islands, the United
States will be treated as including the Virgin Islands (for
purposes of determining U.S. tax liability) and, under
the Virgin Islands ‘mirror’ Code, the Virgin Islands will
be treated as including the United States (for purposes
of determining liability for the Virgin Islands tax).” Id.

10. Section 932 is not part of the mirror code and is thus not
present in the VI territorial tax system. Its purpose is to help
ensure a unified tax split between the VI and the U.S. Treasury
for those U.S. citizens who have VI-source income. See Appleton v.
Commissioner, 140 T.C. 273, 280 n.12 (2013).

63a
Appendix F
For nonresidents of the VI with VI income--the
situation that we must assume that the Coffeys are in for
these motions-tax liability to the Virgin Islands will be a
fraction of the individual’s U.S. tax liability
* * *. Such an individual will file identical
returns with the United States and the Virgin
Islands. The Virgin Islands’ portion of the
individual’s tax liability (if paid) will be credited
against his total U.S. tax liability. Taxes paid
to the Virgin Islands by the individual, other
than the Virgin Islands portion of his U.S. tax
liability, will be treated for U.S. tax purposes
in the same manner as State and local taxes.
Id. at 483, 1986-3 C.B. (part 3) at 483 (emphasis added).11
This concept of a single title 26 liability, split between
the IRS and the VIBIR, is found as well in the text of the
Code. Section 932(a)(2) imposes a filing requirement for VI
nonresidents with VI income and says such an individual
“shall file his income tax return for the taxable year
with both” the IRS and the VIBIR. Id. (emphasis added).
Section 932(b)(1) requires the payment of a portion “of
the taxes imposed by this chapter” to the VI. And section
7654 provides for the division between the federal and
territorial governments of “[t]he net collection of taxes
11. There is nothing in the briefs on these motions to suggest
that the VI has an additional territorial income tax that would be
the equivalent of a state income tax. Even if it did, it’s not relevant
to the outcome of these motions.

64a
Appendix F
imposed by chapter 1.” The familiar Form 1040 (or its
shorter versions) is how this liability is computed and
reported.
It’s only the place of filing that familiar return, and the
allocation of the “U.S. tax liability” that is so complicated.
Section 932 divides that single tax liability between the
federal and territorial governments. It does this by
distinguishing bona fide VI residents from U.S. residents
who earned some VIsource income. U.S. residents with
VI-source income must still file returns with both the IRS
and the VIBIR. Sec. 932(a)(2).12 A bona fide VI resident
need file a return only with the VIBIR if he meets the
requirements of section 932(c)(4):13
• is a bona fide VI resident;14
12. Individual taxpayers would file Forms 1040 with the IRS,
but they would not file Forms 1040 with the VIBIR. Rather, they send
the VIBIR a copy of the Form 1040 they send to the IRS together
with a Form 8689 (a form used to allocate and calculate income
attributable to the VI). See IRS Pub. 570 (2003).
13. Section 932 tells taxpayers they don’t have to file with the
IRS in quite a roundabout way--if they meet the requirements of
section 932(c)(4), their income is exempt from U.S. taxation. See
Appleton, 140 T.C. at 281. With all income exempt, a taxpayer doesn’t
have a filing obligation in the United States under section 6012.
14. The current version of section 932(c)(4)(A) says “a bona fide
resident of the Virgin Islands during the entire taxable year,” but
this wasn’t always true. In 1954 Congress established the “inhabitant
rule” that required filing only with the VIBIR for “permanent” VI
residents. The newly enacted section 932 in 1986 stated that the
taxpayer had to be a bona fide VI resident “at the close of the taxable

65a
Appendix F
• reports all income and its sources on the VI tax
return; and
• fully pays the tax liability shown on the VI return.
If the taxpayer fails any of these requirements, he falls
right back into the normal federal filing regime. See
Appleton, 140 T.C. at 281.
Although seemingly providing a benefit, section
932(c)’s rigid requirements are a stumbling block for
many because its plain language means a taxpayer has
to file a perfect return to get its protections. A taxpayer
who forgets he won $50 on a scratch-off ticket he got in
the mail technically fails section 932(c)(4)(B) if he doesn’t
report it. As the Coffeys and others have complained, this
rigidity might lead to a serious consequence--an unlimited
year.” Congress then changed this in October 2004 by striking that
language and replacing it with “during the entire taxable year.”
American Jobs Creation Act of 2004, Pub. L. No. 108-357, sec. 908(c)
(2), 118 Stat. at 1656. At the same time, it also added section 937 to
Code, which specifically defines bona fide residency as presence
in the VI for at least 183 days during the year without having a
tax home outside the VI or a “closer connection * * * to the United
States or a foreign country.” Id. sec. 908(a), 118 Stat. at 1655; sec.
937(a)(1) and (2). The years at issue here are 2003 and 2004, and the
definition of bona fide residency was different for each year. Before
the 2004 amendment, we’d look to the factors used in Vento v. Dir.
of V.I. Bureau of Internal Revenue, 715 F.3d 455, 58 V.I. 753 (3d
Cir. 2013) (citing Sochurek v. Commissioner, 300 F.2d 34 (7th Cir.
1962), rev’g and remanding 36 T.C. 131 (1961)), to determine bona
fide residency. We aren’t being asked to do that here because these
are the Coffeys’ summary-judgment motions and we have to assume
that they weren’t bona fide VI residents.

66a
Appendix F
statute of limitations for the IRS to assess any taxes from
years the taxpayer filed only with the VIBIR.15 Congress
seemingly recognized this problem and directed that the
secretary “shall prescribe such regulations as may be
necessary to carry out the provisions of * * * sections
931 and 932, * * * prescribing the information which the
individuals to whom such sections may apply shall furnish
to the Secretary.” Sec. 7654(e).
The Secretary didn’t get around to issuing regulations
under section 932 by the time the Coffeys had to figure out
their filing obligations for 2003 and 2004. The IRS finally
did release some guidance in 2007, with Notice 2007-19,
2007-1 C.B. 689. This notice divided bona fide VI residents
into two categories: those who earned $75,000 or more and
those who didn’t. If a bona fide VI resident earned less
than that magic number, his U.S. statute of limitations
under section 6501 would begin to run when he filed a
15. The sharp teeth of this perfect-return rule can be worn
down by other quirks of this system. We assumed in Appleton, for
example, that the taxpayers failed at least one part of section 932(c)
(4). Thus it put them back into the federal filing regime. But the
taxpayers in Appleton were bona fide VI residents. Using regulations
and other guidance available at the time the taxpayers filed their
return, we determined the appropriate place for them to file was
with the VIBIR. We therefore held the statute of limitations began
to run when they filed their returns with the VIBIR because, even
though they didn’t get the protections of section 932(c), their filing
obligations with the IRS said to file with the VIBIR, which is exactly
what they did. See Appleton, 140 T.C. at 287. The real threat of an
unlimited statute of limitations would have been realized if the IRS
had required bona fide VI residents who failed section 932(c)(4) to
file somewhere in the United States.

67a
Appendix F
return with the VIBIR. If a bona fide VI resident earned
$75,000 or more, he had to file with the VIBIR and send a
zero return (i.e., return reporting no gross income) to the
IRS office in Bensalem, Pennsylvania, with a statement
attached explaining his VI residency. Perhaps seeing the
arbitrariness of this distinction, the IRS issued Notice
2007-31, 2007-1 C.B. 971, less than two months later. This
notice got rid of the income distinction and created a hard
rule: If a taxpayer claimed to be a bona fide VI resident
and filed a return only with the VIBIR, this return would
start the section 6501 statute of limitations in the United
States. But this was the IRS’s position only for tax years
ending on or after December 31, 2006. For any years
before--including years from before that notice was even
issued--the IRS’s position was still that of Notice 2007-19
(i.e., if the taxpayer reported $75,000 or more of income,
he had to file a zero return with the IRS).
The Secretary finally issued regulations under section
932 in 2008. Sec. 1.932-1, Income Tax Regs.16 They pretty
much mirror the IRS’s position in the second 2007 notice:
For purposes of the U.S. statute of limitations
under section 6501(a), an income tax return
filed with the Virgin Islands by an individual
16. The Secretary did issue temporary regulations under
section 932 in 2005 that applied to tax years ending after October 22,
2004. See sec. 1.932-1T, Temporary Income Tax Regs., 70 Fed. Reg.
18931 (Apr. 11, 2005). These temporary regulations did not address
whether taxpayers taking the position that they were bona fide VI
residents would be deemed to have filed their U.S. tax return for
statute-of-limitations purposes.

68a
Appendix F
who takes the position that he or she is a bona
fide resident of the Virgin Islands * * * will be
deemed to be a U.S. income tax return, provided
that the United States and the Virgin Islands
have entered into an agreement for the routine
exchange of income tax information satisfying
the requirements of the Commissioner.
Sec. 1.932-1(c)(2)(ii), Income Tax Regs. Had this regulation
been in effect for the years at issue here, the Coffeys would
easily have won this case. Although the regulation does not
explicitly say how a taxpayer “takes the position” of being
a bona fide VI resident, the Commissioner admitted at
oral argument that “Mrs. Coffey [filed] a return claiming
to be * * * a bona fide resident of the [VI].” (Emphasis
added). But, as it is, the regulation didn’t exist in 2003 and
2004, and we’re left to find an answer in the caselaw using
analogical reasoning in the usual common-law fashion.
We’ll start by remembering Huff, 135 T.C. 222. The
taxpayer in Huff sent tax returns only to the VIBIR
for 2002-04, and the IRS eventually sent him a notice
of deficiency for those years in February 2009. The
IRS felt that he wasn’t a bona fide VI resident during
the years in question. Huff argued that the deficiencies
were VI tax matters and we lacked jurisdiction to hear
them because 48 U.S.C. section 1612(a) grants exclusive
jurisdiction to District Courts to hear VI tax matters. We
held that whether the taxpayer met all the requirements
of section 932(c)(4) was a federal-tax matter in which we
had jurisdiction. Id. at 230.

69a
Appendix F
We got great insight into determining if a taxpayer is
a bona fide VI resident with Vento v. Dir. of V.I. Bureau of
Internal Revenue, 715 F.3d 455, 58 V.I. 753 (3d Cir. 2013).
In Vento, the taxpayers realized large capital gains in
2001 when they sold their business and they sent returns
only to the VIBIR. Both the VIBIR and the IRS had
problems with the taxpayers, so they challenged these
two agencies in a district court in the VI. The court held
that the taxpayers weren’t VI residents and they quickly
appealed. The Third Circuit looked to an eleven-factor
analysis of residency from Sochurek v. Commissioner,
300 F.2d 34 (7th Cir. 1962), rev’g and remanding 36 T.C.
131 (1961), ultimately grouping the eleven factors into
four clusters:
• the taxpayer’s intent;
• the taxpayer’s physical presence;
• the taxpayer’s social, family, and professional
relationships; and
• the taxpayer’s own representations.
Id. at 467-68. After poking into these clusters, the court
reversed the District Court’s findings as to the Vento
parents, and held instead that they were bona fide VI
residents. Their daughters, on the other hand, were not.
A little over a month after Vento we decided Appleton,
140 T.C. at 273. In Appleton, the IRS agreed that the
taxpayer was a bona fide VI resident, but it still treated

70a
Appendix F
him as a nonfiler because it believed he didn’t meet all
of the requirements of section 932(c)(4). The taxpayer
filed a petition and a summary judgment motion with us,
in which he claimed that the Commissioner was barred
by the statute of limitations because the taxpayer filed
a return with the VIBIR and that’s all he was supposed
to do. Looking at the facts in the light most favorable to
the Commissioner, we held the undisputed facts didn’t
establish as a matter of law that the taxpayer met all of the
requirements of section 932(c)(4). That section therefore
didn’t provide any filing protection. We nevertheless
granted the taxpayer’s motion and held that the IRS
directed bona fide VI residents to file their returns with
the VIBIR, regardless of whether they met all the section
932(c)(4) requirements. Appleton met his filing obligations
because he was a bona fide VI resident and he sent his
returns exactly where the IRS told him to.
The taxpayer in Estate of Sanders, 144 T.C. 63, also
claimed to be a bona fide VI resident and also sent his
returns for 2002-04 only to the VIBIR. We held a trial
on the merits and, using the Vento factors, found that
the taxpayer was a bona fide VI resident. Given this, we
held that the taxpayer met his filing obligations. It wasn’t
necessary to determine if he met the other requirements
of section 932(c)(4) because, as we held in Appleton, the
IRS directed bona fide VI residents to send their returns
to the VIBIR.17
17. The Eleventh Circuit vacated our opinion, not on the
question of where the taxpayers had to file their returns, but only
for us to conduct further factfinding to decide whether the taxpayers
were bona fide VI residents. See Estate of Sanders, 834 F.3d at 1285.

71a
Appendix F
Finally, we come to Cooper, T.C. Memo. 2015-72. Yet
again we had taxpayers who claimed to be bona fide VI
residents in 2002 and 2003, and who had sent returns
only to the VIBIR. The taxpayers moved for summary
judgment because they felt the IRS issued the notices of
deficiency after the statute of limitations had run. As in
Estate of Sanders, the issue was whether the taxpayers
were bona fide VI residents. They argued that the only
thing that mattered was that they had a good-faith belief
they were when they sent in their returns. We concluded
that under section 932(c)(4), “[m]ore is required.” Cooper,
at P22. Although the ultimate issue in Cooper wasn’t the
same as here, we were quick to point out that we were
“deciding only the issue of petitioners’ residency. Even
though the IRS received portions of petitioners’ Forms
1040 that were filed with the VIBIR, we need not and
do not herein determine whether those documents are
‘returns’ filed with the IRS under sec. 6501. Resolution of
that issue is reserved for the future.” Id. at P8 n.5.
That future has arrived.
II. 	The Parties’ Arguments
The Coffeys urge us to focus our attention on an
issue that seems to be an entirely legal question--did the
information sent by the VIBIR to the IRS constitute a filed
return? The usual rules for summary judgment apply: We
may grant them summary judgment only if there is no
genuine dispute of any material fact and they are entitled
to judgment as a matter of law. See Rule 121(b); Sundstrand
Corp. v. Commissioner, 98 T.C. 518, 520 (1992), aff’d, 17

72a
Appendix F
F.3d 965 (7th Cir. 1994). The Commissioner cannot rest on
allegations or denials in his pleadings, but he must present
specific facts showing that there is a genuine issue for trial.
See Rule 121(d); Dahlstrom v. Commissioner, 85 T.C. 812,
821 (1985). The Coffeys, however, still bear the burden of
proving there is no genuine dispute of material fact, and
we read factual inferences in a manner most favorable to
the Commissioner. See Dahlstrom, 85 T.C. at 821.
The issue before us is entirely about section 6501(a)-the section that commands the Commissioner to assess a
tax if at all within three years from the date the taxpayer
files a return. It defines “return” in the most unhelpful of
ways: “[T]he return required to be filed by the taxpayer.”
Id. It also explicitly says there is an unlimited amount of
time to assess when the taxpayer fails to file a return.
Sec. 6501(c)(3). In examining section 6501 in Cooper, we
said “for a return to commence the running of the period
of limitations, the return must be (1) properly filed and
(2) the return required to be filed by the taxpayer.”
T.C. Memo. 2015-72, at P18. We will likewise follow that
approach today.
The Coffeys’ alternative argument, consistently with
these standards, lets us assume they weren’t bona fide VI
residents in 2003 and 2004. They argue nonetheless that
the VIBIR accepted their returns as sufficient to start
the statute of limitations. The Commissioner did not, but
the Coffeys argue that we should apply the test in Beard
v. Commissioner, 82 T.C. 766 (1984), and find that their
returns were filed with the IRS. After all, the right IRS
office got at least a portion of their returns and it even
selected them for audit based on this information.

73a
Appendix F
The Commissioner laughs at any suggestion that this
is a simple case and that the Coffeys filed a return with
the IRS. To begin with, he argues that the Coffeys filed
only territorial returns, not federal ones. He contended
during oral argument that any smart taxpayer would’ve
concurrently filed a zero return with the IRS, as the
agency directed years later in Notice 2007-19. He admitted
that the IRS had not actually provided this guidance when
the Coffeys had to fill out their returns.18 He also said that
even if the Coffeys had sent their entire return to the IRS
with an attachment clearly explaining their position that
they were VI residents, this wouldn’t have been enough
because their correct return should’ve been a zero return.
According to the Commissioner, less is more.
Notwithstanding what he believes the Coffeys should’ve
sent, the Commissioner also argues that what the IRS did
receive doesn’t amount to a filed return. He feels that the
two-pages-plus-W-2s simply lacked enough information
to be a valid return, and the lack of an original signature
also prevents it from being a return. We specifically note
that the Commissioner does not argue that we have a
third-party filing problem; i.e., that the return came from
the VIBIR rather than from the Coffeys directly. He has
since conceded that “[a] taxpayer’s subjective intent has
no role to play in determining whether a valid return has
18. Despite the Commissioner’s insistence that any reasonable
taxpayer would’ve known to file a protective return, he also insinuated
that perhaps only those with tax planners could understand, by
saying “I don’t expect Mrs. Coffey to get it, but I do expect the tax
planner to get it.”

74a
Appendix F
been filed.”19 In other words, the Commissioner focuses
entirely on the “return” argument and not on the “filed”
issue. With this concession, we can treat the Coffeys’
filing of their returns as analogous to the situation in
Winnett v. Commissioner, 96 T.C. 802, 808 (1991), where
the taxpayers sent their return to the wrong IRS service
center. When this service center discovered the error, it
forwarded the return to the correct one. We held that the
return was filed on the date the correct service center
received it. As in Winnett, the correct revenue office did
eventually receive the documents in question here. The
IRS Philadelphia office made clear markings on the Forms
1040 it received, such as stamping its own document ID
numbers on them.
Here, the Coffeys intended to file a return under
section 932(c) by sending it to the VIBIR. They might have
been wrong about where to send it, but they intended to
file a return as American citizens. Just as in Winnett, they
sent it to the wrong place but at least parts of it ended up
in the right place.
But were the documents that the IRS actually received
the Coffeys’ “returns”?

19. The Commissioner does believe, however, that a taxpayer’s
subjective intent “does have a role to play in determining whether
a filed document constitutes a valid return.” The Commissioner
specifically said that “We’re not challenging Exhibits 2-P and 3-P
[sic], the returns that she filed with the VIBIR. We’re not saying
those are not valid returns.”

75a
Appendix F
III. What’s a Return?
Despite the many complexities of the Code and
regulations, we are left without a definition of “return”.
And perhaps that’s exactly the way it should be. After
all, as the Commissioner himself acknowledged during
oral argument, it is the taxpayer and not the return
that is audited. This leaves us with the discretion to
make the definition of return fit the context, and to be
practical about it. “The purpose is not alone to get tax
information in some form but also to get it with such
uniformity, completeness, and arrangement that the
physical task of handling and verifying returns may be
readily accomplished.” Commissioner v. Lane-Wells Co.,
321 U.S. 219, 223, 64 S. Ct. 511, 88 L. Ed. 684, 1944-1 C.B.
539 (1944) (emphasis added).
To determine if the information the IRS received
from the VIBIR was a “return”, both parties point us
to the multifactor test we laid out in Beard, 82 T.C. 766.
Beard has become the go-to case to answer this question,
and we’ll likewise apply the Beard test today. But we do
note that this case is a shining example of why Beard’s
definition ought to be applied with some consideration of
the context of a particular case. Beard tells us that, for
a document to be a “return” for statute-of-limitations
purposes, it must:
• contain “sufficient data to calculate tax liability,”
• “purport to be a return,”

76a
Appendix F
• “be an honest and reasonable attempt to satisfy the
requirements of the tax law,” and
• be executed under penalties of perjury.
Id. at 777. We’ll look at each factor in turn.
A.

Sufficiency of the Data

This is perhaps the main disagreement between
the parties. The Coffeys argue that the IRS got enough
information from the VIBIR. They also argue that the
IRS could’ve requested any missing information from
the VIBIR pursuant to the TIA. The Commissioner
believes that the forms the IRS received “do not disclose
information in such a way that [the returns] could be
readily verified”; there was too much information missing.
We’ll break this down into three parts:
• Does it matter that the IRS could have asked VIBIR
for the information?
• Is there a distinction between a return that is valid
and one that is verifiable? and
• Does it matter to these returns’ validity that so
many schedules were missing?
1.

Asking for the Missing Information

We first discuss the Coffeys’ point that the IRS
could’ve asked for any missing information. This cannot

77a
Appendix F
be doubted--the information-sharing agreement says so.
The Coffeys therefore think that Holmes v. Dir. of Dep’t of
Revenue and Tax’n, Gov’t of Guam, 937 F.2d 481 (9th Cir.
1991), is directly on point. In Holmes, Guam disallowed a
deduction on the Guamanian tax return of an individual
who owned an S corporation in the Commonwealth of the
Northern Mariana Islands (CNMI). Guam disallowed the
deduction more than three years after the individual filed
his return. After first deciding that Guam recognized S
corporations in general, see Holmes v. Dir. of Revenue
and Tax’n, Gov’t of Guam, 827 F.2d 1243 (9th Cir. 1987),
the court held that Guam was too late to the challenge.
It reasoned that Guam was certainly on notice of the
taxpayer’s intent to take the deduction. It also said:
As for future cases, no showing has been made
that the CNMI Department of Finance refuses
to release any information requested by the
Guam Department of Revenue; in fact, the two
jurisdictions agreed in 1984 to share relevant
tax return information. Thus, absent some
unusual circumstance, the Department may
obtain informational returns filed by CNMI
corporations simply by asking, and will be notified
of any potential problems merely by scanning its
individual returns for S corporation income or
deductions. If it fails to request such information
or neglects to act on the information it does have
within the allotted time, without obtaining a
waiver, its rights will expire, as would the rights
of its counterpart on the mainland, the I.R.S.
Holmes, 937 F.2d at 484-85 (emphasis added).

78a
Appendix F
We think Holmes is helpful, but not directly on
point. The threshold question here is whether there was
a return at all. In Holmes, Guam received the required
return from its taxpayer, and that was never in dispute.
The information Guam wanted was going to be helpful in
auditing that taxpayer. There’s certainly nothing in the
opinion to support that that information was something
the taxpayer was required to attach to his return. We also
think it important to point out that the Ninth Circuit did
not say that a document that otherwise would not have
been a return became one because Guam could’ve asked
for and received the missing information from another
sovereign. We’ve already held that the IRS is under no
obligation to inform taxpayers of defects in their filings
that prevent them from being returns, even if the IRS
easily could--or even normally does. See, e.g., Doll v.
Commissioner, T.C. Memo. 1965-191 (IRS did not inform
the taxpayer that he forgot to sign the return), aff’d, 358
F.2d 713 (3d Cir. 1966).
We therefore do not hold that the information-sharing
agreement between the VIBIR and the IRS means that we
have to pretend that all the information that the VIBIR
has is also information that the IRS has. But that’s not the
end of the analysis because the IRS actually got a chunk
of the return that the Coffeys sent to the VIBIR. We have
to ask, then, whether that chunk was itself a “return”. And
that means asking how incomplete a return can be before
it’s not a “return” at all.

79a
Appendix F
2.

Validity v. Verifiability

Remember that the Commissioner said his objection
to the Coffeys’ assertion that what he actually had in
hand was a return was that what he got did “not disclose
information in such a way that [the returns] could be
readily verified.”
But is that a part of the test?
The Code itself suggests that it is not. Section 6611(g)
is an obscure provision about interest on taxes, and
specifically the interest that the Commissioner owes to
taxpayers who overpay their tax. It governs a certain
kind of situation where there’s been a filed return but
it’s incomplete. It says that--for the purpose of getting
interest on an overpayment--”a return shall not be treated
as filed until it is filed in processible form.” Sec. 6611(g)(1).
And a return is processible if it is filed on a “permitted
form” and contains “sufficient required information
(whether on the return or on required attachments)
to permit the mathematical verification of tax liability
shown on the return.” Sec. 6611(g)(2)(B)(ii). Verifiability
is important here, but it doesn’t affect a return’s validity;
it affects a return’s processibility.
There is no final regulation that addresses this
situation, but there is a proposed regulation 20 that sensibly
20. Proposed regulations are entitled to deference under
Skidmore v. Swift & Co., 323 U.S. 134, 140, 65 S. Ct. 161, 89 L. Ed.

80a
Appendix F
says a return includes the “components” of a return, and
then defines components to include the various schedules
that taxpayers are instructed to attach to their returns.
See sec. 301.6611-1(h)(2), Proposed Proced. & Admin.
Regs., 49 Fed. Reg. 39570 (Oct. 9, 1984). But section
6611(g)(2)(B)(ii) also says that missing information affects
the processibility of a return only if its absence prevents
“the mathematical verification of the tax liability as shown
on the return.”
This means that a return can be valid even if it does
not allow for verification. The caselaw gives us a good
example: Deutsche Bank filed its 1999 income tax return
on time, but it didn’t attach Form 1120F, Form 8805, or
Form 1042-S. (These are uncommon forms -- what matters
is that there were three of them and none was attached
to the return.) The bank had overpaid its tax that year
and wanted interest. But the defense of the government
was not that the return was not filed, but that it was not
complete enough to be mathematically verified. Even
then, the Federal Circuit reasoned, “A return without a
required attachment may nonetheless be processible when
the information contained on that missing attachment
is readily available elsewhere in the return or when the
information is irrelevant to mathematical verification.”
Deutsche Bank AG v. United States, 742 F.3d 1378, 1383
(Fed. Cir. 2014).
The Commissioner’s own IRM draws the same
distinction: “Both a valid return and a processable return
124 (1944), which means we defer to them if they persuade us.

81a
Appendix F
must have sufficient data to calculate the tax liability
shown on the return, but processability also takes into
account the Service’s processing tasks . . . . For example,
a return will be valid even though it is missing Form W-2
or Schedule D, but it will not be processable because the
calculations are not verifiable.” IRM pt. 25.6.1.6.16(2) (Oct.
1, 2010). We can thus define three species in the return
menagerie;
• valid returns that start the statute of limitations
running because they have enough information to
calculate a tax liability;
• processible returns that start the statute of
limitations and trigger the IRS’s obligation to pay
interest because they are complete enough to allow
mathematical verification, and
• perfect returns with no missing information at all.
What did the IRS have here?
3. 	Effect of the Missing Schedules Here
There are cases to help us apply this taxonomy. It is
settled, for example, that a purported return need not be
perfect to be a valid return. See Zellerbach Paper Co. v.
Helvering, 293 U.S. 172, 180, 55 S. Ct. 127, 79 L. Ed. 264,
1934-2 C.B. 341 (1934) (“Perfect accuracy or completeness
is not necessary to rescue a return from nullity * * *.
This is so though at the time of filing the omissions or
inaccuracies are such as to make amendment necessary”).
Even a return filled with lies can be a return. The Supreme

82a
Appendix F
Court held in Badaracco v. Commissioner, 464 U.S. 386,
104 S. Ct. 756, 78 L. Ed. 2d 549 (1984), that a taxpayer’s
original and fraudulent returns were still “returns”. The
Court reasoned that the fraudulent returns “purported
to be returns, were sworn to as such, and appeared on
their faces to constitute endeavors to satisfy the law.” Id.
at 397. Rather than not including information, fraudulent
returns purposefully include wrong information. They are
nonetheless returns.
What we have here, though, is not imperfection
or fraud, but missing schedules. We and the IRS have
overlooked missing schedules in the past. In Blount v.
Commissioner, 86 T.C. 383 (1986), we held that even
though the taxpayer failed to attach his W-2 to his return
(an error he later corrected), the statute of limitations
began to run from the date he filed the return. We applied
the Beard test and concluded that “[t]he omission of a
Form W-2 does not prevent the calculation of tax liability.”
Id. at 387. On another occasion, the IRS expressed its view
that an otherwise complete return that was missing its
Schedule A was nonetheless sufficient to start the statute
of limitations as a “return”. SCA 200010046 (Jan. 12,
2000). “While a return may lack supporting schedules for
particular items of gross income, deductions, and credits,
it will generally provide sufficient data to calculate a tax
liability. The fact that the tax liability computed on the
original return is later determined to be incorrect does
not necessarily cause the return to fail the substantial
compliance standard.” Id. (emphasis added). 21
21. A lthough chief counsel memoranda (CCMs) are not
precedential, they do provide “an expression of agency policy” and

83a
Appendix F
And in McCaskill v. Commissioner, 77 T.C. 689, 698
(1981), there was a missing Schedule C, but though “[w]e
agre[ed] with respondent that petitioners have failed to
indicate the nature and source of their income * * * we
[did] not agree that they thereby failed to file a return.”
Of course the document here is missing not just a
Schedule A or a Schedule C, but all the schedules that
the Coffeys had attached to their returns as filed in the
Virgin Islands -- all except their W-2s.
We’re left to decide when so little is enough, and
we think this is a holding that must reflect the facts of
each case. Blount tells us to focus on what is necessary
to “[calculate the] tax liability.” 86 T.C. at 387. Of
particular importance to us was that “the returns as
filed contain[ed] sufficient information for respondent to
make a computation of petitioners’ income tax liability.”
McCaskill, 77 T.C. at 698. We distinguished such a return
from others that “[contained] no information in the blanks
provided for the taxpayer’s income and deductions.” Id.
In Morgan v. Commissioner, 807 F.2d 81, 83 (6th Cir.
1986), aff’g T.C. Memo. 1984-384, the Sixth Circuit held,
in affirming our opinion that a return that was mostly
blank except for claims of the Fifth Amendment privilege
was not a valid return, that “[t]o constitute a valid return,
can be a helpful interpretative tool. Dover Corp. v. Comm’r, 122 T.C.
324, 341 n.11 (2004) (quoting Taxation With Representation Fund
v. IRS, 646 F.2d 666, 682, 207 U.S. App. D.C. 331 (D.C. Cir. 1981));
see also Tupper v. United States, 134 F.3d 444, 448 (1st Cir. 1998);
Container Corp. v. Comm’r, 134 T.C. 122, 133 n.12 (2010) (citing
Morganbesser v. United States, 984 F.2d 560, 563 (2d Cir. 1993)).

84a
Appendix F
Form 1040 must reflect a reasonable disclosure of gross
income, deductions, and resulting net taxable income.”
The focus in all these cases was on whether the
information that the IRS had enabled it to compute
taxable income--maybe not all the information it needed
to compute the correct taxable income much less
“mathematically verify it”--but enough, as we said in
Beard, that the Commissioner did not have to handle
it by special procedures and withdraw it from normal
processing channels. Beard, 82 T.C. at 777. What do the
undisputed facts here show? They show first of all that
the IRS had enough to create a transcript of account
--albeit one with zeros on almost all the lines. This is
telling because, one should recall, the IRS’s answer to
the question at oral argument of what the Coffeys should
have filed if they weren’t sure they were residents was that
they should have filed a return with all zeros. At the time
the Coffeys actually filed their returns with the VIBIR
this wasn’t the official word of the IRS--rather at oral
argument, IRS counsel stated that the protective zero
return was “[his] little baby.” But not too long afterward,
the IRS did issue Notice 2007-19, 2007-1 C.B. 689, which
also said taxpayers in the Coffeys’ position should file
zero returns.
And what the IRS actually got had more information
than any zero return. It showed the first two pages of the
Coffeys’ Forms 1040. The forms the IRS received reported
the Coffeys’ gross income, deductions, and credits. Even
if the IRS was going to deny the EDP credit reflected on
page 2, the forms still disclosed “gross income, deductions,

85a
Appendix F
and resulting net taxable income.” Morgan, 807 F.2d
at 83. Missing schedules certainly may draw the eye
of the IRS, but they don’t prevent the computation of a
taxpayer’s liability--unlike the forms in Morgan, where
the taxpayer failed to give the basic information needed
for the IRS to even calculate a tax liability. In cases like
Morgan and Beard the forms weren’t returns because
the taxpayers altered them and refused to include their
basic gross income, deductions, and credits. That is not the
case here. The forms sent by the VIBIR reported these
income, deduction, and credit figures. And what did the
IRS do with these? It created transcripts of account that
showed all zeros--exactly what would have happened if
the Coffeys had sent in the zero returns that the IRS now
says they should have sent.
We find that they meet this factor of the Beard test.
B. What the Documents Purport To Be
The Forms 1040 that the VIBIR sent to the IRS
also meet the second factor here. The IRS argues that
these forms don’t purport to be a return because they
were territorial, rather than federal, returns. We are not
persuaded. The Forms 1040 that people send to the VIBIR
are identical in every respect to the Forms 1040 the IRS
wants, made especially apparent with “Department of the
Treasury--Internal Revenue Service” visible on the top of
page 1. The attachments may be different, and some forms
are unique to VI filers, as are some credits. But section
932 makes the filing of VI returns part of one’s federalfiling obligation, which means the Code doesn’t draw a

86a
Appendix F
distinction between “territorial” and “federal” returns
but between territorial and federal filing obligations--not
as much what Form 1040 is filed but where. 22
This point is buttressed by what happens in criminal
tax law. A taxpayer who files a fraudulent return with the
VIBIR is not charged with violating territorial law. He
is instead, like anyone who commits a tax crime on the
mainland, charged with filing a fraudulent federal return.
Here’s typical language from an indictment:
a resident of the Virgin Islands, did willfully
cause and aid and assist in, and procure, counsel,
and advise the preparation and presentation to
the Virgin Islands Bureau of Internal Revenue,
of an Individual Income Tax Return, Form
1040, of Rodney E. Miller for the calendar year
2006, which was filed with the Virgin Islands
pursuant to the Internal Revenue Code, Title
26 of the United States Code, section 932(c)(4),
and was false and fraudulent as to a material
22. One could argue that the Coffeys’ federal-filing obligation
might, under the assumptions we make at the summary-judgment
stage, be discharged only by a return with enough information to
compute the tax liability they would owe if in fact they turn out
not to be bona fide VI residents. Our assumption in favor of the
Commissioner on this motion, i.e., that the Coffeys were not bona fide
VI residents, extends only to their obligation to file with the IRS, not
that what was filed has to reflect a return position that they are not
bona fide VI residents. The purpose of this part of the Beard test is,
again, a practical one--did what the IRS receive disclose enough to
compute the Coffeys’ tax liability? It needn’t be enough to compute
that liability accurately.

87a
Appendix F
matter * * * [i]n violation of Title 26, United
States Code, Section 7206(2).
United States v. Miller, Criminal No. 2013-07, Indictment
at 1 (D.V.I. Apr. 4, 2013), ECF No. 1; see also United
States v. Auffenberg, Criminal No. 2007-0047-F/B, Second
Superseding Indictment at 1-8 (Mar. 18, 2008), ECF No.
295 (charging defendants with conspiracy to defraud the
United States under 18 U.S.C. sec. 371 by fraudulently
claiming EDC credits in the Virgin Islands).
The IRS wants returns on the forms it prescribes, and
it got that form--at least a good part of it--here. There is
no question that the IRS was clueless about how to handle
what it got--but the undisputed facts show that the IRS
was able to stamp it received, summarize its contents
in its Individual Master File, and open an audit in due
course; it just didn’t issue the notices of deficiency before
the statute of limitations ran out.
C.

Honest and Reasonable Attempt To Satisfy the
Requirements

We believe the third factor is also met here. The
Commissioner makes an interesting argument why it can’t
be: He says that if the Coffeys truly believed they did not
have any taxable income in the United States, how can a
form that reports lots of income, deductions, and credits be
their honest attempt to satisfy the requirements of federal
tax law? He believes that “[t]he only return [the Coffeys]
could file with [the IRS] that is not inconsistent with [their
position] would be a protective all zero return.” Here

88a
Appendix F
the Commissioner bases his argument on the Coffeys’
subjective beliefs about their obligations. Let’s assume
that they truly believed that they didn’t need to report
anything to the IRS. We don’t think their state of mind
is material to whether the information that ended up at
the IRS is a “return”. We judge the reasonableness of an
attempted return by its face. Colsen v. United States (In re
Colsen), 446 F.3d 836, 840 (8th Cir. 2006) (“[T]he honesty
and genuineness of the filer’s attempt to satisfy the tax
laws should be determined from the face of the form itself
* * *. The filer’s subjective intent is irrelevant.”) Such a
rule makes sense given the Supreme Court’s decision in
Badaracco. A fraudulent return, which by definition is
not an honest attempt to accurately report income and
deductions, was still a “return” because it looked like a
genuine return. If the Court was concerned about the
subjective beliefs of the taxpayer, then the return in
Badaracco could not be a return.
The precedents that tell us to look at the face of a
purported return to decide if it is a return make sense
here. The IRS is a mass-processing organization, and
we’d hesitate to resolve any ambiguity in the meaning of
“return” that would place any burden on an IRS intake
clerk of having to contemplate anything this complicated
about the state of mind of an unknown taxpayer. See, e.g.,
Andre v. Commissioner, 127 T.C. 68, 74 (2006) (noting
“the human limits of the IRS in processing as efficiently
as possible the correspondence that it receives from a
multitude of taxpayers”). The point of this part of the
Beard test is to distinguish tax protester returns such as
zero returns, see, e.g., Cabirac v. Comm’r, 120 T.C. 163,

89a
Appendix F
169 (2003), aff’d, 94 A.F.T.R.2d (RIA) 2004-5490 (3rd Cir.
2004), and Fifth Amendment returns, see, e.g., Daly v.
United States, 393 F.2d 873, 878 (8th Cir. 1968)--returns
that on their face show a lack of any honest and reasonable
attempt to satisfy the law--from returns that on their face
show an attempt to properly report income and deductions.
Looking at what the IRS got here, we see an objective
attempt to report income and deductions. The return is
nothing like the typical protester returns we’ve seen but
instead includes a breakdown of the Coffeys’ income,
deductions, exemptions, and credits. The documents
include the EDP credit, which doesn’t exist in the United
States, but even if the Coffeys turn out not to be entitled
to it, that makes the item erroneous, not the form itself
objectively unreasonable. The Supreme Court tells
us a return need not be perfect to start the statute of
limitations. Zellerbach, 293 U.S. at 180; see also Sakkis
v. Commissioner, T.C. Memo 2010-256 (finding return
valid despite frivolous deduction reducing liability to
zero); Steines v. Commissioner, T.C. Memo. 1991-588
(finding a return with a frivolous $100 billion business
loss a “return” because it enabled tax computation), aff’d
without published opinion, 12 F.3d 1101 (7th Cir. 1993).
We also note the Commissioner’s argument contradicts
his assertion that the Coffeys would’ve received the
protections of the statute had they filed a zero return for
the purposes of this motion. At oral argument counsel for
the Commissioner said that the Coffeys ran the risk of
being wrong about being VI residents and that they should
have filed protective returns with the Philadelphia office.

90a
Appendix F
When we asked him what exactly they were supposed to
send to Philadelphia, he said “[W]hatever [they want] to
file. We’re talking about a protective return.” If the Coffeys
are indeed not VI residents, it means they are supposed
to send a completed return to the IRS. Nonetheless, the
Commissioner argues that a return with all zeros would
be sufficient to start the statute of limitations in such a
situation. But if the Coffeys were required to send a return
to the IRS that showed a reasonable attempt to reflect
their true income and deductions, how could a return with
all zeros constitute such an attempt? It seems to us that
a form reporting all the Coffeys’ income and deductions,
even if it included an erroneous credit on its face, is a much
more reasonable attempt to satisfy their obligations than
one containing all zeros.
D. 	Documents Executed Under Penalties of
Perjury
The fourth factor is a bit complicated. The Code
requires a taxpayer to sign his return under penalty of
perjury. Secs. 6061, 6065. The parties do not appear to
dispute that the Coffeys signed the forms before sending
them to the VIBIR. But the Commissioner argues
that the forms the IRS received had to have original
signatures (i.e., wet-ink signatures). If that’s true, then
these documents must not be returns because the VIBIR
transmitted them to the IRS electronically, which means
the entire return was scanned, including the signatures.
The Coffeys argue that the signature requirement falls
under Zellerbach’s conclusion that a return need not be
perfect to start the statute of limitations. They also point
out that the IRS routinely accepts nonoriginal signatures.

91a
Appendix F
We agree with the Commissioner that Congress
granted the IRS great leeway in prescribing the signature
method. See sec. 6061(a) (“any return * * * required to
be made under any provision of the internal revenue
laws or regulations shall be signed in accordance with
forms or regulations prescribed by the Secretary”). The
Commissioner tells us it has been his longstanding custom
that an original signature is required. See, e.g., Berenbeim
v. Commissioner, T.C. Memo. 1992-272 (“It is generally
the practice of the Internal Revenue Service Centers,
however, not to file a return unless it has an original
signature.”) He even points us to a sentence in one of our
own opinions where we said that “[a] return is valid only
if it is verified under penalty of perjury by an original
signature and filed in the appropriate office.” Turco v.
Commissioner, T.C. Memo. 1997-564. Nonetheless, we are
unable to find anything in the Code or regulations that
explicitly calls for an “original” signature. 23 The Code and
regulations instead require only that the taxpayer “shall
sign” the return. Sec. 1.6061-1(a), Income Tax Regs.
As the Coffeys point out, the IRS does accept returns
without original signatures. In Rev. Rul. 68-500, 1968-2
C.B. 575, the IRS concluded that it would accept Forms
1041 and Forms 1040NR with facsimile signatures. This
ruling admittedly required that the fiduciary or agent
could make such a signature only if he sent the IRS a letter
with an original signature that listed all of the returns
being signed via facsimile. Id. And the ruling required that
23. The Commissioner couldn’t find anything either, admitting
he too “[doesn’t] know the answer.”

92a
Appendix F
the facsimile signature be affixed after any photocopying.
Id. Nonetheless, we find it notable that the ruling said that
“[a] reasonable construction of the regulations permits
some flexibility with respect to the method of affixing
signatures to income tax returns.” Id., 1968-2 C.B. at 576.24
Despite the Commissioner’s insistence that he has
complete discretion in prescribing the manner of signing,
this isn’t entirely correct. We have on a number of occasions
found a joint return to be valid despite the missing
signature of one spouse. See, e.g., Estate of Campbell v.
Commissioner, 56 T.C. 1 (1971); Strong v. Commissioner,
T.C. Memo 2001-103. These decisions stand despite the
Commissioner’s continued insistence that they’re wrong
because the regulations require both spouses to sign. See
sec. 1.6013-1(a)(2), Income Tax Regs.; G.C.M. 38440 (July
11, 1980) (noting that, despite our opinions to the contrary,
the IRS “believe[s] the omission of one signature on a
submitted joint return should render the return invalid
and be treated the same as single unsigned returns”).
24. This is consistent with the Commissioner’s position at oral
argument. When we asked him if the IRS has the authority to change
the Code, he adamantly said “no * * * the Code is the Code.” If the
IRS is willing to accept some returns without original signatures and
it doesn’t have the power to change the Code, then that means the
Code doesn’t always require an original signature. Neither the Code
nor the regulations define “sign”, and despite the Commissioner’s
belief that an original signature is required, we see no reason to
find that “sign” means one thing in the Code and another in the
regulations. When we asked the Commissioner’s counsel why he
accepts facsimile signatures under some circumstances, he honestly
answered “I don’t know.”

93a
Appendix F
We’ve also overlooked a lack of a signature outside the
world of joint returns. In Gen. Mfg. Corp. v. Commissioner,
44 T.C. 513 (1965), a parent and a subsidiary filed
a consolidated return. The president of the parent
corporation signed the return and affixed the parent
corporation’s seal to it. Id. at 517. The subsidiary never
filed its own corporate return, and the IRS eventually
sent it a notice of deficiency. Id. at 518. The subsidiary
argued that it didn’t need to file a separate return because
the parent filed a consolidated one, and it argued in the
alternative that the consolidated return constituted its
individual return and the notice of deficiency was sent
too late. Id. at 520, 522. The Commissioner argued that
the subsidiary corporation didn’t sign the consolidated
return, thus making it a nullity for income tax purposes.
Id. at 523. We disagreed. Although we did find that the
consolidated return was invalid, we held that the form did
constitute the subsidiary’s individual return. Id. at 522.
We noted that according to Zellerbach a return need not
be perfect, and the return in question was in substantial
compliance with the requirements of a return. Id. at 523.
The complete lack of the subsidiary’s signature (seemingly
worse than a copied one) did not prevent the statute of
limitations from starting to run. We placed particular
emphasis on the fact that the filing gave the IRS enough
information about the subsidiary to examine the return,
and concluded that the “notice could have been issued prior
to” the end of the three-year period. Id. at 524.
Signatures have two important functions in the legal
world. They give something legal effect and they provide
means of authentication. See 1-1 Arthur Linton Corbin,

94a
Appendix F
Corbin on Contracts, sec. 1.12, at 32 (2015); 1-2 Arthur
Linton Corbin, Corbin on Contracts, sec. 2.10, at 162
(2015). Signing a tax return gives it legal effect because
it’s a way of saying that “this is my tax return and I really
mean it.” In other words, it distinguishes it from other
tax returns one might’ve filled out but later edited. The
signature helps with authentication in case the IRS ever
needs to question the taxpayer about the return. Making
sure it’s really his tax return is a good way to start.
As discussed above, the IRS does at least sometimes
allow nonoriginal signatures. In each of these situations,
“the Service was careful to require authenticating
safeguards to ensure that the alternative signature was
reliable.” Program Manager Technical Advice (PMTA)
00389 (Aug. 1, 2000). We can see safeguards at work in
those cases where we looked past a problem with the
signature. In the missing-signature-of-the-spouse cases,
the signing spouse is there to assure us the spouse really
meant to join the return. In Gen. Mfg., even though the
subsidiary didn’t sign the return, its parent signed it
and even affixed the corporate seal. There are strong
safeguards here too. The IRS didn’t receive the Forms
1040 from just anyone. It received them from the VIBIR,
the official revenue agency of a U.S. possession and one
with which the IRS has a longstanding informationsharing agreement. It’s undisputed that the VIBIR
accepted the Coffeys’ forms as valid returns.
We do not hold today that photocopied or scanned
signatures are always sufficient to make a return valid.
Rather, based on Zellerbach’s idea that a return doesn’t

95a
Appendix F
have to be perfect and the strong authenticating safeguards
in place in this case, we are satisfied the Coffeys’ scanned
signatures were sufficient to meet this factor of the Beard
test.25 “The error, if any, in filing a photocopy which has not
been actually, physically, and manually signed * * * is one
which is minor and not seriously misleading.” Sommers
v. IBM (In re Legal Cooperatives, Inc.), 5 B.R. 382, 386
(Bankr. S.D. Tex. 1980), rev’d on other grounds, 640 F.2d
686 (5th Cir. 1981).
Conclusion
We are certainly cognizant of the concerns of both
parties here. The Coffeys and the VI argue that a finding
against them gives the IRS an eternally open statute of
limitations to assess taxes against anyone it doesn’t believe
is a bona fide VI resident. And they are quick to point out
that the IRS adopted their approach starting with the tax
years ending on or after December 31, 2006, in section
1.932-1 of the regulations. Most troubling perhaps is that
Congress commanded the Secretary to issue regulations
under section 932 and he simply failed to do so by the time
25. We don’t believe this holding contradicts Turco. Although
we did use the phrase “original signature,” our holding in Turco is
distinguishable from this case and Gen. Mfg. because the taxpayer
in Turco gave the photocopy to an IRS agent. We concluded that
the taxpayer failed to file his return because the IRS agent isn’t
the designated place for filing. As we concluded above, the forms in
question here did find their way to the designated filing place. Turco
certainly didn’t mean to overrule Gen. Mfg., a case where the return
didn’t have the taxpayer’s signature at all, and we do not believe it
meant to say all tax returns have to have original signatures without
fail. This would be too expansive a reading.

96a
Appendix F
the Coffeys had to fill out their returns. See sec. 7654(e)
(“The Secretary shall prescribe such regulations as may
be necessary to carry out the provisions of * * * sections
931 and 932.”).
Although these concerns are valid, they’re not as
devastating as they might seem to be. A finding against
the Coffeys would not give the IRS an unlimited statute
of limitations. It’s true that taxpayers might be hauled
into court long after three years had passed, but they’d be
fighting over whether they’re bona fide VI residents. This
would not be a dispute on the merits of their tax liability.
See Cooper, T.C. Memo. 2015-72, at P23. And the absence
of regulations doesn’t repeal section 932. The Code says
that a taxpayer who “is” a bona fide VI resident need file
only with the VIBIR. Both the Eleventh Circuit and we
have already found this to be unambiguous. See Estate
of Sanders, 834 F.3d 1269; Cooper, T.C. Memo. 2015-72,
at P22.
The Coffeys, and particularly the VI, also stress that
finding for the Commissioner creates an opportunity for
double taxation. If the IRS can send notices of deficiency to
people like the Coffeys long after three years have passed,
they run the risk of having to pay tax to the United States
and not being able to get a refund from the VIBIR. The
VI has its own statute of limitations for filing for refunds
and this period will have come and gone long before the
taxpayers get their notice of deficiency from the IRS. We
accept this risk as real, and the Commissioner similarly

97a
Appendix F
accepted it during oral argument. 26 But the existence for
potential double taxation is not determinative, even if
some inequities exist. See, e.g., Vento v. Commissioner,
147 T.C. 198 (2016) (taxpayers not eligible for credit of tax
paid to VIBIR in computing tax owed to IRS); McGrogan
v. Commissioner, No. 2009-167, 2011 U.S. Dist. LEXIS
87601, 2011 WL 3472336, at *7 (D.V.I. 2011) (unreported)
(finding no mitigation of potential double tax for a taxpayer
with uncertain VI residency). Despite cases like these,
we also note that the Third Circuit has observed that the
competent authorities27 of the United States and the VI
are supposed to provide a remedy for this problem. Cooper
v. Comm’r of Internal Revenue, 718 F.3d 216, 223, 58 V.I.
804 (3d Cir. 2013).
But those competent authorities are not available here,
contrary to the Commissioner’s assertions during oral
argument. The IRS sent the Coffeys a letter in February
2009 that advised them that they had to settle their case
in order to obtain relief from double taxation. The letter
26. The IRS understood this risk when it published Rev. Proc.
2006-23, 2006-1 C.B. 900, where it recommended that those claiming
to be VI residents file protective refund claims with the VIBIR to
ensure they were timely.
27. Income-tax treaties generally include a “competent
authority” clause which enables a taxpayer to appeal to the competent
authorities of the two participating sovereigns if his particular
situation is not covered by the treaty and will result in inequitable
taxation. It’s an administrative procedure conducted by the two
sovereigns, with the “competent authority” being some sort of
governmental body. See, e.g., Filler v. Commissioner, 74 T.C. 406,
408-09 (1980).

98a
Appendix F
considered their case to be one of an “improperly claimed”
EDP credit, and pursuant to an agreement the United
States had with the VI, settling their case and naming the
adviser that promoted their plan would be the only way
they could secure relief from double taxation; otherwise
they would “not be eligible for general competent authority
relief.”
The Commissioner believes we should construe any
ambiguities in the law in his favor because of the sheer
potential for abuse. The IRS announced its skepticism of
people’s claims of VI residence in Notice 2007-19, supra.
We acknowledge these concerns, but we also understand
the importance of the statute of limitations and the
ability of taxpayers to plan their affairs. As we noted
throughout this opinion, the Commissioner’s assertion that
the Coffeys should’ve known to send in protective zero
returns is very farfetched. Not only did the IRS not tell
taxpayers this, 28 but it is bizarre to believe a zero return
would start the running of the statute of limitations here
when the same two pages of Form 1040 with significantly
more information would not (with one notable difference
being that the zero return would presumably contain
an original signature). 29 To sum it up, the IRS failed to
28. The Commissioner’s counsel at oral argument told us that
the IRS simply “[d]idn’t do it.” Remember also that IRS counsel said
that the protective zero return was “[his] little baby.”
29. Taking it to an even further extreme, the Commissioner
actually told us that even the Coffeys’ complete return (i.e., including
all the attachments) would’ve been worse than a zero return because
such a return would’ve been incompatible with their belief that they
were bona fide VI residents.

99a
Appendix F
promulgate mandatory regulations under section 932,
failed to tell taxpayers that they should file protective
zero returns, and failed to send the Coffeys a notice of
deficiency within three years of receiving the cover-over
documents. And, only a few short years later, the IRS
finally did promulgate regulations that adopt precisely
the position that the Coffeys took about how to start the
statute of limitations. Despite all this, the Commissioner
tells us that the Coffeys lose--though one is left to wonder
how the current regulation is valid if the Commissioner is
correct that filing anything other than a zero return with
the IRS would be inadequate under the Code.
Our conclusion today might seem strange at first--the
Coffeys sent their return to the VIBIR, but because the
first two pages of it somehow (and without their knowledge
or explicit approval) ended up at the Philadelphia office
of the IRS, we hold they’re protected by the statute of
limitations. But as we said in Appleton, 140 T.C. at 292 n.23
(citing Holmes, 937 F.2d at 481), “[i]t is not unprecedented
for a court to determine that a return filed in one tax
jurisdiction may commence the period of limitations in
a second tax jurisdiction.” We stress that this is not an
opinion on the merits of the Coffeys’ claims of VI residency:
It concerns only the time limit the IRS has to challenge
their claims. The IRS received the Coffeys’ returns. The
Coffeys might not have sent the forms themselves, but
we have not found any authority to say they had to. It’s
the IRS’s receipt that matters. The returns were not
without their flaws, such as missing schedules and scanned
signatures, but it’s long been settled that returns don’t
need to be perfect. We hold the forms the IRS received

100a
Appendix F
contained enough information and complied with the IRS’s
form to a sufficient degree that they constituted returns
for the purposes of section 6501.
Appropriate orders will be issued.
Reviewed by the Court.
FOLEY, VASQUEZ, GUSTAFSON, and BUCH, JJ.,
agree with this opinion of the Court.

101a
Appendix F
THORNTON, J., concurring in the result only: I agree
with the result the opinion of the Court reaches but write
separately to explain why I would reach that result on a
narrower basis, focusing on the text of sections 932 and
6501(a). More specifically, I think that considering the
particular facts presented in this case, the returns James
Coffey and Judith Coffey (Coffeys, see op. Ct. note 2)
filed with the Virgin Islands Bureau of Internal Revenue
(VIBIR) under section 932(c)(2) sufficed to commence
the limitations period under section 6501(a) for Federal
income tax purposes.
Section 932(c)(2) provides that a bona fide resident of
the Virgin Islands “shall file an income tax return for the
taxable year with the Virgin Islands.” Respondent has
not disputed that the returns the Coffeys filed with the
VIBIR qualify as returns under the four-part test laid out
in Beard v. Commissioner, 82 T.C. 766, 777 (1984), aff’d,
793 F.2d 139 (6th Cir. 1986), with respect to the Coffeys’
Virgin Islands filing requirement. Respondent claims,
however, that the Coffeys were not bona fide residents of
the Virgin Islands and that therefore their filings with
the VIBIR did not commence the limitations period for
Federal income tax purposes under section 6501(a).
The opinion of the Court focuses not on the returns
the Coffeys filed with the VIBIR but on copies of those
returns which the VIBIR eventually sent to the Internal
Revenue Service (IRS). Assuming for the purposes of
summary judgment that the Coffeys were not bona fide
residents, the opinion of the Court concludes that under
the Beard test these copies were returns, sufficient to
begin the Federal limitations period.

102a
Appendix F
While I agree with the ultimate result the opinion of
the Court reaches, I think that it is unnecessary to decide
whether the Coffeys were bona fide residents of the Virgin
Islands, as respondent asks us to do, or to decide whether
the documents the VIBIR sent to the IRS meet the Beard
test, because the returns the Coffeys filed with the VIBIR
under section 932(c)(2) started the section 6501(a) period
of limitations for Federal income tax purposes.
The section 6501(a) limitations period is meant to
provide repose to taxpayers who file honest and genuine
--though possibly erroneous--returns. Long ago, in Mabel
Elevator Co. v. Commissioner, 2 B.T.A. 517, 519 (1925),
the Board of Tax Appeals held that a return which the
taxpayer erroneously filed on a fiscal year basis instead of
the requisite calendar year basis nevertheless triggered
the limitations protection:
It is urged that since the return filed by
the taxpayer was made upon a fiscal year
basis, while the law required a return upon a
calendar year basis, the return filed was not
the return required by the law and could not
operate to start running the statutory period
of limitations. With this we can not agree. The
return filed purported to be made in accordance
with the law; it purported to and did include
the income of the taxpayer for the period in
question. In the absence of any evidence or
claim that such return was false or fraudulent
with intent to evade tax, it became the duty of
the Commissioner to determine, within the time
provided by law, whether or not such return was
erroneous in any respect.

103a
Appendix F
There can be no doubt that such limitations
are placed on assessments for the purpose of
assuring the taxpayer, who has made an honest
return, that after such period his tax liability
will not be reopened; otherwise the business
of the country would always have before it the
threat of additional taxes against the income
of years long past when-ever a new theory for
interpreting the tax law or for the application
of accounting principles occurred to the taxing
authorities. If the limitation can be avoided on
the plea that the return filed was not such a
return as is required by law, although filed in
good faith, there is no such assurance for the
taxpayer and the limitation becomes of doubtful
value at least.1
Similar considerations pertain in this case. If a
taxpayer’s Virgin Islands filing were insufficient to start
the limitations period unless the taxpayer was actually
1. In Paso Robles Mercantile Co. v. Commissioner, 12 B.T.A.
750, 753 (1928), aff’d, 33 F.2d 653 (9th Cir. 1929), the Board of Tax
Appeals provided further guidance:
In our opinion the statute of limitations does not
begin to run until a return or returns have been filed
which at least purport to cover or include the period
involved. Where there are two returns which must be
considered, each of which includes a part of the taxable
year, the period of limitation must be considered as to
both and the statute does not run until it expires as to
both these returns.
See also Atlas Oil & Ref. v. Commissioner, 22 T.C. 552, 556-557
(1954) (citing Mabel Elevator and Paso Robles with approval).

104a
Appendix F
a bona fide resident of the Virgin Islands at the relevant
time, then the repose offered by the limitations period
would be of doubtful value: Even bona fide residents who
filed correct returns would never be free from the threat
of a possible IRS challenge and future litigation with
respect to their residency status.
In this case, as is generally true of tax cases involving
the operation of the statute of limitations, the relevant
question is not whether the positions the taxpayers took
on their returns were substantively correct, but whether
the returns “evince[d] an honest and genuine endeavor to
satisfy the law.” Zellerbach Paper Co. v. Helvering, 293
U.S. 172, 180, 55 S. Ct. 127, 79 L. Ed. 264, 1934-2 C.B.
341 (1934).
A recent case illustrates the application of this
principle. In New Capital Fire, Inc. v. Commissioner, T.C.
Memo. 2017-177, New Capital Fire, Inc. (New Capital), filed
a return for 2002 on which it claimed to be the continuation
of the Capital Fire Insurance Co. (Old Capital) and
disclosed that Old Capital had been merged into New
Capital during 2002 (in what New Capital claimed was an
F reorganization). New Capital and Old Capital took the
position that they were the same corporation for Federal
income tax purposes and that therefore New Capital’s
filing, which reported both Old Capital’s and New Capital’s
tax items for that year, sufficed to commence the period
of limitations for both. The IRS disagreed, claiming that
the F reorganization was invalid and that therefore New
Capital and Old Capital were separate taxpayers, with
separate filing requirements. On that basis, the IRS

105a
Appendix F
concluded that Old Capital had never filed for its last
partial year and that therefore the period of limitations
had not commenced.
This Court held that the Commissioner’s determination
was time barred because the period of limitations began
for Old Capital when New Capital filed its return (i.e.,
regardless of whether the F reorganization was valid).
Citing Mabel Elevator, the Court (1) noted that the
Commissioner had “not alleged * * * that New Capital’s
2002 return was false or fraudulent with intent to evade
tax” and (2) stated that “[i]t was * * * [the Commissioner’s]
duty to determine, within the period of limitations
provided by section 6501(a), whether New Capital’s 2002
return, as it pertain[ed] to Old Capital, was erroneous in
any respect.” New Capital Fire, Inc. v. Commissioner,
T.C. Memo. 2017-177, at *8-*9.
Somewhat similarly, in Germantown Tr. Co. v.
Commissioner, 309 U.S. 304, 60 S. Ct. 566, 84 L. Ed. 770,
1940-1 C.B. 178 (1940), a trust company filed a fiduciary
tax return instead of a corporate tax return, i.e., the
company took the position that it was not a taxable entity
and filed according to that position. The Commissioner
determined that the company was subject to tax as a
corporation and argued that a then-applicable two-year
period of limitations had not commenced because no
corporate return had been filed. The Supreme Court held
that the fiduciary return was sufficient to begin the period
of limitations for the corporate tax liability, although the
return failed to compute a tax and although it was reported
on the incorrect form.

106a
Appendix F
As the opinion of the Court finds, the Coffeys’
returns represented honest and reasonable attempts to
file correctly. See op. Ct. pp. 45-48. Like the taxpayers
in Mabel Elevator, New Capital Fire, and Germantown
Trust, the Coffeys filed returns that were appropriate for
reporting the positions taken on those returns. In this
case, as in these earlier cases, the Commissioner seeks to
defeat the statute of limitations by claiming, essentially,
that reasonable and honest positions as to the taxpayers’
filing status, which were clearly and adequately disclosed
on their returns, are somehow not covered by the statute
of limitations. Respondent’s argument fails in this case for
essentially the same reasons it failed in Mabel Elevator,
New Capital Fire, and Germantown Trust.
Respondent suggests that the Coffeys should have
filed a second, protective return with the IRS for the
purpose of commencing the running of the section 6501(a)
limitations period. But respondent’s position is difficult
to reconcile with the established caselaw under which, as
just discussed, the period of limitations was held to have
begun even without a protective return. And in any event
respondent’s position does not explain how a taxpayer is
to surmount various practical difficulties alternate filings
would present.
For example, in suggesting that the Coffeys should
have filed protective zero returns with the Philadelphia,
Pennsylvania, IRS Service Center, respondent references
on brief page 8 of Publication 570, Tax Guide for
Individuals With Income From U.S. Possessions (For
use in preparing 2004 returns), claiming that it provided

107a
Appendix F
guidance. But Publication 570 says absolutely nothing
about filing a protective zero return, nor does it explain
where a taxpayer should file such a protective return in
the event the taxpayer believes him or herself to be a
bona fide resident. Rather, Publication 570 explains only
what a taxpayer should do if he or she definitely is (or
is not) a bona fide resident. As we noted in Appleton v.
Comm’r, 140 T.C. 273, 288-289 (2013) (a case very similar
to the present one): (1) there was no guidance at the time
which would have directed taxpayers to file a second
protective return; (2) in any event, we have traditionally
considered a zero return to be a frivolous return, see, e.g.,
Hill v. Commissioner, T.C. Memo 2014-134 (finding that
a zero return was frivolous and holding that a frivolous
return does not commence the section 6501(a) period
of limitations); and (3) “to expect a taxpayer to file a
protective zero return with a service center to which the
taxpayer was not directed, and where IRS employees
were not alerted to expect such returns, is unreasonable.”
In different ways Mabel Elevator, New Capital Fire,
and Germantown Trust all recognize that it would be
unreasonable to require a taxpayer to file one or more
additional returns staking out phantom positions the
taxpayer does not believe are correct, at least in situations
where a return that was actually filed discloses enough
information for the IRS to flag the relevant issues. While
taxpayers must report enough information for the IRS to
flag issues and compute the proper amount of tax (which,
by the way, a protective zero return would not do), for
purposes of section 6501(a) we do not generally require
perfection. See Zellerbach Paper Co. v. Helvering, 293

108a
Appendix F
U.S. at 180 (“Perfect accuracy or completeness is not
necessary to rescue a return from nullity[.]”). In this
case, the Coffeys made an honest and reasonable effort to
comply with their filing obligations and provided enough
information on the return they filed with the VIBIR to
allow proper computation of tax. That should be enough. 2
Respondent objects that the returns the Coffeys filed
with the VIBIR did not clearly disclose their residency
position to the IRS. In fact, the IRS was eventually
2. This conclusion is consistent with the current regulations,
sec. 1.932-1(c)(2)(ii), Income Tax Regs., which provide:
For purposes of the U.S. statute of limitations under
section 6501(a), an income tax return filed with the
Virgin Islands by an individual who takes the position
that he or she is a bona fide resident of the Virgin
Islands * * * will be deemed to be a U.S. income tax
return, provided that the United States and the Virgin
Islands have entered into an agreement for the routine
exchange of income tax information satisfying the
requirements of the Commissioner.
Although these regulations were not in effect for the
Coffeys’ tax years, we note that they align with the position of
this concurring opinion except that they condition the limitations
protection on the existence of an information-sharing agreement
between the IRS and the VIBIR. While we have no occasion to
question the validity of these regulations, we see no reason to
think that this requirement for an information-sharing agreement
should preclude limitations protection in appropriate cases for
periods before the regulations were effective. Indeed, interim
guidance which preceded the final regulations was not similarly
conditioned on the existence of an information-sharing agreement.
See Notice 2007-19, 2007-1 C.B. 689.

109a
Appendix F
informed of the Coffeys’ position. Copies of the Coffeys’
Virgin Islands returns were forwarded to the IRS (and as
explained, see op. Ct. p. 7, the forms used for the Virgin
Islands filing were Forms 1040, U.S. Individual Tax
Return, repurposed for use as the Virgin Islands return
without any changes). But whether the IRS happens
to have been informed in this specific context is not
controlling. Under the plain statutory text, section 6501(a)
applies where a return has been filed, and section 932(c)
(2) directs the taxpayer to file a “return” with the Virgin
Islands under certain circumstances--it does not say that
such a return will not commence the period of limitations
unless the IRS gets the message, or unless the return is
correct with respect to the taxpayer’s residency status.
The return, and not the correctness of the return, is the
focus of section 6501(a). 3
Respondent also contends that no filing with the
Virgin Islands can start the period of limitations for
Federal income tax purposes because the United States
and the Virgin Islands are separate taxing jurisdictions.
As the Supreme Court recently stated, however: “U.S.
territories * * * are not sovereigns distinct from the
United States.” Puerto Rico v. Sanchez Valle, 579 U.S.
1863, 1866, 136 S. Ct. 1863, 1866, 195 L. Ed. 2d 179 (2016)
(holding that the United States and Puerto Rico are not
separate sovereigns for double jeopardy purposes). And
in any event, we are not today considering the effect of
3. Respondent simi la rly a rg ues that a retu r n cannot
commence the Federal period of limitations unless the return is
filed with the IRS. But again, sec. 932(c)(2) does not require that the
return referred to in that section be filed with the IRS--it requires
that the return be filed with the Virgin Islands.

110a
Appendix F
a law passed by the Virgin Islands under the authority
delegated to the Virgin Islands by Congress; we are
dealing with section 932, which is part of the Internal
Revenue Code and which labels a return filed with the
Virgin Islands a “return”. The authority for treating a
filing with the Virgin Islands as a return therefore flows
from the Internal Revenue Code and not from any powers
delegated to the Virgin Islands territorial government.
For these reasons respondent’s argument fails, and I
concur with the result, if not the reasoning, of the opinion
of the Court.
GALE, GOEKE, PARIS, KERRIGAN, PUGH, and
ASHFORD, JJ., agree with this concurring opinion.
GUSTAFSON, J., agrees with this concurring
opinion, except as to the word “only” in the first line of the
concurring opinion and the phrase “if not the reasoning”
in the last sentence of the concurring opinion.

111a
Appendix F
MARVEL, CJ., dissenting: The opinion of the Court
concludes that the transmittal by the Virgin Islands
Bureau of Internal Revenue (VIBIR) to the Internal
Revenue Service (IRS) pursuant to a Tax Implementation
Agreement of part of a Form 1040 filed by James Coffey
and Judith Coffey (petitioners) only with the VIBIR
constitutes a return filing for purposes of section 6501(a).
Because neither petitioners nor anyone authorized by
petitioners to act on their behalf filed or intended to file
a Form 1040 with the IRS, the period of limitations on
assessment under section 6501(a) did not begin to run. I
respectfully dissent.
Section 6501(a) provides for a three-year period
of limitations on assessment after a return is filed.
In determining whether the section 6501(a) period of
limitations has begun to run, we examine (1) whether
the document the taxpayer submitted was a return and
(2) whether the taxpayer properly filed it. Appleton v.
Comm’r, 140 T.C. 273, 284 (2013).
Section 6012 generally provides that every individual
having for the taxable year gross income which exceeds
the exemption amount must file a return. Section 6501
defines a return as “the return required to be filed by
the taxpayer”. (Emphasis added.) Because section 6501
defines a return as the return “filed by the taxpayer”,
a document purporting to be a return that satisfies the
requirements of section 6012 must be filed by the taxpayer
or by someone legally authorized to file the return on the
taxpayer’s behalf and the taxpayer or his designee must
intend to file it. Florsheim Bros. Drygoods Co. v. United

112a
Appendix F
States, 280 U.S. 453, 462, 50 S. Ct. 215, 74 L. Ed. 542,
1930-1 C.B. 260 (1930); see also Allnutt v. Commissioner,
T.C. Memo. 2002-311, slip op. at 13 (“A taxpayer may not,
by his or her ambiguous conduct, even if unintentional,
secure the benefit of the limitations period.”), aff’d, 523
F.3d 406 (4th Cir. 2008).
In this case, petitioners filed a Virgin Islands (VI)
return with the VIBIR, and the VIBIR then transmitted
a portion of the VI return (the first two pages and copies
of Forms W-2, which were attached to the VI return) to
the IRS to facilitate the transfer to the VIBIR of moneys
collected from petitioners. The opinion of the Court
does not analyze whether the VIBIR was authorized by
petitioners to act as their agent for purposes of filing a
Federal income tax return, nor does it identify any evidence
in the record to support a finding that the VIBIR was so
authorized. In fact, the record contains no evidence that
the VIBIR was authorized to act as petitioners’ agent; and
it appears that petitioners were not even aware that any
portion of the VI return they filed would be transmitted
to the IRS.1 See Huff v. Comm’r, 135 T.C. 222, 230 (2010)
(stating that taxpayers who were not bona fide residents of
the VI were “required to file a Federal income tax return
even if * * * [they] filed a Virgin Islands tax return”).
Absent evidence proving that petitioners authorized
the VIBIR to file the Form 1040 with the IRS on their
behalf, there is no factual basis for concluding that
1. For a Federal income tax return to be considered properly
filed, a taxpayer or someone authorized to act for the taxpayer must
comply with any applicable filing requirements. See Dingman v.
Commissioner, T.C. Memo. 2011-116, slip op. at 30-31.

113a
Appendix F
petitioners filed a Federal income tax return sufficient
to begin the running of the period of limitations on
assessment. Petitioners simply did not file a Federal
income tax return, on the facts of this case.
The opinion of the Court addresses whether a
taxpayer’s subjective intent is relevant when considering
whether a valid return has been “filed”. It asserts that
respondent conceded this issue but acknowledges that a
taxpayer’s subjective intent “does have a role to play in
determining whether a filed document constitutes a valid
return.” See op. Ct. note 19. The obligation to file a return
imposed by section 6012 is that of the taxpayer, and the
preparation and filing of a Federal income tax return must
be a purposeful act. Our caselaw supports a conclusion
that it is the taxpayer or someone authorized to act on
the taxpayer’s behalf who must file the return and, in so
doing, must necessarily intend to file it as the taxpayer’s
return. See, e.g., Espinoza v. Commissioner, 78 T.C. 412,
422 (1982) (“His failure to pay the additional taxes raises
a question as to whether he intended for the amended
returns to be filed.”); Dingman v. Commissioner, T.C.
Memo. 2011-116, slip op. at 31 (“The record supports
a conclusion that petitioner clearly intended to file the
returns when his counsel submitted them to the CID.”);
Allnut v. Commissioner, T.C. Memo. 2002-311, slip op. at
20 (“[F]iling of a return is established by facts showing
proper delivery or mailing of a return with the intent to
file it as a return.”); Friedmann v. Commissioner, T.C.
Memo. 2001-207, slip op. at 19 (“[T]here is nothing in the
record to show that petitioner intended his delivery of
those documents to the agent in April 1992 to constitute
the filing of his returns.”).

114a
Appendix F
The opinion of the Court avoids a head-on collision
with cases like those cited above by relying on a supposed
concession by respondent. It is wholly unclear that
respondent has made any such concession; respondent
explicitly argues that a taxpayer’s subjective intent
“does have a role to play in determining whether a filed
document constitutes a valid return.” See op. Ct. note 19.
Even assuming that the opinion of the Court has
accurately understood respondent’s position regarding a
taxpayer’s intent to file a return, we are bound to apply
section 6501(a) as written and as interpreted by our
caselaw. Section 6501(a) requires the filing of a return by
the taxpayer, and the taxpayer must intend the document
he files to be a return.
Moreover, in Beard v. Commissioner, 82 T.C. 766
(1984), aff’d, 793 F.2d 139 (6th Cir. 1986), in which we
set forth factors for determining whether a document
qualified as a Federal income tax return, we held that a
document must be an honest and reasonable attempt to
satisfy the requirements of Federal tax law. It is very
hard to reconcile the assumption made by the opinion
of the Court--that petitioners were not bona fide VI
residents--with a finding that petitioners in filing their
VI returns honestly and reasonably intended to file U.S.
Federal income tax returns. Petitioners did not reasonably
intend to file any Federal income tax return with the IRS.
Contending that they were bona fide residents of the VI,
they intended to file only VI territorial returns and only
the VI territorial returns were executed under penalties
of perjury, another Beard requirement. Id. at 777. What

115a
Appendix F
the VIBIR transmitted to the IRS were copies of parts of
the VI returns filed by petitioners. The signatures on those
copies were not original signatures (or their electronic
equivalent), and they did not attest to the accuracy of the
returns for purposes of U.S. tax law. 2
The mirror system that the opinion of the Court
addresses and the lack of regulatory guidance during
the years at issue complicate the analysis and give some
cover for the conclusions that the opinion of the Court
reaches. I am concerned, however, that the opinion of the
Court opens a door regarding what constitutes a valid
return filed by the taxpayer that should not be opened.
Filing a valid Federal income tax return with the IRS for
purposes of section 6501(a) requires an intentional act by
the taxpayer, and there was none here.
MORRISON, LAUBER, and NEGA, JJ., agree with
this dissent.

2. A portion of a return with no original signature cannot
be a “return” for U.S. income tax purposes, and it therefore seems
impossible for the IRS to prosecute a tax crime or assert a civil
fraud penalty on the basis of the transmission of such a document.

116a
Appendix
G
APPENDIX G — ORDER
DENYING
REHEARING
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT, FILED MAY 3, 2021
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3256
JUDITH S. COFFEY AND GOVERNMENT OF
THE UNITED STATES VIRGIN ISLANDS,
(“V.I. GOVERNMENT”),
Appellees,
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellant,
STACEY E. PLASKETT, DELEGATE
TO THE UNITED STATES HOUSE OF
REPRESENTATIVES FOR THE UNITED
STATES VIRGIN ISLANDS,
Amicus on Behalf of Appellee(s).
No: 18-3259
ESTATE OF JAMES COFFEY,
JUDITH COFFEY EXECUTRIX,
Appellee,

117a
Appendix G
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellant.
STACEY E. PLASKETT, DELEGATE
TO THE UNITED STATES HOUSE OF
REPRESENTATIVES FOR THE UNITED
STATES VIRGIN ISLANDS,
Amicus on Behalf of Appellee(s).
Appeals from United States Tax Court
(004720-10)
(004949-10)
ORDER
The petitions for rehearing en banc are denied. The
petitions for rehearing by the panel are also denied.
May 03, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
			

		
/s/ Michael E. Gans

118a
APPENDIX H —Appendix
ORDER H
OF THE UNITED
STATES COURT OF APPEALS FOR THE EIGHTH
CIRCUIT, FILED FEBRUARY 10, 2021
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3256
JUDITH S. COFFEY AND GOVERNMENT OF THE
UNITED STATES VIRGIN ISLANDS,
(“V.I. GOVERNMENT”),
Appellees,
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellant.
No: 18-3259
ESTATE OF JAMES COFFEY,
JUDITH COFFEY EXECUTRIX,
Appellee,
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellant.

119a
Appendix H
Appeals from United States Tax Court
(004720-10)
(004949-10)
ORDER
Appellees’ petitions for rehearing by the panel have
been considered by the Court and are granted. The
petitions for rehearing en banc are denied as moot. The
opinion and judgment of this Court filed on December 15,
2020 are vacated.
February 10, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

120a
Appendix
I
APPENDIX
I — RELEVANT
STATUTORY PROVISIONS

2003 26 USCS § 932
§ 932. Coordination of United States and Virgin Islands
income taxes
(a)Treatment of United States residents.
(1)Application of subsection. This subsection
shall apply to an individual for the taxable year
if-(A)such individual-(i)is a citizen or resident of the
United States (other than a
bona fide resident of the Virgin
Islands at the close of the taxable
year), and
(ii)has income derived from
sou rces w ith i n the V i rg i n
Islands, or effectively connected
with the conduct of a trade or
business within such possession,
for the taxable year, or
(B)such individual files a joint return
for the taxable year with an individual
described in subparagraph (A).

121a
Appendix I
(2)Filing requirement. Each individual to whom
this subsection applies for the taxable year shall
file his income tax return for the taxable year
with both the United States and the Virgin
Islands.
(3)Extent of income tax liability. In the case of
an individual to whom this subsection applies in
a taxable year for purposes of so much of this
title (other than this section and section 7654)
as relates to the taxes imposed by this chapter,
the United States shall be treated as including
the Virgin Islands.
(b)Portion of United States tax liability payable to the
Virgin Islands.
(1)In general. Each individual to whom
subsection (a) applies for the taxable year shall
pay the applicable percentage of the taxes
imposed by this chapter for such taxable year
(determined without regard to paragraph (3))
to the Virgin Islands.
(2)Applicable percentage.
(A)In genera l. For pu r poses of
paragraph (1), the term “applicable
percentage” means the percentage
which Virgin Islands adjusted gross
income bears to adjusted g ross
income.

122a
Appendix I
(B)Virgin Islands adjusted gross
income. For purposes of subparagraph
(A), the term “Virgin Islands adjusted
gross income” means adjusted gross
income determined by taking into
account only income derived from
sources within the Virgin Islands and
deductions properly apportioned or
allocable thereto.
(3)Amounts paid allowed as credit. There shall
be allowed as a credit against the tax imposed
by this chapter for the taxable year an amount
equal to the taxes required to be paid to the
Virgin Islands under paragraph (1) which are
so paid.
(c)Treatment of Virgin Islands residents.
(1)Application of subsection. This subsection
shall apply to an individual for the taxable year
if-(A)such individual is a bona fide
resident of the Virgin Islands at the
close of the taxable year, or
(B)such individual files a joint return
for the taxable year with an individual
described in subparagraph (A).
(2)Filing requirement. Each individual to whom
this subsection applies for the taxable year shall

123a
Appendix I
file an income tax return for the taxable year
with the Virgin Islands.
(3)Extent of income tax liability. In the case of
an individual to whom this subsection applies in
a taxable year for purposes of so much of this
title (other than this section and section 7654)
as relates to the taxes imposed by this chapter,
the Virgin Islands shall be treated as including
the United States.
(4)Residents of the Virgin Islands. In the case
of an individual-(A)who is a bona fide resident of the
Virgin Islands at the close of the
taxable year,
(B)who, on his return of income tax
to the Virgin Islands, reports income
from all sources and identifies the
source of each item shown on such
return, and
(C)who fully pays his tax liability
referred to in section 934(a) to the
Virgin Islands with respect to such
income,
for purposes of calculating income
tax liability to the United States,
gross income shall not include any

124a
Appendix I
amount included in gross income on
such return, and allocable deductions
and credits shall not be taken into
account.
(d)Special rule for joint returns. In the case of a joint return, this section shall be applied on the basis of the residence of the spouse who has the greater adjusted gross
income (determined without regard to community property laws) for the taxable year.
(e)Special rule for applying section to tax imposed in Virgin Islands. In applying this section for purposes of determining income tax liability incurred to the Virgin Islands,
the provisions of this section shall not be affected by the
provisions of Federal law referred to in section 934(a).

125a
Appendix I
2004 26 USCS § 932
§ 932. Coordination of United States and Virgin Islands
income taxes
(a)Treatment of United States residents.
(1)Application of subsection. This subsection
shall apply to an individual for the taxable year
if-(A)such individual-(i)is a citizen or resident of the
United States (other than a
bona fide resident of the Virgin
Isla nds du r i ng t he ent i re
taxable year), and
(ii)has income derived from
sou rces w it h i n the V i rg i n
Islands, or effectively connected
with the conduct of a trade or
business within such possession,
for the taxable year, or
(B)such individual files a joint return
for the taxable year with an individual
described in subparagraph (A).
(2)Filing requirement. Each individual to whom
this subsection applies for the taxable year shall

126a
Appendix I
file his income tax return for the taxable year
with both the United States and the Virgin
Islands.
(3)Extent of income tax liability. In the case of
an individual to whom this subsection applies
in a taxable year for purposes of so much of
this title (other than this section and section
7654 [26 USCS § 7654]) as relates to the taxes
imposed by this chapter, the United States shall
be treated as including the Virgin Islands.
(b)Portion of United States tax liability payable to the
Virgin Islands.
(1)In general. Each individual to whom
subsection (a) applies for the taxable year shall
pay the applicable percentage of the taxes
imposed by this chapter for such taxable year
(determined without regard to paragraph (3))
to the Virgin Islands.
(2)Applicable percentage.
(A)In general. For pu r poses of
paragraph (1), the term “applicable
percentage” means the percentage
which Virgin Islands adjusted gross
income bears to adjusted g ross
income.
(B)Virgin Islands adjusted gross
income. For purposes of subparagraph

127a
Appendix I
(A), the term “Virgin Islands adjusted
gross income” means adjusted gross
income determined by taking into
account only income derived from
sources within the Virgin Islands and
deductions properly apportioned or
allocable thereto.
(3)Amounts paid allowed as credit. There shall
be allowed as a credit against the tax imposed
by this chapter for the taxable year an amount
equal to the taxes required to be paid to the
Virgin Islands under paragraph (1) which are
so paid.
(c)Treatment of Virgin Islands residents.
(1)Application of subsection. This subsection
shall apply to an individual for the taxable year
if-(A)such individual is a bona fide
resident of the Virgin Islands during
the entire taxable year, or
(B)such individual files a joint return
for the taxable year with an individual
described in subparagraph (A).

128a
Appendix I
(2)Filing requirement. Each individual to whom
this subsection applies for the taxable year shall
file an income tax return for the taxable year
with the Virgin Islands.
(3)Extent of income tax liability. In the case of
an individual to whom this subsection applies
in a taxable year for purposes of so much of
this title (other than this section and section
7654 [26 USCS § 7654]) as relates to the taxes
imposed by this chapter, the Virgin Islands
shall be treated as including the United States.
(4)Residents of the Virgin Islands. In the case
of an individual-(A)who is a bona fide resident of the
Virgin Islands during the entire
taxable year,
(B)who, on his return of income tax
to the Virgin Islands, reports income
from all sources and identifies the
source of each item shown on such
return, and
(C)who fully pays his tax liability
referred to in section 934(a) [26 USCS
§ 934(a)] to the Virgin Islands with
respect to such income,

129a
Appendix I
for purposes of calculating income
tax liability to the United States,
gross income shall not include any
amount included in gross income on
such return, and allocable deductions
and credits shall not be taken into
account.
(d)Special rule for joint returns. In the case of a joint return, this section shall be applied on the basis of the residence of the spouse who has the greater adjusted gross
income (determined without regard to community property laws) for the taxable year.
(e)Special rule for applying section to tax imposed in Virgin Islands. In applying this section for purposes of determining income tax liability incurred to the Virgin Islands,
the provisions of this section shall not be affected by the
provisions of Federal law referred to in section 934(a) [26
USCS § 934(a)].

130a
Appendix I
2004 26 USCS § 934
§ 934. Limitation on reduction in income tax liability
incurred to the Virgin Islands.
(a)General rule. Tax liability incurred to the Virgin Islands pursuant to this subtitle, as made applicable in the
Virgin Islands by the Act entitled “An Act making appropriations for the naval service for the fiscal year ending
June 30, 1922, and for other purposes”, approved July 12,
1921 (48 U.S.C. 1397), or pursuant to section 28(a) of the
Revised Organic Act of the Virgin Islands, approved July
22, 1954 (48 U.S.C. 1642), shall not be reduced or remitted
in any way, directly or indirectly, whether by grant, subsidy, or other similar payment, by any law enacted in the
Virgin Islands, except to the extent provided in subsection
(b).
(b)Reductions permitted with respect to certain income.
(l)In general. Except as provided in paragraph
(2), subsection (a) shall not apply with respect
to so much of the tax liability referred to in
subsection (a) as is attributable to income
derived from sources within the Virgin Islands
or income effectively connected with the conduct
of a trade or business within the Virgin Islands.
(2)Exception for liability paid by citizens or
residents of the United States. Paragraph (1)
shall not apply to any liability payable to the
Virgin Islands under section 932(b) [26 USCS
§ 932(b)].

131a
Appendix I
(3)Special rule for non-United States income of
certain foreign corporations.
(A)In general. In the case of a qualified
foreign corporation, subsection (a)
shall not apply with respect to so
much of the tax liability referred to
in subsection (a) as is attributable to
income which is derived from sources
outside the United States and which
is not effectively connected with the
conduct of a trade or business within
the United States.
(B)Qualified foreign corporation. For
purposes of subparagraph (A), the
term “qualified foreign corporation”
means any foreign corporation if less
than 10 percent of-(i)the total voting power of the
stock of such corporation, and
(ii)the total value of the stock of
such corporation,
is owned or treated as owned
(within the meaning of section
958 [26 USCS § 9581) by or
more United States persons.

132a
Appendix I
(4)Determination of income source, etc. The
determination as to whether income is derived
from sources within the United States or is
effectively connected with the conduct of a
trade or business within the United States shall
be made under regulations prescribed by the
Secretary.

133a
Appendix I
2004 26 USCS § 6501
§ 6501. Limitations on assessment and collection.
(a)General rule. Except as otherwise provided in this section, the amount of any tax imposed by this title shall be
assessed within 3 years after the return was filed (whether or not such return was filed on or after the date prescribed) or, if the tax is payable by stamp, at any time after such tax became due and before the expiration of 3
years after the date on which any part of such tax was
paid, and no proceeding in court without assessment for
the collection of such tax shall be begun after the expiration of such period. For purposes of this chapter, the term
“return” means the return required to be filed by the taxpayer (and does not include a return of any person from
whom the taxpayer has received an item of income, gain,
loss, deduction, or credit).
(b)Time return deemed filed.
(1)Early return. For purposes of this section, a
return of tax imposed by this title, except tax
imposed by chapter 3, 21, or 24, filed before the
last day prescribed by law or by regulations
promulgated pursuant to law for the filing
thereof, shall be considered as filed on such
last day.
(2)Return of certain employment taxes and
tax imposed by chapter 3. For purposes of this
section, if a return of tax imposed by chapter 3,
21, or 24 for any period ending with or within

134a
Appendix I
a calendar year is filed before April 15 of the
succeeding calendar year, such return shall be
considered filed on April 15 of such calendar
year.
( 3 ) R e t u r n e x e c u t e d b y S e c r e t a r y.
Notwithstanding the provisions of paragraph
(2) of section 6020(b) [26 USCS § 6020(b)], the
execution of a return by the Secretary pursuant
to the authority conferred by such section shall
not start the running of the period of limitations
on assessment and collection.
(4)Return of excise taxes. For purposes of this
section, the filing of a return for a specified
period on which an entry has been made with
respect to a tax imposed under a provision of
subtitle D (including a return on which an entry
has been made showing no liability for such
tax for such period) shall constitute the filing
of a return of all amounts of such tax which, if
properly paid, would be required to be reported
on such return for such period.
(c)Exceptions.
(1)False return. In the case of a false or
fraudulent return with the intent to evade tax,
the tax may be assessed, or a proceeding in
court for collection of such tax may be begun
without assessment, at any time.

135a
Appendix I
(2)Willful attempt to evade tax. In case of a
willful attempt in any manner to defeat or
evade tax imposed by this title (other than
tax imposed by subtitle A or B), the tax may
be assessed, or a proceeding in court for the
collection of such tax may be begun without
assessment, at any time.
(3)No return. In the case of failure to file a
return, the tax may be assessed, or a proceeding
in court for the collection of such tax may be
begun without assessment, at any time.
(4)Extension by agreement.
(A)In general. Where, before the
expiration of the time prescribed in
this section for the assessment of any
tax imposed by this title, except the
estate tax provided in chapter 11, both
the Secretary and the taxpayer have
consented in writing to its assessment
after such time, the tax may be
assessed at any time prior to the
expiration of the period agreed upon.
The period so agreed upon may be
extended by subsequent agreements
in writing made before the expiration
of the period previously agreed upon.
(B)Notice to taxpayer of right to refuse
or limit extension. The Secretary shall

136a
Appendix I
notify the taxpayer of the taxpayer’s
right to refuse to extend the period of
limitations, or to limit such extension
to particular issues or to a particular
period of time, on each occasion when
the taxpayer is requested to provide
such consent.
(5)Tax resulting from changes in certain income
tax or estate tax credits. For special rules
applicable in cases where the adjustment of
certain taxes allowed as a credit against income
taxes or estate taxes results in additional tax,
see section 905(c) [26 USCS § 905(c)] (relating to
the foreign tax credit for income tax purposes)
and section 2016 [26 USCS § 2016] (relating to
taxes of foreign countries, States, etc., claimed
as credit against estate taxes).
(6)Termination of private foundation status.
In the case of a tax on termination of private
foundation status under section 507 [26
USCS § 507], such tax may be assessed, or a
proceeding in court for the collection of such tax
may be begun without assessment, at any time.
(7)Special rule for certain amended returns.
Where, within the 60-day period ending on the
day on which the time prescribed in this section
for the assessment of any tax imposed by
subtitle A for any taxable year would otherwise
expire, the Secretary receives a written

137a
Appendix I
document signed by the taxpayer showing that
the taxpayer owes an additional amount of such
tax for such taxable year, the period for the
assessment of such additional amount shall not
expire before the day 60 days after the day on
which the Secretary receives such document.
(8)Failure to notify secretary of certain foreign
transfers. In the case of any information which
is required to be reported to the Secretary
under section 6038, 6038A, 6038B, 6046, 6046A,
or 6048 [26 USCS § 6038, 6038A, 6038B, 6046,
6046A, or 6048], the time for assessment of
any tax imposed by this title with respect to
any event or period to which such information
relates shall not expire before the date which is
3 years after the date on which the Secretary
is furnished the information required to be
reported under such section.
(9)Gift tax on certain gifts not shown on return.
If any gift of property the value of which (or
any increase in taxable gifts required under
section 2701(d) [26 USCS § 2701(d)] which) is
required to be shown on a return of tax imposed
by chapter 12 (without regard to section 2503(b)
[26 USCS § 2503(b)]), and is not shown on such
return, any tax imposed by chapter 12 on such
gift may be assessed, or a proceeding in court
for the collection of such tax may be begun
without assessment, at any time. The preceding
sentence shall not apply to any item which

138a
Appendix I
is disclosed in such return, or in a statement
attached to the return, in a manner adequate
to apprise the Secretary of the nature of such
item.
(10)Listed transactions. If a taxpayer fails to
include on any return or statement for any
taxable year any information with respect
to a listed transaction (as defined in section
6707A(c)(2) [26 USCS § 6707A(c)(2)]) which is
required under section 6011 [26 USCS § 6011]
to be included with such return or statement,
the time for assessment of any tax imposed by
this title with respect to such transaction shall
not expire before the date which is 1 year after
the earlier of-(A)the date on which the Secretary is
furnished the information so required,
or
(B)the date that a material advisor
(as defined in section 6111 [26 USCS
§ 6111]) meets the requirements of
section 6112 [26 USCS § 6112] with
respect to a request by the Secretary
under section 6112(b) [26 USCS
§ 6112(b)] relating to such transaction
with respect to such taxpayer.
(d)Request for prompt assessment. Except as otherwise
provided in subsection (c), (e), or (f), in the case of any

139a
Appendix I
tax (other than the tax imposed by chapter 11 of subtitle
B, relating to estate taxes) for which return is required
in the case of a decedent, or by his estate during the period of administration, or by a corporation, the tax shall
be assessed, and any proceeding in court without assessment for the collection of such tax shall be begun, within
18 months after written request therefor (filed after the
return is made and filed in such manner and such form as
may be prescribed by regulations of the Secretary) by the
executor, administrator, or other fiduciary representing
the estate of such decedent, or by the corporation, but not
after the expiration of 3 years after the return was filed.
This subsection shall not apply in the case of a corporation
unless-(1)(A) such w ritten request notifies the
Secretary that the corporation contemplates
dissolution at or before the expiration of such
18-month period, (B) the dissolution is in good
faith begun before the expiration of such
18-month period, and (C) the dissolution is
completed;
(2)(A) such w ritten request notifies the
Secretary that a dissolution has in good
faith been begun, and (B) the dissolution is
completed; or
(3)a dissolution has been completed at the time
such written request is made.

140a
Appendix I
(e)Substantial omission of items. Except as otherwise
provided in subsection (c)-(1)Income taxes. In the case of any tax imposed
by subtitle A-(A)General rule. If the taxpayer
omits from gross income an amount
properly includible therein which is in
excess of 25 percent of the amount of
gross income stated in the return, the
tax may be assessed, or a proceeding
in court for the collection of such tax
may be begun without assessment,
at any time within 6 years after the
return was filed. For purposes of this
subparagraph-(i)in the case of a trade or
busi ness, the t er m “g ross
income” means the total of the
amounts received or accrued
from the sale of goods or services
(if such amounts are required to
be shown on the return) prior to
diminution by the cost of such
sales or services; and
(ii)in determining the amount
omitted from gross income,
there shall not be taken into
account any amount which is

141a
Appendix I
omitted from g ross income
stated in the return if such
amount is disclosed in the return,
or in a statement attached to the
return, in a manner adequate
to apprise the Secretary of the
nature and amount of such item.
(B)Constructive dividends. If the
taxpayer omits from gross income an
amount properly includible therein
u nder sect ion 9 51(a) [2 6 USC S
§ 951(a)], the tax may be assessed, or
a proceeding in court for the collection
of such tax may be done without
assessing, at any time within 6 years
after the return was filed.
(2)Estate and gift taxes. In the case of a return
of estate tax under chapter 11 or a return of
gift tax under chapter 12, if the taxpayer omits
from the gross estate or from the total amount
of the gifts made during the period for which
the return was filed items includible in such
gross estate or such total gifts, as the case
may be, as exceed in amount 25 percent of the
gross estate stated in the return or the total
amount of gifts stated in the return, the tax
may be assessed, or a proceeding in court for
the collection of such tax may be begun without
assessment, at any time within 6 years after
the return was filed. In determining the items

142a
Appendix I
omitted from the gross estate or the total gifts,
there shall not be taken into account any item
which is omitted from the gross estate or from
the total gifts stated in the return if such item
is disclosed in the return, or in a statement
attached to the return, in a manner adequate to
apprise the Secretary of the nature and amount
of such item.
(3)Excise taxes. In the case of a return of a tax
imposed under a provision of subtitle D, if the
return omits an amount of such tax properly
includible thereon which exceeds 25 percent
of the amount of such tax reported thereon,
the tax may be assessed, or a proceeding in
court for the collection of such tax may be
begun without assessment, at any time within
6 years after the return is filed. In determining
the amount of tax omitted on a return, there
shall not be taken into account any amount of
tax imposed by chapter 41, 42, 43, or 44 which
is omitted from the return if the transaction
giving rise to such tax is disclosed in the return,
or in a statement attached to the return, in a
manner adequate to apprise the Secretary of
the existence and nature of such item.
(f)Personal holding company tax. If a corporation which
is a personal holding company for any taxable year fails to
file with its return under chapter 1 for such year a schedule setting forth--

143a
Appendix I
(1)the items of gross income and adjusted
ordinary gross income, described in section 543
[26 USCS § 543], received by the corporation
during such year, and
(2)the names and addresses of the individuals
who owned, within the meaning of section
544 [26 USCS § 544] (relating to rules for
determining stock ownership), at any time
during the last half of such year more than 50
percent in value of the outstanding capital stock
of the corporation,
the personal holding company tax for such year
may be assessed, or a proceeding in court for
the collection of such tax may be begun without
assessment, at any time within 6 years after the
return for such year was filed.
(g)Certain income tax returns of corporations.
(1)Trusts or partnerships. If a taxpayer
determines in good faith that it is a trust or
partnership and files a return as such under
subtitle A, and if such taxpayer is thereafter
held to be a corporation for the taxable year
for which the return is filed, such return shall
be deemed the return of the corporation for
purposes of this section.

144a
Appendix I
(2)Exempt organizations. If a ta xpayer
determines in good faith that it is an exempt
organization and files a return as such under
section 6033 [26 USCS § 6033], and if such
taxpayer is thereafter held to be a taxable
organization for the taxable year for which the
return is filed, such return shall be deemed the
return of the organization for purposes of this
section.
(3) DISC.If a corporation determines in good
faith that it is a DISC (as defined in section
992(a) [26 USCS § 992(a)]) and files a return as
such under section 6011(c)(2) [26 USCS § 6011(c)
(2)] and if such corporation is thereafter held
to be a corporation which is not a DISC for
the taxable year for which the return is filed,
such return shall be deemed the return of a
corporation which is not a DISC for purposes
of this section.
(h)Net operating loss carryback or capital loss carrybacks. In the case of a deficiency attributable to the application to the taxpayer of a net operating loss carryback
or a capital loss carryback (including deficiencies which
may be assessed pursuant to the provisions of section
6213(b)(3) [26 USCS § 6213(b)(3)]), such deficiency may
be assessed at any time before the expiration of the period within which a deficiency for the taxable year of the
net operating loss or net capital loss which results in such
carryback may be assessed.

145a
Appendix I
(i)Foreign tax carrybacks. In the case of a deficiency attributable to the application to the taxpayer of a carryback
under section 904(c) [26 USCS § 904(c)] (relating to carryback and carryover of excess foreign taxes) or under section 907(f) [26 USCS § 907(f)] (relating to carryback and
carryover of disallowed oil and gas extraction taxes), such
deficiency may be assessed at any time before the expiration of one year after the expiration of the period within
which a deficiency may be assessed for the taxable year of
the excess taxes described in section 904(c) or 907(f) [26
USCS § 904(c) or 907(f)] which result in such carryback.
(j)Certain credit carrybacks.
(1)In general. In the case of a deficiency
attributable to the application to the taxpayer of
a credit carryback (including deficiencies which
may be assessed pursuant to the provisions of
section 6213(b)(3) [26 USCS § 6213(b)(3)]), such
deficiency may be assessed at any time before
the expiration of the period within which a
deficiency for the taxable year of the unused
credit which results in such carryback may
be assessed, or with respect to any portion
of a credit carryback from a taxable year
attributable to a net operating loss carryback,
capital loss carryback, or other credit carryback
from a subsequent taxable year, at any time
before the expiration of the period within which
a deficiency for such subsequent taxable year
may be assessed.

146a
Appendix I
(2)Credit carryback defined. For purposes of
this subsection, the term “credit carryback”
has the meaning given such term by section
6511(d)(4)(C) [26 USCS § 6511(d)(4)(C)].
(k)Tentative carryback adjustment assessment period. In
a case where an amount has been applied, credited, or refunded under section 6411 [26 USCS § 6411] (relating to
tentative carryback and refund adjustments) by reason of
a net operating loss carryback, a capital loss carryback, or
a credit carryback (as defined in Section 6511(d)(4)(C) [26
USCS § 6511(d)(4)(C)]) to a prior taxable year, the period
described in subsection (a) of this section for assessing a
deficiency for such prior taxable year shall be extended to
include the period described in subsection (h) or (j), whichever is applicable; except that the amount which may be
assessed solely by reason of this subsection shall not exceed the amount so applied, credited, or refunded under
section 6411 [26 USCS § 6411], reduced by any amount
which may be assessed solely by reason of subsection (h)
or (j), as the case may be.
(l)Special rule for chapter 42 and similar taxes.
(1)In general. For purposes of any tax imposed
by section 4912 [26 USCS § 4912], by chapter
42 (other than section 4940 [26 USCS § 4940]),
or by section 4975 [26 USCS § 4975], the return
referred to in this section shall be the return
filed by the private foundation, plan, trust, or
other organization (as the case may be) for the
year in which the act (or failure to act) giving

147a
Appendix I
rise to liability for such tax occurred. For
purposes of section 4940 [26 USCS § 4940],
such return is the return filed by the private
foundation for the taxable year for which the
tax is imposed.
(2)Certain contributions to section 501(c)(3)
organizations. In the case of a deficiency of tax
of a private foundation making a contribution
in the manner provided in section 4942(g)(3)
[26 USCS § 4942(g)(3)] (relating to certain
contributions to section 501(c)(3) [26 USCS
§ 501(c)(3)] organizations) attributable to the
failure of a section 501(c)(3) organization to make
the distribution prescribed by section 4942(g)
(3) [26 USCS § 4942(g)(3)], such deficiency may
be assessed at any time before the expiration
of one year after the expiration of the period
within which a deficiency may be assessed for
the taxable year with respect to which the
contribution was made.
(3)Certain set-asides described in section
4942(g)(2). In the case of a deficiency attributable
to the failure of an amount set aside by a private
foundation for a specific project to be treated as
a qualifying distribution under the provisions
of section 4942(g)(2)(B)(ii) [26 USCS § 4942(g)
(2)(B)(ii)], such deficiency may be assessed at
any time before the expiration of 2 years after
the expiration of the period within which a
deficiency may be assessed for the taxable year
to which the amount set aside relates.

148a
Appendix I
(m)Deficiencies attributable to election of certain credits.
The period for assessing a deficiency attributable to any
election under section 30(d)(4), 40(f), 43, 45B, 45C(d)(4),
or 51(j) [26 USCS § 30(d)(4), 40(f), 43, 45B, 45C(d)(4), or
51(j)] (or any revocation thereof) shall not expire before
the date 1 year after the date on which the Secretary is
notified of such election (or revocation).
(n)Cross references.
(1)For period of limitations for assessment and
collection in the case of a joint income return
filed after separate returns have been filed, see
section 6013(b)(3) and (4) [26 USCS § 6013(b)
(3) and (4)].
(2)For extension of period in the case of
partnership items (as defined in section 6231(a)
(3) [26 USCS § 6231(a)(3)]), see section 6229 [26
USCS § 6229].
(3)For declaratory judgment relating to
treatment of items other than partnership items
with respect to an oversheltered return, see
section 6234 [26 USCS § 6234].

149a
Appendix I
2004 26 USCS § 7654
§ 7654. Coordination of United States and certain possession individual income taxes.
(a)General rule. The net collection of taxes imposed by
chapter 1 for each taxable year with respect to an individual to whom section 931 or 932(c) [26 USCS § 931 or
932(c)] applies shall be covered into the Treasury of the
specified possession of which such individual is a bona fide
resident.
(b)Definition and special rule. For purposes of this section-(l)Net collections. In determining net collections
for a taxable year, an appropriate adjustment
shall be made for credits allowed against the
tax liability and refunds made of income taxes
for the taxable year.
(2)Specified possession. The term ‘specified
possession’ means Guam, American Samoa,
the Northern Mariana Islands, and the Virgin
Islands.
(c)Transfers. The transfers of funds between the United
States and any specified possession required by this section shall be made not less frequently than annually.
(d)Federal personnel. In addition to the amount determined under subsection (a), the United States shall pay to
each specified possession at such times and in such manner as determined by the Secretary--

150a
Appendix I
(l)the amount of the taxes deducted and
withheld by the United States under chapter 24
with respect to compensation paid to members
of the Armed Forces who are stationed in
such possession but who have no income tax
liability to such possession with respect to such
compensation by reason of the Servicemembers
Civil Relief Act (50 App. U S.C. 501 et seq.), and
(2)the amount of the taxes deducted and
withheld under chapter 24 with respect to
amounts paid for services performed as an
employee of the United States (or any agency
thereof) in a specified possession with respect
to an individual unless section 931 or 932(c) [26
USCS § 931 or 932(c)] applies.
(e)Regulations. The Secretary shall prescribe such regulations as may be necessary to carry out the provisions
of this section and sections 931 and 932 [26 USCS §§ 931
and 932], including regulations prohibiting the rebate of
taxes covered over which are allocable to United States
source income and prescribing the information which the
individuals to whom such sections may apply shall furnish
to the Secretary.

151a
Appendix I
26 CFR 1.932-1
§ 1.932-1 Coordination of United States and Virgin
Islands income taxes.
(a) Scope —
(1) In general. Section 932 [26 USCS § 932]
and this section set forth the special rules
relating to the filing of income tax returns and
income tax liabilities of individuals described
in paragraph (a)(2) of this section. Paragraph
(h) of this section also provides special rules
requiring consistent treatment of business
entities in the United States and in the United
States Virgin Islands (Virgin Islands).
(2) Individuals covered. This section will apply
to any individual who—
(i) Is a bona fide resident of the Virgin
Islands during the entire taxable
year;
(ii)
(A) Is a citizen or resident
of the United States (other
than a bona fide resident of
the Virgin Islands) during the
entire taxable year; and

152a
Appendix I
(B) Has income derived from
sou rces w ith i n the V i rg i n
Islands, or effectively connected
with the conduct of a trade
or business within the Virgin
Islands, for the taxable year; or
(iii) Files a joint return for the taxable
year with any individual described
in paragraph (a)(2)(i) or (ii) of this
section.
(3) Definitions. For purposes of this section—
(i) The rules of § 1.937-1 will apply for
determining whether an individual
is a bona fide resident of the Virgin
Islands;
(ii) The rules of § 1.937-2 will apply for
determining whether income is from
sources within the Virgin Islands; and
(iii) The rules of § 1.937-3 will apply
for determining whether income is
effectively connected with the conduct
of a trade or business within the
Virgin Islands.
(b) U.S. individuals with Virgin Islands income —
(1) Dual filing requirement. Subject to paragraph

153a
Appendix I
(d) of this section, an individual described in
paragraph (a)(2)(ii) of this section must make
an income tax return for the taxable year to
the United States and file a copy of such return
with the Virgin Islands. Such individuals must
also attach Form 8689, “Allocation of Individual
Income Tax to the U.S. Virgin Islands,” to the
U.S. income tax return and to the income tax
return filed with the Virgin Islands.
(2) Tax payments.
(i) Each individual to whom this
p a r a g r aph ( b) appl ie s for t he
taxable year must pay the applicable
percentage of the taxes imposed
by this chapter for such taxable
year (determined without regard to
paragraph (b)(2)(ii) of this section) to
the Virgin Islands.
(ii) A credit against the tax imposed
by this chapter for the taxable year
will be allowed in an amount equal
to the taxes that are required to
be paid to the Virgin Islands under
paragraph (b)(2)(i) of this section
and are so paid. Such taxes will be
considered creditable in the same
manner as taxes paid to the United
States (for example, under section 31
[26 USCS § 31]) and not as taxes paid

154a
Appendix I
to a foreign government (for example,
under sections 27 and 901 [26 USCS
§§ 27 and 901]).
(iii) For purposes of this paragraph
(b)(2)—
(A) T h e t e r m a p p l i c a b l e
percentage means the
percentage that Virgin Islands
adjusted gross income bears to
adjusted gross income;
(B) The term Virgin Islands
adjusted gross income means
adjusted g ross income
deter mined by tak ing into
account only income derived
from sources within the Virgin
Islands and deductions properly
apportioned or allocable to such
income. For purposes of the
preceding sentence, the rules of
§ 1.861-8 will apply; and
(C) Pursuant to § 1.937-2(a), the
rules of § 1.937-2(c)(1)(ii) and (c)
(2) do not apply.
(c) Bona fide residents of the Virgin Islands. Subject to
paragraph (d) of this section, an individual described in
paragraph (a)(2)(i) of this section will be subject to the following income tax return filing requirements:

155a
Appendix I
(1) Virgin Islands filing requirements. An
individual to whom this paragraph (c) applies
must file an income tax return for the taxable
year with the Virgin Islands. On this return, the
individual must report income from all sources
and identify the source of each item of income
shown on the return.
(2) U.S. filing requirements
(i) For purposes of calculating the
income tax liability to the United
States of an individual to whom this
paragraph (c) applies, gross income
will not include any amount included
in gross income on the return filed
with the Virgin Islands pursuant to
paragraph (c)(1) of this section, and
deductions and credits allocable to
such income will not be taken into
account, provided that—
(A) The individual fully satisfied
the reporting requirements of
paragraph (c)(1) of this section;
and
(B) The individual fully paid
the tax liability referred to
in section 934(a) [26 USCS
§ 934(a)] to the Virgin Islands
with respect to such income.

156a
Appendix I
(ii) For purposes of the U.S. statute
of limitations under section 6501(a) [26
USCS § 6501(a)], an income tax return
filed with the Virgin Islands by an
individual who takes the position that
he or she is a bona fide resident of the
Virgin Islands described in paragraph
(a)(2)(i) of this section (or an individual
who files a joint return with such an
individual under paragraph (d) of
this section) will be deemed to be
a U.S. income tax return, provided
that the United States and the
Virgin Islands have entered into an
agreement for the routine exchange of
income tax information satisfying the
requirements of the Commissioner.
The working arrangement announced
i n Not ice 2 0 0 7- 31 sat isf ies the
condition of the preceding sentence.
See Notice 2007-31 (2007-16 IRB 971)
(applicable to taxable years ending on
or after December 31, 2006, unless
and until arrangement terminates).
In the absence of such an agreement,
individuals to whom this paragraph (c)
applies generally must file an income
tax return for the taxable year with
the United States to begin the period
of limitations for Federal income tax
purposes as provided in section 6501(a)
[26 USCS § 6501(a)], and in such

157a
Appendix I
circumstances the Commissioner may
by revenue procedure, notice, or other
administrative pronouncement specify
U.S. filing and other information
reporting requirements for such
individuals. For taxable years ending
before December 31, 2006, the rules
provided in section 3 of Notice 200719 (2007-11 IRB 689) will apply. See
§ 601.601(d)(2)(ii)(b).
(3) U.S. tax payments. In the case of an
individual who is required to file an income tax
return with the United States as a consequence
of failing to satisfy the requirements of
paragraphs (c)(2)(i)(A) or (B) of this section,
there will be allowed as a credit against the tax
imposed by this chapter for the taxable year an
amount equal to the amount of the tax liability
referred to in section 934(a) [26 USCS § 934(a)]
to the extent paid to the Virgin Islands. Such
taxes shall be considered creditable in the same
manner as taxes paid to the United States (for
example, under section 31 [26 USCS § 31]) and
not as taxes paid to a foreign government (for
example, under sections 27 and 901 [26 USCS
§§ 27 and 901]).
(d) Joint returns. In the case of married persons, if one
or both spouses is an individual described in paragraph
(a)(2) of this section and they file a joint return of income
tax, the spouses must file their joint return with, and pay

158a
Appendix I
the tax due on such return to, the jurisdiction (or jurisdictions) where the spouse who has the greater adjusted
gross income for the taxable year would be required under paragraph (b) or (c) of this section to file a return if
separate returns were filed and all of their income were
the income of such spouse. For this purpose, adjusted
gross income of each spouse is determined under section
62 [26 USCS § 62] and the regulations under that section
but without regard to community property laws; and, if
one of the spouses dies, the taxable year of the surviving
spouse will be treated as ending on the date of such death.
(e) Place for filing returns —
(1) U.S. returns. Except as otherwise provided
for returns filed under paragraph (c)(2)(ii)
of this section, a return required under the
rules of paragraphs (b) and (c) of this section
to be filed with the United States must be
filed as directed in the applicable forms and
instructions.
(2) Virgin Islands returns. A return required
under the rules of paragraphs (b) and (c) of this
section to be filed with the Virgin Islands must
be filed as directed in the applicable forms and
instructions.
(f) Tax accounting standards —
(1) In general. A dual filing taxpayer must
use the same tax accounting standards on the
returns filed with the United States and the

159a
Appendix I
Virgin Islands. A taxpayer who has filed a
return only with the United States or only with
the Virgin Islands as a single filing taxpayer
for a prior taxable year and is required to
file a return only with the other jurisdiction
as a single filing taxpayer for a later taxable
year may not, for such later taxable year, use
different tax accounting standards unless the
second jurisdiction consents to such change.
However, such change will not be effective
for returns filed thereafter with the first
jurisdiction unless before such later date of
filing the taxpayer also obtains the consent of
the first jurisdiction to make such change. Any
request for consent to make a change pursuant
to this paragraph (f) must be made to the office
where the return is required to be filed under
paragraph (e) of this section and in sufficient
time to permit a copy of the consent to be
attached to the return for the taxable year.
(2) Definitions. For purposes of this paragraph
(f), the terms—
(i) Dual filing taxpayer means a
taxpayer who is required to file
returns with the United States and the
Virgin Islands for the same taxable
year under the rules of paragraph (b)
or (c) of this section;

160a
Appendix I
(ii) Single filing taxpayer means a
taxpayer who is required to file a return
only with the United States (because
the individual is not described in
paragraph (a)(2) of this section) or only
with the Virgin Islands (because the
individual is described in paragraph
(a)(2)(i) of this section and satisfies
the conditions of paragraphs (c)(2)(i)
and (ii) of this section) for the taxable
year; and
(iii) Ta x a ccou nt i ng st a nda rds
includes the taxpayer’s accounting
period, methods of accounting, and
any election to which the taxpayer is
bound with respect to the reporting
of taxable income.
(g) Extension of territory —(1) Section 932(a) [26 USCS
§ 932(a)] taxpayers —
(i) General rule. With respect to an
individual to whom section 932(a)
[26 USCS § 932(a)] applies for a
taxable year, for purposes of taxes
imposed by Chapter 1 of the Internal
Revenue Code (Code), the United
States generally will be treated, in a
geographical and governmental sense,
as including the Virgin Islands. The
purpose of this rule is to facilitate

161a
Appendix I
the coordination of the tax systems
of the United States and the Virgin
Islands. Accordingly, the rule will
have no effect where it is manifestly
inapplicable or its application would
be incompatible with the intent of any
provision of the Code.
(ii) Application of general r ule.
Contexts in which the general rule
of paragraph (g)(1)(i) of this section
apply include—
(A) The characterization of
taxes paid to the Virgin Islands.
An individual to whom section
9 3 2 (a) [2 6 USC S § 9 3 2 (a)]
applies may take income tax
required to be paid to the Virgin
Islands under section 932(b) [26
USCS § 932(b)] into account
under sections 31, 6315, and
6402(b) [26 USCS §§ 31, 6315,
and 6402(b)] as payments to the
United States. Taxes paid to the
Virgin Islands and otherwise
satisfying the requirements
of section 164(a) [26 USCS
§ 164(a)] will be allowed as a
deduction under that section,
but income taxes required to
be paid to the Virgin Islands

162a
Appendix I
under section 932(b) [26 USCS
§ 932(b)] will be disallowed as a
deduction under section 275(a)
[26 USCS § 275(a)];
(B) The determination of the
source of income for purposes
of the foreign tax credit (for
example, sections 901 through
904 [26 USCS §§ 901 through
904]). Thus, for example, after
an individual to whom section
9 3 2 (a) [2 6 USC S § 9 3 2 (a)]
applies determines which items
of income constitute income
from sources within the Virgin
Islands under the rules of section
937(b) [26 USCS § 937(b)], such
income will be treated as income
from sources within the United
States for purposes of section
904 [26 USCS § 904];
(C) The eligibility of a corporation
to make a subchapter S election
(sections 1361 through 1379
[26 USCS §§ 1361 through
1379]). T hus, for exa mple,
for purposes of determining
whether a corporation created
or organized in the Virg in
Islands may make an election

163a
Appendix I
under section 1362(a) [26 USCS
§ 1362(a)] to be a subchapter S
corporation, it will be treated
as a domestic corporation and
a shareholder to whom section
9 3 2 (a) [2 6 USC S § 9 3 2 (a)]
applies will not be treated as
a nonresident alien individual
with respect to such corporation.
While such an election is in
effect, the corporation w ill
b e t r e at e d a s a dome st ic
corporation for all purposes of
the Internal Revenue Code. For
the consistency requirement
with respect to entity status
elections, see paragraph (h) of
this section;
(D) The treatment of items
carried over from other taxable
years. Thus, for example, if
an individual to whom section
9 3 2 (a) [2 6 USC S § 9 3 2 (a)]
applies has for a taxable year a
net operating loss carryback or
carryover under section 172 [26
USCS § 172], a foreign tax credit
carryback or carryover under
section 904 [26 USCS § 904],
a business credit carryback
or carryover under section 39

164a
Appendix I
[26 USCS § 39], a capital loss
carryover under section 1212 [26
USCS § 1212], or a charitable
contributions carryover under
section 170 [26 USCS § 170], the
carryback or carryover will be
reported on the return filed in
accordance with paragraph (b)
(1) of this section, even though
the return of the taxpayer for
the taxable year giving rise to
the carryback or carryover was
required to be filed with the
Virgin Islands under section
932(c) [26 USCS § 932(c)]; and
(E) The treatment of property
exchanged for property of a like
kind (section 1031 [26 USCS
§ 1031]). Thus, for example, if
an individual to whom section
932(a) [26 USCS § 932(a)] applies
exchanges real property located
in the United States for real
property located in the Virgin
Islands, notwithstanding the
provisions of section 1031(h) [26
USCS § 1031(h)], such exchange
may qualify as a like-kind
exchange under section 1031
[26 USCS § 1031] (provided that
all the other requirements of

165a
Appendix I
section 1031 [26 USCS § 1031]
are satisfied).
(iii) Nonapplication of the general
rule. Contexts in which the general
rule of paragraph (g)(1)(i) of this
section does not apply include—
(A) The application of any rules
or regulations that explicitly
treat the United States and
any (or all) of its possessions
as separate jurisdictions (for
example, sections 931 through
937, 7651, and 7654 [26 USCS
§§ 931 through 937, 7651, and
7654]).
(B) T he det er m i n at ion of
any aspect of an individual’s
residency (for example, sections
937(a) and 7701(b) [26 USCS
§§ 937(a) and 7701(b)]). Thus, for
example, an individual whose
principal place of abode is in the
Virgin Islands is not considered
to have a principal place of
abode in the United States for
purposes of section 32(c) [26
USCS § 32(c)];

166a
Appendix I
(C) The characterization of a
corporation for purposes other
than subchapter S (for example,
sections 367, 951 through 964,
1291 through 1298, 6038, and
6038B [26 USCS §§ 367, 951
through 96 4, 1291 through
1298, 6038, and 6038B]). Thus,
for example, if an individual to
whom section 932(a) [26 USCS
§ 9 32(a)] appl ies t ransfers
appreciated tangible property
to a corporation created or
organized in the Virgin Islands
in a transaction described in
section 351 [26 USCS § 351],
he or she must recognize gain
unless an exception under
section 367(a) [26 USCS § 367(a)]
applies. Also, if a corporation
created or organized in the
Virgin Islands qualifies as a
passive foreig n investment
company under sections 1297
and 1298 [26 USCS §§ 1297
and 1298] with respect to an
individual to whom section
9 3 2 (a) [2 6 USC S § 9 3 2 (a)]
applies, a dividend paid to such
shareholder does not constitute
qualified dividend income under
section 1(h)(11)(B) [26 USCS
§ 1(h)(11)(B)].

167a
Appendix I
(2) Section 932(c)[26 USCS § 932(c)] taxpayers
—
(i) General rule. With respect to an
individual to whom section 932(c) [26
USCS § 932(c)] applies for a taxable
year, for purposes of the territorial
income tax of the Virgin Islands
(that is, mirrored sections of the
Code), the Virgin Islands generally
will be treated, in a geographical and
governmental sense, as including the
United States. The purpose of this
rule is to facilitate the coordination of
the tax systems of the United States
and the Virgin Islands. Accordingly,
the rule will have no effect where
it is manifestly inapplicable or its
application would be incompatible with
the intent of any provision of the Code.
(ii) Application of general r ule.
Contexts in which the general rule
of paragraph (g)(2)(i) of this section
apply include—
(A) The characterization of
taxes paid to the United States.
A taxpayer described in section
932(c)(1) [26 USCS § 932(c)(1)]
may take income tax paid to
the United States into account

168a
Appendix I
under mirrored sections 31,
6315, and 6402(b) [26 USCS
§§ 31, 6315, and 6402(b)] as
payments to the Virgin Islands;
(B) The determination of the
source of income for purposes
of the foreign tax credit (for
example, mirrored sections
901 through 904 [26 USCS
§§ 901 through 904]). Thus, for
example, any item of income
that constitutes income from
sources within the United States
under the rules of sections 861
through 865 [26 USCS §§ 861
through 865] will be treated as
income from sources within the
Virgin Islands for purposes of
mirrored section 904 [26 USCS
§ 904];
(C) The eligibility of a corporation
to make a subchapter S election
(mirrored sections 1361 through
1379 [26 USCS §§ 1361 through
1379]). T hus, for exa mple,
for purposes of determining
whether a corporation created
or organized in the United
States may make an election
under mirrored section 1362(a)

169a
Appendix I
[26 USCS § 1362(a)] to be a
subchapter S corporation, it
will be treated as a domestic
corporation and a shareholder
to whom section 932(c) [26
USCS § 932(c)] applies will not
be treated as a nonresident
alien individual with respect
to such corporation. W hile
such an election is in effect,
the corporation will be treated
as a domestic corporation for
all purposes of the territorial
income tax. For the consistency
requirement with respect to
entity status elections, see
paragraph (h) of this section;
(D) The treatment of items
carried over from other taxable
years. Thus, for example, if an
individual to whom section 932(c)
[26 USCS § 932(c)] applies has
for a taxable year a net operating
loss carryback or carryover
under mirrored section 172
[26 USCS § 172], a foreign tax
credit carryback or carryover
under mirrored section 904 [26
USCS § 904], a business credit
carryback or carryover under
mirrored section 39 [26 USCS

170a
Appendix I
§ 39], a capital loss carryover
under mirrored section 1212 [26
USCS § 1212], or a charitable
contributions carryover under
m i r r or e d s e c t ion 170 [2 6
USCS § 170], the carryback or
carryover will be reported on
the return filed in accordance
with paragraph (c)(1) of this
section, even though the return
of the taxpayer for the taxable
year giving rise to the carryback
or carryover was required to be
filed with the United States; and
(E) The treatment of property
exchanged for property of a
like kind (mirrored section
1031 [26 USCS § 1031]). Thus,
for example, if an individual to
whom section 932(c) [26 USCS
§ 932(c)] applies exchanges
real property located in the
United States for real property
located in the Virgin Islands,
notwithstanding the provisions
of mirrored section 1031(h)
[2 6 USCS § 10 31( h)], such
exchange may qualify as a likekind exchange under mirrored
section 1031 [26 USCS § 1031]
(provided that all the other

171a
Appendix I
requ i rement s of m i r rored
section 1031 [26 USCS § 1031]
are satisfied).
(iii) Nonapplication of general rule.
Contexts in which the general rule of
paragraph (g)(2)(i) of this section does
not apply include—
(A) T he det er m i n at ion of
any aspect of an individual’s
re sidenc y (for e x a mple ,
mirrored section 7701(b) [26
USCS § 7701(b)]). Thus, for
example, an individual whose
principal place of abode is in the
United States is not considered
to have a principal place of
abode in the Virgin Islands for
purposes of mirrored section
32(c) [26 USCS § 32(c)].
(B) The determination of the
source of income for purposes
other than the foreign tax credit
(for example, sections 932(a)
and (b), 934(b), and 937 [26
USCS §§ 932(a) and (b), 934(b),
and 937]). Thus, for example,
compensat ion for ser v ices
performed in the United States
and rentals or royalties from

172a
Appendix I
property located in the United
States do not constitute income
from sources within the Virgin
Islands for purposes of section
934(b) [26 USCS § 934(b)]; and
(C) The definition of wages
(mir rored section 3401 [26
US C S § 3 4 01] ). T hu s , for
example, services performed
by an employee for an employer
in the United States do not
constitute services performed
in the Virgin Islands under
mirrored section 3401(a)(8) [26
USCS § 3401(a)(8)].
(h) Entity status consistency requirement —
(1) In general. Taxpayers should make consistent
entity status elections (as defined in paragraph
(h)(3) of this section), where applicable, in both
the United States and the Virgin Islands.
In the case of a business entity to which this
paragraph (h) applies—
(i) If an entity status election is filed
with the Internal Revenue Service
(IRS) but not with the Virgin Islands
Bureau of Internal Revenue (BIR), the
Director of the BIR or his delegate, at
his discretion, may deem the election

173a
Appendix I
also to have been made for Virgin
Islands tax purposes;
(ii) If an entity status election is filed
with the BIR but not with the IRS, the
Commissioner, at his discretion, may
deem the election also to have been
made for Federal tax purposes; and
(iii) If inconsistent entity status
elections are filed with the BIR and
the IRS, both the Commissioner and
the Director of the BIR or his delegate
may, at their individual discretion,
treat the elections they each received
as invalid and may deem the election
filed in the other jurisdiction to have
been made also for tax purposes
in their own jurisdiction. See Rev.
Proc. 2006-23 (2006-1 CB 900) (see
§ 601.601(d)(2)(ii)(b) of this chapter)
for procedures for requesting the
assistance of the IRS when a taxpayer
is or may be subject to inconsistent
tax treatment by the IRS and a U.S.
possession tax agency.
(2) Scope. This paragraph (h) applies to the
following business entities:
(i) A business entity (as defined in
§ 301.7701-2(a) of this chapter) that is
domestic (as defined in § 301.7701-5

174a
Appendix I
of this chapter), or otherwise treated
as domestic for purposes of the Code,
and that is owned in whole or in part
by any person who is either a bona
fide resident of the Virgin Islands or
a business entity created or organized
in the Virgin Islands.
(ii) A business entity that is created
or organized in the Virgin Islands
and that is owned in whole or in part
by any U.S. person (other than a bona
fide resident of the Virgin Islands).
(3) Definition. For purposes of this section, the
term entity status election includes an election
under § 301.7701-3(c) of this chapter, an election
under section 1362(a) [26 USCS § 1362(a)], and
any other similar elections.
(4) Default status. Solely for the purpose of
determining classification of an eligible entity
under § 301.7701-3(b) of this chapter and under
that section as mirrored in the Virgin Islands,
an eligible entity subject to this paragraph (h)
will be classified for both Federal and Virgin
Islands tax purposes using the rule that applies
to domestic eligible entities.
(5) Transition rules —
(i) In the case of an election filed prior
to April 11, 2005, except as provided

175a
Appendix I
in paragraph (h)(5)(ii) of this section,
the rules of paragraph (h)(1) of this
section will apply as of the first day
of the first taxable year of the entity
beginning after April 11, 2005.
(ii) In the unlikely circumstance that
inconsistent elections described in
paragraph (h)(1)(iii) of this section
are filed prior to April 11, 2005,
and the entity cannot change its
classification to achieve consistency
because of the sixty-month limitation
described in § 301.7701-3(c)(1)(iv)
of this chapter, then the entity may
nevertheless request permission from
the Commissioner or the Director of
the BIR or his delegate to change
such election to avoid inconsistent
treatment by the Commissioner
and the Director of the BIR or his
delegate.
(iii) Except as provided in paragraphs
(h)(5)(i) and (h)(5)(ii) of this section,
in the case of an election filed with
respect to an entity before it became
an entity described in paragraph (h)(2)
of this section, the rules of paragraph
(h)(1) of this section will apply as of the
first day that such entity is described
in paragraph (h)(2) of this section.

176a
Appendix I
(iv) In the case of an entity created
or organized prior to April 11, 2005,
paragraph (h)(4) of this section will
take effect for Federal income tax
purposes (or Virgin Islands income
tax purposes, as the case may be) as
of the first day of the first taxable year
of the entity beginning after April 11,
2005.
(i) Examples. The rules of this section are illustrated by
the following examples:
Example 1.
(i) A is a U.S. citizen who resides in State
R. For 2008, A files with the IRS a Form
1040, “U.S. Individual Income Tax Return,”
reporting adjusted gross income of $ 90x,
which includes $ 30x from sources in the
Virgin Islands. The income tax liability
reported on A’s Form 1040 is $ 18x. A files
a copy of his Form 1040 with the Virgin
Islands as required by section 932(a)(2) [26
USCS § 932(a)(2)] and paragraph (b)(1) of
this section. A pays to the Virgin Islands
the applicable percentage of his Federal
income tax liability as required by section
932(b) [26 USCS § 932(b)] and paragraph
(b)(2) of this section, computed as follows:
$ 30x/$ 90x x $ 18x = $ 6x income tax
liability to the Virgin Islands.

177a
Appendix I
(ii) A claims a credit in the amount of
$ 6x against his Federal income tax liability
reported on his Form 1040. A attaches a Form
8689, “Allocation of Individual Income Tax to
the U.S. Virgin Islands,” to the Form 1040 filed
with the IRS and to the copy filed with the
Virgin Islands.
Example 2.
(i) B, a U.S. citizen, files returns on a
calendar year basis. In November 2008, B
moves to the Virgin Islands, purchases a
house, and accepts a permanent position
with a local employer. For the remainder of
the year and throughout 2009, B continues
to live and work in the Virgin Islands
and has a closer connection to the Virgin
Islands than to the United States or any
foreign country. As a consequence of his
employment in the Virgin Islands, B earns
income from the performance of services in
the Virgin Islands during 2008 and 2009.
(ii) For 2008, B does not qualify as a
bona fide resident under section 937(a)
[26 USCS § 937(a)] and § 1.937-1(b) and (f)
(1). Therefore, B is subject to the rules of
sections 932(a) and (b) [26 USCS §§ 932(a)
and (b)] and paragraph (b) of this section
for 2008 because he has income derived
from sources within the Virgin Islands as

178a
Appendix I
determined under the rules of section 937(b)
[26 USCS § 937(b)] and § 1.937-2.
(iii) For 2009, assuming that B otherwise
satisfies the requirements of section 937(a)
[26 USCS § 937(a)] and § 1.937-1(b), B
qualifies as a bona fide resident of the
Virgin Islands. Therefore, section 932(c)
[26 USCS § 932(c)] and paragraph (c) of
this section apply to B for 2009, and he
must file his income tax return with the
Virgin Islands under paragraph (c)(1) of this
section. Provided that B fully satisfies the
reporting requirements of paragraph (c)(1)
of this section and fully pays the tax liability
referred to in section 934(a) [26 USCS
§ 934(a)], B will have no Federal income
tax filing requirement or liability under
paragraphs (c)(2) and (3) of this section.
Example 3. H and W are U.S. citizens. H resides
in State T and W is a bona fide resident
of the Virgin Islands. For 2008, H and W
prepare a joint Form 1040, “U.S. Individual
Income Tax Return,” reporting total
adjusted gross income of $ 75x, of which
$ 40x is attributable to compensation that
W received for services performed in the
Virgin Islands and $ 35x to compensation
that H received for services performed in
State T. Pursuant to section 932(d) [26 USCS
§ 932(d)] and paragraph (d) of this section,

179a
Appendix I
because W would have the greater adjusted
gross income if computed separately, H and
W must file their joint Form 1040 with the
Virgin Islands as required by section 932(c)
[26 USCS § 932(c)] and paragraph (c)(1) of
this section. H and W may claim a tax credit
on such return for income tax withheld
during 2008 and paid to the IRS.
Example 4.
(i) The facts are the same as in Example 3,
except that H also earns $ 25x for services
performed in the Virgin Islands, so that
H and W’s total adjusted gross income is
$ 100x, and their total income tax liability
is $ 20x.
(ii) Pursuant to section 932(d) [26 USCS
§ 932(d)] and paragraph (d) of this section,
because H would have the greater adjusted
gross income if computed separately, H and
W must file their joint Form 1040 with the
IRS and must file a copy of that joint Form
1040 with the Virgin Islands as required by
section 932(a)(2) [26 USCS § 932(a)(2)] and
paragraph (b)(1) of this section. H and W
must pay the applicable percentage of their
Federal income tax liability to the Virgin
Islands as required by section 932(b) [26
USCS § 932(b)] and paragraph (b)(2) of this
section, computed as follows: $ 65x /$ 100x

180a
Appendix I
x $ 20x = $ 13x income tax liability to the
Virgin Islands.
(iii) H and W claim a credit against their
Federal income tax liability reported on
their joint Form 1040 in the amount of
$ 13x, the portion of their Federal income
tax liability required to be paid to the Virgin
Islands. H and W attach a Form 8689,
“Allocation of Individual Income Tax to the
U.S. Virgin Islands,” to their joint Form
1040 filed with the IRS and to the copy filed
with the Virgin Islands.
Example 5. N, a U.S. citizen and calendar year
taxpayer, takes the position that he is a
bona fide resident of the Virgin Islands for
the 2007 taxable year. On April 15, 2008, N
files a Form 1040, “U.S. Individual Income
Tax Return,” with the Virgin Islands for
his 2007 taxable year. N does not file a
Form 1040 with the IRS. Because there is
an agreement in force between the United
States and the Virgin Islands for the routine
exchange of income tax information, under
paragraph (c)(2)(ii) of this section, the
Federal 3-year period of limitations under
section 6501(a) [26 USCS § 6501(a)] will
expire on April 15, 2011, and the IRS will
make no further assessment of income tax
after that date for N’s 2007 taxable year
except as otherwise authorized by section
6501 [26 USCS § 6501].

181a
Appendix I
Example 6.
(i) J is a U.S. citizen and a bona fide resident
of the Virgin Islands. In 2008, J receives
compensation for services performed as an
employee in the Virgin Islands in the amount
of $ 40x. J files with the Virgin Islands a
Form 1040, “U.S. Individual Income Tax
Return,” reporting gross income of only
$ 30x. Based on these facts, J has not
satisfied the conditions of section 932(c)
(4) [26 USCS § 932(c)(4)] and paragraph (c)
of this section for an exclusion from gross
income for Federal income tax purposes.
(ii) The facts are the same as in paragraph
(i) of this Example 6 except that on or before
the last day prescribed for filing an income
tax return for J’s 2008 taxable year, J files
with the Virgin Islands an amended Form
1040 for 2008, correctly reporting the full
$ 40x of compensation. Provided that J
otherwise fully satisfies the reporting
requirements of paragraph (c)(1) of this
section and fully pays the tax liability
referred to in section 934(a) [26 USCS
§ 934(a)], J will have no Federal income
tax filing requirement or liability under
paragraphs (c)(2) and (3) of this section.

182a
Appendix I
Example 7.
(i) N is a U.S. citizen and a bona fide resident
of the Virgin Islands. In 2008, N receives
compensation for services performed in
Country M. N files with the Virgin Islands
a Form 1040, “U.S. Individual Income
Tax Return,” reporting the compensation
as income effectively connected with the
conduct of a trade or business in the Virgin
Islands. N claims a special credit against
the tax on this compensation pursuant to a
Virgin Islands law enacted within the limits
of its authority under section 934 [26 USCS
§ 934].
(ii) Under the principles of section 864(c)(4)
[26 USCS § 864(c)(4)] as applied pursuant
to section 937(b)(1) [26 USCS § 937(b)(1)]
and § 1.937-3(b), compensation for services
performed outside the Virgin Islands
may not be treated as income effectively
connected with the conduct of a trade or
business in the Virgin Islands for purposes
of section 934(b) [26 USCS § 934(b)].
Consequently, N is not entitled to claim
the special credit under Virgin Islands law
with respect to N’s income from services
performed in Country M. Because N has
not fully paid his tax liability referred to
in section 934(a) [26 USCS § 934(a)], he has
not satisfied the conditions of section 932(c)

183a
Appendix I
(4) [26 USCS § 932(c)(4)] and paragraph (c)
of this section for an exclusion from gross
income for Federal income tax purposes.
Therefore, income reported on the Form
1040 as filed with the Virgin Islands must
be included in N’s Federal gross income.
Under paragraph (c)(3) of this section, the
amount of tax paid to the Virgin Islands
on such income will be allowed as a credit
against N’s Federal income tax liability.
(j) Effective/applicability date. Except as otherwise
provided in this paragraph (j), this section applies to
taxable years ending after April 9, 2008. Taxpayers may
choose to apply paragraph (c)(2)(ii) of this section to open
taxable years ending on or after December 31, 2006.

